<html>
<title> - H.R. 4368, A BILL TO TRANSFER THE NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION TO THE DEPARTMENT OF THE INTERIOR.</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
  H.R. 4368, A BILL TO TRANSFER THE NATIONAL OCEANIC AND ATMOSPHERIC 
           ADMINISTRATION TO THE DEPARTMENT OF THE INTERIOR.

=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                      Thursday, September 30, 2004

                               __________

                           Serial No. 108-108

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                              ______

                 U.S. GOVERNMENT PRINTING OFFICE

96-207                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail 
Stop SSOP, Washington, DC 20402-0001









                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               Stephanie Herseth, South Dakota
Tom Osborne, Nebraska                George Miller, California
Jeff Flake, Arizona                  Edward J. Markey, Massachusetts
Dennis R. Rehberg, Montana           Ruben Hinojosa, Texas
Rick Renzi, Arizona                  Ciro D. Rodriguez, Texas
Tom Cole, Oklahoma                   Joe Baca, California
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
        FRANK PALLONE, JR., New Jersey, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey               Neil Abercrombie, Hawaii
Mark E. Souder, Indiana              Solomon P. Ortiz, Texas
Walter B. Jones, Jr., North          Ron Kind, Wisconsin
    Carolina                         Madeleine Z. Bordallo, Guam
Randy Neugebauer, Texas              Nick J. Rahall II, West Virginia, 
Richard W. Pombo, California, ex         ex officio
    officio
                                 ------                                













                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Thursday, September 30, 2004.....................     1

Statement of Members:
    Faleomavaega, Hon. Eni F.H., a Delegate in Congress from 
      American Samoa.............................................     8
    Farr, Hon. Sam, a Representative in Congress from the State 
      of California..............................................    10
        Prepared statement of....................................    10
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     1
        Prepared statement of....................................     2
    Pallone, Hon. Frank, Jr., a Representative in Congress from 
      the State of New Jersey....................................     3
        Prepared statement of....................................     4
    Pombo, Hon. Richard W., a Representative in Congress from the 
      State of California........................................     8
        Prepared statement of....................................     9
    Saxton, Hon. Jim, a Representative in Congress from the State 
      of New Jersey..............................................     5
        Prepared statement of....................................     7

Statement of Witnesses:
    Hayes, Robert G., General Counsel, Coastal Conservation 
      Association................................................    47
        Prepared statement of....................................    49
    Keeney, Timothy R.E., Deputy Assistant Secretary for Oceans 
      and Atmosphere, National Oceanic and Atmospheric 
      Administration (NOAA), U.S. Department of Commerce.........    13
        Prepared statement of....................................    14
    Mann, Christopher G., Policy Director, Center for SeaChange..    53
        Prepared statement of....................................    55
    Moore, Rod, Executive Director, West Coast Seafood Processors 
      Association................................................    57
        Prepared statement of....................................    58
    Palatiello, John M., Executive Director, Management 
      Association for Private Photogrammetric Surveyors (MAPPS)..    36
        Prepared statement of....................................    38
    Rosenberg, Andrew A., Ph.D., Member, U.S. Commission on Ocean 
      Policy, and Professor, University of New Hampshire.........    41
        Prepared statement of....................................    43














   LEGISLATIVE HEARING ON H.R. 4368, A BILL TO TRANSFER THE NATIONAL 
    OCEANIC AND ATMOSPHERIC ADMINISTRATION TO THE DEPARTMENT OF THE 
                               INTERIOR.

                              ----------                              


                      Thursday, September 30, 2004

                     U.S. House of Representatives

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                         Committee on Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 1324, Longworth House Office Building, Hon. Wayne T. 
Gilchrest [Chairman of the Subcommittee] presiding.
    Present: Representatives Gilchrest, Saxton, Pombo, Pallone 
and Faleomavaega.
    Also Present: Representative Farr.

 STATEMENT OF THE HON. WAYNE T. GILCHREST, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. Good morning, everyone. The Subcommittee on 
Fisheries Conservation, Wildlife and Oceans will come to order. 
I want to welcome all of you here today, and thank you for 
coming either to testify or to listen on H.R. 4368, the Weather 
and Oceans Resources Realignment Act.
    This legislation offered by the gentleman from New Jersey, 
Mr. Saxton, would transfer NOAA into the Department of the 
Interior.
    NOAA performs a number of vital services to the Nation, 
including the monitoring and management of our oceans, 
monitoring meteorological trends, and making life-saving storm 
predictions. Its job is to bring together many pieces of 
complex oceanic and atmospheric systems so that we can best 
understand and utilize them as good stewards.
    Since its inception, there has been much debate about where 
to best place NOAA within the Federal Government. I want to 
thank Mr. Saxton, the former Chair of this subcommittee, for 
introducing this legislation and for bringing us together to 
talk in pretty good detailed terms about this particular 
proposal, and also about, as some of you mentioned in your 
testimony, the details upon which the substance of the creation 
of NOAA is being discussed here today: What are our goals with 
NOAA? What are their objectives? And, as some of you have 
mentioned in your testimony, can the existing structure meet 
those goals?
    But Mr. Saxton's contribution here as far as the management 
of ocean resources in this committee has been invaluable.
    Most recently the Senate Commerce Committee debated a bill 
that would have, among other things, made NOAA an independent 
agency, which, by the way, is still in the discussion stage as 
far as the House is concerned. When the bill emerged from the 
committee, the bill maintained NOAA within the Department of 
Commerce, but creates a separate budget authority for the 
agency. I believe this was done in recognition of the 
difficulties of maintaining an adequate level of funding to 
support the variety of missions of the Department of Commerce, 
including the scientific and management missions of NOAA.
    In addition, the U.S. Commission on Ocean Policy's recently 
released final report suggests a three-phase approach resulting 
in an agency responsible for the management of all natural 
resources. I think an argument can be made for the 
establishment of an oceans agency.
    Today's hearing is just a starting point for this 
discussion and for a broader discussion of the suggestions made 
by the Commission's report. I look forward to the 
recommendations of the President.
    We certainly look forward to the next Congress in 
developing legislation and further evolving our understanding 
of oceans issues; looking back into the history of this 
Nation's involvement in fisheries, in oceans research, and in 
oceans in general, and certainly throughout the last several 
decades. But now we have reached a point where there needs to 
be another evaluation of NOAA's place in being the lead entity, 
whether in Commerce, in Interior, or as a separate agency, to 
represent and develop policies for the United States and its 
relationship with the international community, to deal with 
fisheries on an international basis, to deal with oceans 
issues, since oceans cover 70 percent of the Earth's surface, 
as far as an ecological system is concerned; and if we are 
going to begin to understand in a much more pragmatic way, is 
there some truth to global warming and climate change? And if 
the United States is to be a leader in the world on these vital 
issues, we have to understand whether or not the agency that is 
now, for the most part, the lead agency in the United States 
for these issues, is capable of performing those tasks.
    [The prepared statement of Mr. Gilchrest follows:]

       Statement of The Honorable Wayne T. Gilchrest, Chairman, 
      Subcommittee on Fisheries Conservation, Wildlife and Oceans

    I would like to welcome our witnesses to today's hearing on H.R. 
4368, the Weather and Oceans Resources Realignment Act. This 
legislation would transfer the National Oceanic and Atmospheric 
Administration (NOAA) to the Department of the Interior.
    NOAA performs a number of vital services to the nation, including 
the monitoring and management of our oceans, monitoring meteorological 
trends, and making life-saving storm predictions. Its job is to bring 
together many pieces of complex oceanic and atmospheric systems so that 
we can best understand and utilize them as good stewards.
    Since its inception, there has been much debate about where to best 
place NOAA within the Federal government. I thank Congressman Saxton, 
the former Chair of this Subcommittee, for introducing this 
legislation. His contribution to this discussion, especially with 
regard to the management of ocean resources in this committee, is 
invaluable.
    Most recently, the Senate Commerce Committee debated a bill that 
would have, among other things, made NOAA an independent agency. When 
the bill emerged from the Committee, the bill maintained NOAA within 
the Department of Commerce, but creates a separate budget authority for 
the agency. I believe this was done in recognition of the difficulties 
of maintaining an adequate level of funding to support the variety of 
missions of the Department of Commerce--including the scientific and 
management missions of NOAA.
    In addition, the U.S. Commission on Ocean Policy's recently 
released Final Report suggests a three-phase approach resulting in an 
agency responsible for the management of all natural resources. I think 
an argument could also be made for the establishment of an oceans 
agency.
    Today's hearing is just a starting point for this discussion and 
for a broader discussion of the suggestions made by the Commission's 
report. I look forward to the recommendations of the President and note 
that an interagency policy group has been formed by the White House 
Council on Environmental Quality to respond to the Commission's report.
    I look forward to hearing from our witnesses.
                                 ______
                                 
    Mr. Gilchrest. I yield to the gentleman from New Jersey, 
Mr. Pallone.
    Mr. Pallone. Thank you, Mr. Chairman. If I could just ask 
unanimous consent that Mr. Farr be seated at the dais and 
participate fully with the Subcommittee.
    Mr. Gilchrest. Is there objection? Hearing no objection.
    Mr. Saxton. I am not sure about his tie, though. It has 
frogs on it.
    Mr. Farr. It is a Resources tie.
    Mr. Pallone. Thank you, Mr. Chairman.
    Mr. Gilchrest. Hearing no objection, so ordered.

   STATEMENT OF THE HON. FRANK PALLONE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Mr. Chairman, the history of how NOAA ended up 
in the Department of Commerce and not in the Department of the 
Interior as initially intended is an example of how arbitrary 
events have often directed the structuring of our government. 
In fairness to NOAA, however, the agency has made the best of 
an unusual situation. NOAA has matured into a focused advocate 
for our Nation's ocean and coastal resources that was 
envisioned essentially by the Stratton Commission over 30 years 
ago.
    I want to commend not only those administrators who have 
led NOAA since 1970, but also the agency's many scientists, 
uniformed officers, technicians and resource managers for their 
dedication toward fulfilling NOAA's multifaceted and complex 
mission, and essentially as the preeminent steward of our 
Nation's oceans.
    With the release of the final report of the U.S. Oceans--
the U.S. Commission on Ocean Policy, the real work of sorting 
out NOAA's future and its place in the Federal establishment 
should become a CONGRESSIONAL priority. If we are to take 
seriously the recommendations of this report as well as those 
of the 2003 Pew Ocean Commission's report, Congress should not 
ignore this issue. And I am just pleased that several Members 
have introduced legislation to begin the discussion. My 
colleague from New Jersey, Mr. Saxton, introduced H.R. 4368, 
which would transfer NOAA to the Department of Interior.
    I hope, Mr. Chairman, that we will have future 
opportunities to consider other relevant legislation such as 
the bills offered by Mr. Farr, Mr. Rahall and our other 
colleagues in the House Oceans Caucus. Most importantly, we 
should consider the pressing need to develop an organic act for 
NOAA. While the agency has performed admirably over its 
history, it needs the certainty of a congressionally mandated 
mission to give the agency direction and permanence.
    I look forward to hearing from our witnesses on Mr. 
Saxton's bill and whether or not it can achieve the 
recommendation of the two ocean commissions, which is 
essentially to strengthen NOAA. However, I must express my 
disappointment that we do not have anyone testifying this 
morning from the Department of Interior, from the Coastal 
States Organization, the Sea Grant Association, or the 
Consortium For Ocean Research and Education, because each of 
these organizations has a vested interest in the NOAA programs, 
and the Subcommittee would be wise to solicit their views on 
this issue.
    I appreciate the fact that we are having this hearing, Mr. 
Chairman. It is certainly a beginning, but I do think that we 
need to have some follow-ups on the legislation by Mr. Farr, 
and we need to have some of these people testify in the future. 
Thank you.
    [The prepared statement of Mr. Pallone follows:]

Statement of The Honorable Frank Pallone, a Representative in Congress 
                      from the State of New Jersey

    Thank you, Mr. Chairman.
    The history of how the National Oceanic and Atmospheric 
Administration, or NOAA, ended up in the Department of Commerce, and 
not in the Department of the Interior as initially intended, is an 
example of how arbitrary events have often directed the structuring of 
our government.
    In fairness to NOAA, however, the agency has made the best of an 
unusual situation. NOAA has matured into the focused advocate for our 
Nation's ocean and coastal resources that was envisioned by the 
Stratton Commission over thirty years ago.
    I commend not only those administrators who have led NOAA since 
1970, but also the agency's many scientists, uniformed officers, 
technicians and resource managers for their dedication towards 
fulfilling NOAA's multi-faceted and complex mission as the preeminent 
steward of our Nation's oceans.
    Now, with the release of the final report of the U.S. Commission on 
Ocean Policy, the real work of sorting out NOAA's future and its place 
in the Federal establishment should become a congressional priority. If 
we are to take seriously the recommendations of this report and the 
2003 Pew Oceans Commission report, Congress should not ignore this 
issue.
    I am pleased that several members have introduced legislation to 
begin this discussion. My colleague from New Jersey, Jim Saxton, 
introduced H.R. 4368, which would transfer NOAA to the Department of 
the Interior. I hope, Mr. Chairman, that we will have future 
opportunities to consider other relevant legislation, such as the bills 
offered by Mr. Farr, Mr. Rahall, and our other colleagues in the House 
Oceans Caucus.
    Most importantly, we should consider the pressing need to develop 
an Organic Act for NOAA. While the agency has performed admirably over 
its history, it needs the certainty of a Congressionally mandated 
mission to give the agency direction and permanence.
    I look forward to hearing from our witnesses on Mr. Saxton's bill 
and whether or not it can achieve the recommendation of the two ocean 
commissions, which is to strengthen NOAA. However, I must express my 
disappointment that we do not have anyone testifying this morning from 
the Department of the Interior, the Coastal States Organization, the 
National Sea Grant Association, or the Consortium for Ocean Research 
and Education. Each of these organizations has a vested interest in 
NOAA programs and the subcommittee would be wise to solicit their views 
on this issue.
    Thank you.
                                 ______
                                 
    Mr. Gilchrest. Thank you, Mr. Pallone. Certainly we can 
follow up with another hearing as we move through the process 
of developing a NOAA Organic Act, and prior to that, though, we 
can probably sit down and talk to Fish and Wildlife in the 
interim.
    Mr. Gilchrest. The gentleman from California has left the 
room.
    The gentleman from New Jersey, Mr. Saxton.

STATEMENT OF THE HON. JIM SAXTON, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW JERSEY

    Mr. Saxton. Thank you, Mr. Chairman. I appreciate you 
calling this hearing. It is late in the session, and we have a 
lot of things to do, but this is certainly one of the more 
important issues that we need to address.
    During the two decades that I have had the pleasure to 
serve this committee, and formerly on the Merchant Narine and 
Fisheries Committee, I have learned a lot about ocean 
management. I have learned about some successes that we have 
had, and I have also learned about some failures that we have 
had. And relative to this case, I am very concerned about the 
performance of the National Fisheries Service as an integral 
part of NOAA and the Department of Commerce.
    Just one fact that I think we should all keep in mind is 
that with regard to the management of ocean resources, the set 
of species that are the flagship species that may have a lot to 
do with telling us how we are doing with the ocean, of course, 
is fish, and it is no surprise to any of us who have worked on 
these subjects that we know that the fish stocks are not in 
good shape, and, as a matter of fact, many species are said to 
be 90 percent deleted. That certainly cannot be viewed as a 
success.
    At the same time, I had an experience last week where Dr. 
Hogarth came to visit me, and he said, Congressman, I 
understand you do not like the way I am doing my job. And I 
said, Bill, you and I are friends, and that is not how I would 
put it. I have been working with these issues now for two 
decades, and neither you nor your predecessors have been able 
to do your job given the situation that you are appointed to. 
And I think that what we are ought to do is to try to find a 
way to change this.
    So there are a number of issues that we should look at 
here. We should look at the history of NOAA and the National 
Marine Fisheries Service (NMFS). I think it is interesting to 
look back. I am told by staff who have been very much into this 
set of issues and by the Commission on Ocean Policy that in 
1990, when the Bureau of Commercial Fisheries, largely for 
political reasons at the time according to this information, 
was moved to the Department of Commerce and renamed the 
National Marine Fisheries Service largely for political 
reasons, not for reasons that have to do with the management of 
natural resources, but for political reasons, and that was a 
bad start in 1970, and that was not Dr. Hogarth's fault or 
anybody else that works in National Marine and Fisheries 
Service today.
    So I guess what I want to say here is that we are in this 
together. I have been here for 20 years. Others have been here 
perhaps not quite as long as that, as I look around the table, 
and still we find ourselves in a situation where many or some 
fish stocks are 90 percent depleted, and we do not really have 
a way to deal with them.
    So I want to start this discussion in the House by 
suggesting that there is a department--and this may or may not 
be what we end up doing--there is a department that is 
responsible for the management of resources. It is called the 
Department of Interior. In the Department of Interior is housed 
the U.S. Fish and Wildlife Service to manage resources. We have 
in Interior the Mineral Management Service to manage resources; 
the U.S. Global Survey to help manage resources; the Bureau of 
Reclamation to manage resources; the Bureau of Land Management 
to manage resources known as land; the Office of Surface 
Mining, a resource agency; the National Park Service, a 
resource agency.
    So when I then look at the Department of Commerce, and I 
like to find logical routes that seem simple, and I look at the 
National Oceanic and Atmospheric Administration, I find the 
National Ocean Service manages resources; the National Marine 
Fishery Service, which manages resources; the Office of Oceanic 
and Atmospheric Research, which conducts scientific research on 
the effect of the atmosphere on resources; and the National 
Weather Service, which obviously has something to do with the 
weather and resources; and the National Environmental Satellite 
Data and Information Service. The prime customer for the 
Satellite Data Service is the National Weather Service, again 
for the talking about the effect of weather on resources.
    So it seems to be a logical place to at least start to talk 
about finding a more logical place to look at how we might make 
some changes that might make some sense.
    And then I found that there are some areas that the 
Department of Commerce and NOAA have in common where they have 
joint authority, and that would be the Marine Mammal Protection 
Act, the National Aquaculture Act of 1980. They have joint 
jurisdiction over the Endangered Species Act, the Lacey Act, 
the Interjurisdictional Fisheries Act of 1986, the Atlantic 
Salmon Act, the Atlantic Striped Bass Act--and thank you very 
much, Bill Hogarth helped us save ourselves in New Jersey last 
week on this issue. I say thank you for that. I would have 
liked to say that directly to him, but he could not be here 
today--the Central, Western and South Pacific Fisheries 
Development Act, joint jurisdiction; the Yukon River Salmon 
Act, joint jurisdiction.
    So this seems to be a logical place to start the 
discussion. But this is not the first time that we have had 
this discussion. According to the final report of the U.S. 
Commission on Ocean Policy, since 1970, when NOAA was stood up 
in Commerce, there have been more than 20 congressional 
proposals to either move NOAA from the Department of Commerce 
to another agency or to establish NOAA as an independent 
agency. And I hope that we are more successful this time in 
coming to some rational conclusion than we have been over the 
past 34 years or so.
    In addition to that, the U.S. Commission on Ocean Policy 
recommends a three-phase approach. I will not go into detail on 
all three phases, but phase 3 of the recommendation is to 
create a unified Federal agency structure to manage all natural 
resources, again pointing to the same concept that we are here 
specifically to talk about today.
    So I look forward to these discussions. I know that Members 
of both sides of the aisle are extremely interested in creating 
a situation to improve our chances of success in managing one 
of the most important sets of resources on the face of the 
Earth, and so I look forward to working with you, Mr. Chairman, 
and Mr. Pombo, the Chairman of the full committee, and my 
friends on the other side of the aisle, and Sam Farr and I who 
go back very far, and I look forward to these discussions.
    I have a formal statement that I ask be included in the 
record as well. Thank you.
    Mr. Gilchrest. Without objection, so ordered.
    [The prepared statement of Mr. Saxton follows:]

  Statement of The Honorable Jim Saxton, a Representative in Congress 
                      from the State of New Jersey

    Mr. Chairman, I am pleased to be here to discuss a bill I have 
introduced, along with Congressman Young, H.R. 4368, the Weather and 
Oceans Resources Realignment Act. This bill will transfer the National 
Oceanic and Atmospheric Administration to the Department of the 
Interior. Thank you to our witnesses for taking time out of their 
schedules to be with us today.
    An issue to which I have devoted a great deal of time and one that 
I feel is very important is the protection of the diverse range of fish 
stocks that inhabit our world's oceans, many of which are very close to 
disappearing forever. The National Marine Fisheries Service, the agency 
tasked with the protection of these species has failed to do so.
    I have never been able to comprehend why the National Oceanic and 
Atmospheric Administration (NOAA) is housed within the Department of 
Commerce, which has nothing to do with the protection of our natural 
resources. NMFS/NOAA has a dual mission: (1) to promote the consumption 
of seafood and (2) simultaneously conserve and sustain the stock levels 
of the same species they are promoting for consumption. This is 
inherently conflictual. For this reason, I have introduced this 
legislation, which simply moves NOAA to a more appropriate agency, 
Interior.
    Given the release of now three studies essentially stating that 
what I have been talking about is likely to happen, I am more convinced 
than ever that we need to take aggressive action immediately. Many of 
our oceans' fish stocks are now reportedly 90% depleted, meaning only 
10% of the stocks that once existed remain. And many of these stocks 
are in grave danger of extinction if we proceed down the same path we 
are on now--that is, continue to study these stocks and do little to 
mitigate the damage that has already been done.
    The U.S. Commission on Ocean Policy, created from the Oceans Act of 
2000, which I helped shepherd through the House, released it's final 
report earlier this month, with many of the same findings. When the 
Congress passed the Oceans Act of 2000, creating the U.S. Commission on 
Ocean Policy, one of their directives was to study our current system 
of managing the oceans and develop a comprehensive analysis of what is 
and what is not working.
    One of the most significant findings is the need for a new national 
ocean policy framework. I have long believed that there are far too 
many Congressional Committees and Federal Agencies tasked with the 
managing of our oceans, and consequently there is very often overlap 
and duplication of efforts, and the resources suffer as a result.
    To begin to address this problem, I agree with the Commission in 
the need to establish in law, reconfigure and strengthen NOAA, to 
enable them to balance the many roles they have in managing our oceans 
and fisheries issues.
    In addition, the Commission has recognized the need to ensure that 
policies put in place to manage the oceans be based on unbiased, 
credible and scientific information. To do so, the federal investment 
in ocean research needs to be increased. The Commission found that 
ocean research funding has fallen from 7 percent of the total federal 
research budget 25 years ago to 3.5 percent today. In order for the 
U.S. to utilize the capacity we have as a world leader on so many ocean 
issues it is critical this funding be increased.
    Finally, the issue of how we manage our fisheries is vitally 
important, and yet, there are so many species that have plummeted over 
the past few decades, and if we are to save them from extinction, we 
need to take aggressive steps now.
    I am also pleased the Commission has recognized that, while there 
are many good parts of the current system in place to manage the 
fisheries, the ways in which all of the different levels, from federal 
to local work together, needs to be examined and streamlined, to create 
a much better coordination of efforts.
    In particular, an issue that I feel is very important is the 
protection of the diverse range of fish stocks that inhabit our world's 
oceans, many of which are very close to disappearing forever. Many of 
our oceans' fish stocks are now reportedly 90% depleted, meaning only 
10% of the stocks that once existed remain.
    Thus, many of these stocks are in grave danger of extinction if we 
proceed down the same path we are on now--that is, continue to study 
these stocks and do little to mitigate the damage that has already been 
done.
    The United States is a world leader on so many important and 
complex issues; it is hard to understand why the issue of fisheries 
management, and enforcement of the regulations currently in place both 
domestically and internationally, seems impossible to accomplish.
    We need to take immediate aggressive steps to prevent the 
disappearance of these fish species, before it's too late. These 
studies should be a wake-up call that the process through which our 
world's fisheries is managed is broken and needs to be fixed.
    The National Marine Fisheries Service has demonstrated repeatedly 
they are incapable of doing the job they have been tasked with as the 
primary federal agency responsible for monitoring and protecting our 
nation's fisheries. To place them within the Department of the Interior 
would serve to strengthen the two agencies goals of resources 
conservation.
    This is an issue that resonates with anyone who has ever been to 
the beach in states like New Jersey, or watched a television program 
involving the deep blue sea. And given that 50% of the population of 
the United States lives within 100 miles of a coast, there are many who 
are personally affected by this issue.
    We have a unique opportunity to do something amazing and I think we 
owe it these wonderful resources that are our oceans to do all we can 
to bring them back to a healthy and sustainable level, for future 
generations.
    Thank you and I look forward to hearing from our witnesses.
                                 ______
                                 
    Mr. Gilchrest. Mr. Faleomavaega.

  STATEMENT OF THE HON. ENI F.H. FALEOMAVAEGA, A DELEGATE IN 
                  CONGRESS FROM AMERICAN SAMOA

    Mr. Faleomavaega. Mr. Chairman, I ask unanimous consent 
that my statement also be included and made a part of the 
record.
    Mr. Gilchrest. Without objection
    Mr. Faleomavaega. I look forward to hearing from the 
witnesses this morning. This is a major proposal, and I think 
we ought to certainly recognize the substance of the wisdom of 
the Members especially, Mr. Young and Mr. Saxton for having 
proposed this bill. I am looking forwards to hearing from our 
witnesses on this matter.
    Mr. Gilchrest. Thank you, Mr. Faleomavaega.
    Mr. Gilchrest. The Chairman of the full committee Mr. 
Pombo.

  STATEMENT OF THE HON. RICHARD W. POMBO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Pombo. Thank you, Mr. Chairman. I just have a short 
statement. I would like to, first of all, point out to you the 
book Mr. Farr just gave to me, Fair Play for Frogs, and I look 
forward to reading this on the way home on the airplane.
    I thank you for holding this hearing on H.R. 4368, 
introduced by our colleague, Jim Saxton. In the 106th Congress, 
Congress passed the Oceans Act of 2000. Mr. Saxton introduced 
the House companion to the Senate bill that was eventually 
enacted. The Oceans Act of 2000 led to the formation of the 
U.S. Commission on Ocean Policy.
    The Committee on Resources held a hearing on the 
Commission's preliminary report on May 20 of this year. As 
everyone here is aware, the Commission has just recently 
released its final report. It is a very large document with 
more than 200 recommendations on a number of very important 
issues, everything from marine mammal management to marine 
transportation and port security.
    In addition to the report that was released, the Oceans Act 
called for the President to make recommendations to Congress. 
Some Members of Congress have conveniently forgotten about this 
step and are calling for action on some selective portions of 
this report in what could be the last few weeks of Congress.
    If the taxpayers are going to spend $10 million for this 
report, then at a minimum the President of the United States 
should be given his legal right to review this document and 
make his recommendations to Congress before we act. I think 
that a hurried approach is exactly what we do not want to do 
with this report. A rush to legislate is not an appropriate 
response to such a complex set of recommendations.
    This hearing is about H.R. 4368, a bill to move the 
National Oceanic and Atmospheric Administration to the 
Department of Interior. On this issue alone there have been at 
least three different proposals: to make NOAA an independent 
agency; to leave NOAA within the Department of Commerce; and 
Mr. Saxton's proposal, to move it to the Department of 
Interior, a proposal that I feel has a great deal of merit.
    In addition, I have heard calls for the creation of the 
oceans agency and the creation of a natural resources agency. I 
suspect all of these proposals do have some merit and deserve 
to be debated.
    I appreciate my colleague, Mr. Saxton, bringing this 
forward. I know this is an issue that he has worked long and 
hard on, and I appreciate the opportunity to have this hearing 
and to hear this debate as it moves forward.
    Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you very much, Mr. Pombo.
    [The prepared statement of Mr. Pombo follows:]

          Statement of The Honorable Richard Pombo, Chairman, 
                         Committee on Resources

    Mr. Chairman, I thank you for holding this hearing on H.R. 4368, 
introduced by our colleague, Congressman Jim Saxton.
    In the 106th Congress, Congress passed the Oceans Act of 2000. Mr. 
Saxton introduced the House companion to the Senate bill that was 
eventually enacted. The Oceans Act of 2000 led to the formation of the 
U.S. Commission on Ocean Policy.
    The Committee on Resources held a hearing on the Commission's 
Preliminary Report on May 20th of this year.
    As everyone here is aware, the Commission released its final report 
last week. It is a very large document with more than 200 
recommendations on a number of important issues--everything from marine 
mammal management to marine transportation and port security.
    In addition to the report that was released last week, the Oceans 
Act called for the President to make recommendation to Congress. Some 
Members of Congress have conveniently forgotten about this step and are 
calling for action on some selected portions of the report in what 
could be the last few weeks of Congress. If the taxpayers are going to 
spend $10 million for this report then, at a minimum, the President of 
the United States should be given his legal right to review this 
document and make his recommendations to Congress before we act.
    I think that a hurried approach is exactly what we do NOT want to 
do with this report. A rush to legislate is not an appropriate response 
to such a complex set of recommendations.
    This hearing is about H.R. 4368, a bill to move the National 
Oceanic and Atmospheric Administration to the Department of the 
Interior. On this issue alone, there have been at least three different 
proposals--to make NOAA an independent agency, to leave NOAA within the 
Department of Commerce, and Mr. Saxton's proposal to move it to the 
Department of the Interior. In addition, I have heard calls for the 
creation of an Oceans Agency and the creation of a Natural Resources 
Agency.
    I suspect all of these proposals have some merit and deserve to be 
debated. That's the reason for this hearing.
                                 ______
                                 
    Mr. Gilchrest. Once again we want to welcome Mr. Farr, who 
used to be on this committee, here today. He has come here 
today to show his interest in this particular issue. We 
normally don't have Members from other committees give opening 
statements, but we will give you 20 second here if you want to 
say something.

 STATEMENT OF THE HON. SAM FARR, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Farr. I want to thank you very much for allowing me to 
sit here. It is very comfortable to be back here in this 
beautiful room. I would like to ask my opening remarks be 
submitted for the record.
    Mr. Gilchrest. Without objection.
    [The prepared statement of Mr. Farr follows:]

Statement of The Honorable Sam Farr, a Representative in Congress from 
                        the State of California

    Chairman Gilchrest, Ranking Member Pallone, and members of the 
subcommittee, thank you for allowing me to testify this morning 
regarding H.R. 4368, Representative Saxton's bill which calls for the 
National Oceanic and Atmospheric Administration (NOAA) to be 
transferred from the Department of Commerce to the Department of the 
Interior.
    Starting with the first comprehensive consideration of our nation's 
ocean policy--provided by the Stratton Commission in 1969--numerous 
proposals have been put forth to give NOAA a seemingly more appropriate 
home. The proposals have ranged from establishing NOAA as a new 
independent agency, as argued for by the Stratton Commission, to 
creating a new department of natural resources that would include NOAA. 
In fact, according to the final report of the U.S. Commission on Ocean 
Policy, the Nixon Administration had planned to create a department of 
natural resources that would have housed a newly-created NOAA, the 
Department of the Interior, and several other agencies; instead, the 
Administration eventually decided, for interesting political reasons, 
to put NOAA within the Department of Commerce. In total, not including 
initiatives introduced since April of this year, 23 reorganization 
proposals involving NOAA have been offered by congressional, 
presidential, and federal advisory committees since the Stratton 
Commission released its report.
    I appreciate Representative Saxton continuing the discussions that 
have taken place over the past 30 years regarding the best place for 
NOAA to call home. However, I do not believe that just moving NOAA from 
Commerce into Interior offers a fix that addresses the history of 
failures associated with our protection of marine natural resources--a 
history recently highlighted in both the Pew Oceans Commission report 
and U.S. Commission on Ocean Policy report.
    Let's take a step back and look at the larger context in which we 
consider this bill. Last week, the U.S. Commission on Ocean Policy 
submitted to the President and to Congress its final report on 
``everything oceans.'' This comprehensive document makes 
recommendations on a wide range of topics, from improving governance of 
ocean resources to promoting greater marine stewardship and education, 
from recognizing the need to manage the oceans on an ecosystem basis to 
suggesting greater exploration of unknown areas of the sea, from 
discussing reform of fisheries management to arguing for increases in 
our marine science research budget, and from speaking to the 
connections between coastal land uses and the oceans to implementing an 
integrated ocean observation system. Based on this comprehensive 
consideration, the first such effort by the federal government to occur 
since the Stratton Commission in 1969, as well as the Pew Oceans 
Commission report, we currently find ourselves at a critical juncture 
with respect to reforming marine policy. Simply stated, we have an 
unprecedented, once-in-a-generation opportunity. We can choose to 
pursue reforms on a piece by piece basis or we can decide that enough 
is enough and that the time has come for a comprehensive solution 
responding to many of the problems.
    The bipartisan co-chairs of the House Oceans Caucus, Jim Greenwood, 
Tom Allen, Curt Weldon, and myself, recently introduced a comprehensive 
solution--an oceans bill that answers the calls of both the Pew Oceans 
Commission and the U.S. Commission on Ocean Policy. In addition to 
providing a national policy to protect, maintain, and restore the 
health of marine ecosystems, our bill, H.R. 4900, informally referred 
to as OCEANS-21, calls for a presidential report on reorganizing the 
federal government into a department of natural resources that would 
include what we know today as NOAA. This is where I think we should set 
our sights.
    By introducing H.R. 4368, Mr. Saxton has successfully brought 
attention to the very same point the House Oceans Caucus co-chairs made 
in our bill: what is the best framework for management of our oceans? I 
sincerely believe that Representative Saxton and I are on the same page 
here--we need a new management scheme. But, instead of moving NOAA to 
Interior now, I suggest that we pursue two tracks to deal with the 
large governance challenges we face, a short-term one and a long-term 
one.
    In the short-term, we must considerably strengthen NOAA. We can do 
this by passing an Organic Act that explicitly states that NOAA is the 
lead agency on all ocean-related issues. Part of this Organic Act 
should be a realignment of NOAA's organization to move away from the 
inherent conflicts that result when you fail to recognize all of the 
connections within marine ecosystems--when you fail to manage based on 
ecosystems. Ecosystem-based management must also be taken to the next 
level: we must establish regional ocean councils that bring the states 
together with tribal and federal interests to do ecosystem planning for 
the oceans. The oceans don't understand political boundaries, so we 
must create boundaries that reflect ocean ecosystems. Let's not be 
satisfied with a system that calls for people to come together only 
when crises are at hand. Let's set up a system that will actually help 
avert the crises. We all know that stopping a crisis from happening is 
much preferable to trying to address one that has already occurred. I 
do not see moving NOAA to Interior without empowering or realigning it 
as comprehensively addressing the problem. Simply shifting the problem 
is not the solution.
    In the long-term, we should think about how we can address all of 
the interactions between the land, air, and water. To quote from the 
final report of the U.S. Commission on Ocean Policy, ``Based on a 
growing understanding of ecosystems, including recognition of the 
inextricable links among the sea, land, air, and all living things, a 
more fundamental reorganization of federal resource agencies will 
eventually be needed.'' This sentiment should guide our consideration 
of reorganizing efforts. And, it is this sentiment that the Oceans 
Caucus co-chairs had in mind when writing the provision of OCEANS-21 
that requires an executive report on reorganizing the federal 
government to create a department of natural resources.
    As clearly illustrated, one of the vital pieces to responsibly 
addressing the problems threatening the oceans, and the many sectors 
that depend on healthy oceans, from tourism to fisheries, is getting 
the federal government reconfigured to do ecosystem-based management. 
But, this effort alone will not turn the tide.
    Another important component of setting our country's ocean policy 
on a path of long-term sustainability, and one that can be done in the 
short-term, is to have a clearly-stated national policy for our oceans. 
As I mentioned previously, OCEANS-21 provides such a policy. To quote 
from H.R. 4900, ``The Congress declares that it is the continuing 
policy of the United States to protect, maintain, and restore the 
health of marine ecosystems in order to fulfill the social, economic, 
and other requirements of present and future generations of 
Americans.'' This national policy will compliment the commitments we 
have already made, and should vigorously defend and loudly re-affirm, 
to protecting our public lands, ensuring clean water, and safeguarding 
clean air. Adopting this national policy must be a part of our 
legislative answer to address the sad state of our ocean resources. 
Simply moving NOAA to Interior does not fully address it.
    Another immediate way to help fix our ocean troubles is to elevate 
the level of attention paid to the oceans. Everything that we do on 
land, from driving our cars to filling in wetlands, eventually affects 
the oceans. For this reason, there must be a high-level position within 
the White House, a National Oceans Advisor, to promote ocean issues and 
to oversee greater coordination among the Executive departments sitting 
on a newly-created National Oceans Council. Both the Pew and U.S. 
Commission call for a National Oceans Advisor and a National Oceans 
Council and OCEANS-21 includes them. Part of the responsibility of 
these new positions is to change the atmosphere surrounding our oceans 
such that every American, from a person in Kansas to the Secretary of 
Energy, more readily recognizes our dependence on healthy oceans as 
well as how our actions affect the oceans. I do not believe that moving 
NOAA to Interior elevates the amount of attention paid to the oceans.
    One other way that we can reverse the trends that threaten our 
seas--and one that should not be underestimated--is to commit to 
funding NOAA at levels that would actually allow the agency to do its 
job. In this respect, we have a shameful record. But, I note that this 
is not for lack of trying by many of the members of this subcommittee--
Representative Pallone, Representative Gilchrest, Representative 
Faleomavaega, Representative Saxton, Representative Abercrombie, and 
Representative Bordallo have all joined me and the other House Oceans 
Caucus and Coastal Caucus co-chairs in sending request letters to the 
Appropriations Committee outlining some of the most important NOAA 
programs and the funding levels required for these programs. Sadly, 
while the Weather Service usually gets the funds it needs, the National 
Marine Fisheries Service and the National Ocean Service are regularly 
left scrambling.
    The U.S. Commission on Ocean Policy has done a marvelous job of 
describing, in great detail, the resources needed to have a truly 
functional NOAA. In addition, in its report, the U.S. Commission offers 
a way to pay for much of the increased funding needed for better 
management and conservation of our precious ocean resources. The 
Commission suggests that revenues from offshore activities be funneled 
into a dedicated trust fund. I think that this makes a lot of sense 
and, as a member of the Appropriations Committee, I sincerely 
appreciate the Commission offering a method of paying for a large 
portion of their recommendations. I do, however, note that the 
Commission clearly states that these cost estimates and funding sources 
are meant to complement currently appropriated levels--not be the sole 
source of funds.
    I do not believe that moving NOAA to Interior will solve its 
funding woes. Simply transferring it would not mean that its 
appropriations would be evaluated within the Interior Appropriations 
bill--additional action from the Appropriations Committee would still 
be necessary. What would help alleviate the lack of funding would be, 
beginning immediately, to have the Office of Management and Budget 
evaluate NOAA like it does other natural resource agencies. This simple 
step has the potential to ensure a long term solution for getting a 
more appropriate consideration of NOAA funding requirements.
    While working to have NOAA evaluated outside of Commerce 
guidelines, I hope that during next year's appropriations cycle I will 
be able to depend on ALL members of this subcommittee to support 
funding NOAA at levels that will allow the agency to fulfill its 
responsibilities.
    Our oceans represent the largest public trust resource in the U.S. 
Being better stewards of this vast resource--something that both the 
Pew and U.S. Commissions were adamant about--will require a change of 
course. But, as the U.S. Commission reminds us, every American depends 
on and is affected by the oceans, so fundamentally, this should be easy 
way for members of both parties from geographically-diverse areas to 
come together to do the People's business. Americans expect the 
Government to safeguard our ocean resources and I hope that the final 
report of the U.S. Commission on Ocean Policy, considered alongside the 
Pew report, will be the impetus for us to actually begin to do so.
    While we have many crises, at home and abroad, that require our 
immediate attention, we cannot overlook the fact that our oceans are in 
a state of crisis, too. It is my sincere hope that Members of Congress, 
especially members of this subcommittee, will read the U.S. 
Commission's report and realize that our oceans need attention--now--
and that the country is looking to us--their leaders--to act and make 
lasting changes. Having this discussion today is a step in the right 
direction; I just hope that today's hearing is the first of many that 
will take place to address the serious problems outlined in no less 
than two comprehensive reports describing the imperiled state of our 
oceans.
    In closing, I thank Chairman Gilchrest and Ranking Member Pallone 
for letting me participate in today's hearing. I also thank 
Representative Saxton for his dedication to issues so important to our 
responsible management of ocean resources. Finally, it is my sincere 
hope that this subcommittee, and the larger committee, chooses to 
consider, and subsequently mark up, legislation that is comprehensive 
in scope, reflects the myriad problems detailed in the reports, and re-
directs this country to a path to protect its largest public trust 
resource--our oceans.
                                 ______
                                 
    Mr. Gilchrest. Mr. Keeney, thank you very much for coming 
this morning. You may begin.

STATEMENT OF TIMOTHY R.E. KEENEY, DEPUTY ASSISTANT SECRETARY OF 
   COMMERCE FOR OCEANS AND ATMOSPHERE, NATIONAL OCEANIC AND 
               ATMOSPHERIC ADMINISTRATION (NOAA)

    Mr. Keeney. Good morning, Mr. Chairman and members of the 
Subcommittee. I am Timothy Keeney, Deputy Assistant Secretary 
for Oceans and Atmosphere at the National Oceanic and 
Atmospheric Administration.
    I certainly appreciate the opportunity to present NOAA's 
perspective on H.R. 4368, the Weather and Oceans Resources 
Realignment Act.
    I would like to preface my remarks by thanking the bill's 
author, Representative Saxton, for his dedication to serving 
America's precious ocean resources. For the last 20 years he 
has worked tirelessly and effectively for his constituents, and 
he has been a supporter of NOAA while serving with distinction 
as the Chairman, Vice Chairman and member of this subcommittee.
    I also fondly recall in 1990 introducing you as NOAA's 
keynote speaker at an annual conference. And the memory of your 
passionate voice for environmental interests in the coastal 
zone certainly remains with me today.
    In commenting on this legislation, I wanted to focus on two 
issues: First, has NOAA performed its mission successfully to 
the benefit of the American people as part of the Department of 
Commerce; and second, what are the anticipated costs of moving 
NOAA to the Department of Interior.
    On October 3, 2005, NOAA will celebrate the 35th 
anniversary as part of the Department of Commerce. In a July 
1970 statement to the Congress, President Nixon proposed 
creating NOAA to serve a national need ``for better protection 
of life and property from natural hazards, for a better 
understanding of the total environment, and for exploration and 
development leading to the intelligent use of our marine 
resources.''
    By every objective measure, NOAA has met or exceeded these 
expectations. As the events of the past month have shown, the 
United States is the most severe-weather-prone country on 
Earth. Perhaps 90 percent of all Presidentially declared 
disasters are weather-related. The modernization of the 
National Weather Service and dedication of our employees has 
resulted in the average warning lead time for tornadoes 
increasing to 13 minutes, from less than 2 minutes when NOAA 
was created.
    President Bush visited the National Hurricane Center in 
Miami this month and personally thanked our employees for the 
accuracy of their forecasts and warnings which helped to save 
lives and property when Hurricanes Charley and Frances swept 
through the Southern U.S. And the Caribbean. The success was 
truly a NOAA-wide effort, with virtually every line office of 
the agency contributing in some way to the more accurate 
forecast.
    We also point with pride to NOAA's response to the 
increasing migration of the U.S. Populations to our coasts. 
Currently more than half of our population, approximately 141 
million people, resides within 50 miles of the coast and Great 
Lakes. New programs have been created to manage this historic 
migration, such as the Coastal Zone Management Program, which 
now encompasses virtually every coastal and Great Lakes State.
    It should be stressed that during the timeframe being 
referenced, NOAA has been an integral part of the Department of 
Commerce. Due to its strategic impact on the economic and 
environmental welfare of the Nation, NOAA commands a central 
place within the Department of Commerce. As Secretary Evans 
noted this past June when announcing the transmittal of the 
Administration's proposed NOAA Organic Act to Congress, NOAA's 
products and services touch 30 percent of the Nation's GDP, and 
supports jobs for more than 13 million citizens. The commercial 
fishing industry adds approximately $28.5 billion in 
recreational fishing activities and approximately $25 billion 
to the national economy on a yearly basis. In fact, important 
economic decisions are made every day based on sciences and 
services that NOAA provides, including weather and climate 
forecasting, sustainable fisheries, coastal zone management and 
navigational safety.
    With NOAA as an integral element of this organization, the 
Department of Commerce is the only Federal department that 
integrates economics, technology, trade and the environment as 
part of a formula to expand the economy. It is a synergy that 
exists nowhere else.
    It is clear from other major governmental reorganizations 
that the cost to the taxpayer of such moves it high. First, 
there is a loss of productivity that can be expected with such 
a large move of personnel. Second, the change of corporate 
culture can adversely affect morale. Furthermore, the 
Administration does not believe that transferring over to the 
Interior Department would realize the benefits anticipated by 
the legislation. Housing NOAA as a distinctive agency within 
Interior will not provide for better integration of ocean 
policy or coordination of ocean and coastal activities. This is 
due to the fact that there are at least seven other agencies 
with significant roles in ocean and coastal policy which would 
not be affected by the legislation in any way.
    Mr. Chairman, the Administration cannot support the changes 
made in H.R. 4368 without having been afforded the opportunity 
to fully review the final report of the U.S. Commission on 
Ocean Policy. However, we believe that the Administration and 
Congress have a unique opportunity to work together to improve 
meaningful improvements in ocean policy, science and 
management.
    Thank you for the opportunity to be here today. I will be 
happy to answer any questions from the Committee.
    Mr. Gilchrest. Thank you very much, Mr. Keeney.
    [The prepared statement of Mr. Keeney follows:]

Statement of Timothy R.E. Keeney, Deputy Assistant Secretary for Oceans 
 and Atmosphere, National Oceanic and Atmospheric Administration, U.S. 
                         Department of Commerce

    Good morning, Chairman Gilchrest and Members of the Subcommittee. I 
am Timothy Keeney, Deputy Assistant Secretary for Oceans and Atmosphere 
at the National Oceanic and Atmospheric Administration (NOAA). I 
appreciate the opportunity to present NOAA's perspective on the Weather 
and Oceans Resources Realignment Act, H.R. 4368.
    H.R. 4368 proposes to transfer both the administration and 
functions of NOAA, in their entirety, to the Department of the 
Interior, where NOAA would be, ``maintained as a distinct entity.'' No 
time line is provided for the transfer.
    I would like to preface my remarks by thanking the bill's author, 
Representative Jim Saxton, for his dedication to conserving America's 
precious ocean resources. For the last twenty years, he has worked 
tirelessly and effectively for his constituents, and he has also been a 
supporter of NOAA while serving with distinction as both the Chairman, 
Vice Chairman and as Member of this Subcommittee.
    In commenting on this legislation, I wanted to focus on two issues: 
First, has NOAA performed its mission successfully as part of the 
Department of Commerce and through cooperation with other Executive 
Branch agencies, and have the American people benefited from NOAA being 
housed in the Department of Commerce? Second, what are the anticipated 
costs of moving NOAA to the Department of the Interior?
NOAA AS AN INTEGRAL PART OF THE DEPARTMENT OF COMMERCE
    On October 3, 2005, NOAA will celebrate its 35th anniversary as 
part of the Department of Commerce. In a July 1970 statement to 
Congress, President Nixon proposed creating NOAA to serve a national 
need ``...for better protection of life and property from natural 
hazards...for a better understanding of the total environment...[and] 
for exploration and development leading to the intelligent use of our 
marine resources...''
    By every objective measure, NOAA has met or exceeded these 
expectations. As events of the past month have shown, the United States 
is the most severe-weather prone country on Earth. Approximately 90 
percent of all Presidentially-declared disasters are weather related. 
The modernization of the National Weather Service and dedication of our 
employees has resulted in the average warning lead time for tornadoes 
increasing to 13 minutes from less than two minutes when NOAA was 
created.
    When President Bush visited the National Hurricane Center in Miami 
earlier this month, he personally thanked our employees for the 
accuracy of their forecasts and warnings which helped to save lives and 
property when Hurricanes Charley and Frances swept through the 
southeastern U.S. and the Caribbean. This success was truly a NOAA-wide 
effort, with virtually every line office in NOAA contributing in some 
way to the more accurate forecasts.
    We also point with pride to NOAA's response to the increasing 
migration of the U.S. population to our coasts. Currently, more than 
half our population, approximately 141 million people, resides within 
50 miles of the coasts and Great Lakes. New programs have been created 
to manage this historical migration to the coasts, such as the Coastal 
Zone Management program, which now encompasses virtually every coastal 
and Great Lakes state.
    It should be stressed that during the time-frame being referenced, 
NOAA has been an integral part of the Department of Commerce. Due to 
its strategic impact on the economic and environmental welfare of the 
Nation, NOAA commands a central place within the Department of 
Commerce. As Secretary Evans noted when he announced the transmittal of 
the Administration's proposed NOAA Organic Act to Congress, NOAA's 
products and services touch 30 percent of the Nation's GDP and supports 
jobs for more than 13 million citizens. The commercial fishing industry 
adds approximately $28.5 billion, and marine recreational fishing 
activities add approximately $25 billion to the national economy on a 
yearly basis. In fact, important economic decisions are made every day 
based upon science and services that NOAA provides, including weather 
and climate forecasting, sustainable fisheries, coastal zone 
management, and navigational safety. With NOAA as an integral element 
of this agency, the Commerce Department is the only Federal department 
that integrates economics, technology, trade, and the environment as 
part of a formula to expand the economy; it is a synergy that exists 
nowhere else.
    Let me provide a few examples:
    <bullet>  The Economic Development Administration (EDA) and NOAA 
have collaborated closely in the development and implementation of the 
NOAA-led Portfields Initiative. As sister Commerce agencies, EDA and 
NOAA have been close collaborators on brownfields redevelopment, 
coastal development, and marine transportation system development 
issues; which come together nicely within the Portfields framework. The 
Portfields Initiative, a spin-off from the larger Brownfields 
Interagency Working Group (IWG), is a federal interagency project that 
will focus on the redevelopment and reuse of brownfields in or around 
ports, harbors, and marine transportation hubs with emphasis on 
development of environmentally sound port facilities.
    <bullet>  The economic value of the commercial fishing industry is 
$28.5 billion annually. In 2002, the seafood processing and wholesale 
sectors alone employed 72,000 people. NOAA is working with the Economic 
Development Administration (EDA) to provide economic assistance to 
fishermen and fishing communities that have been affected by NOAA 
National Marine Fisheries Service fisheries restrictions.
    <bullet>  The value of the marine recreational fishing industry is 
approximately $25 billion annually. NOAA aims to protect the value of 
fish stocks to the economy by promoting healthy marine recreational 
fisheries.
    <bullet>  Last month, NOAA Fisheries released a draft of an options 
paper for the economically distressed U.S. shrimp industry. The paper 
provides guidance to shrimpers on how to remain competitive. Within the 
Department of Commerce, the International Trade Administration provided 
input in order to ensure that the paper accurately reflected the 
current global commercial shrimp market.
    <bullet>  Aquaculture is the world's most rapidly growing sector of 
food production. Within the Department of Commerce, NOAA and NIST are 
both working to develop technology could help restore depleted salmon 
species, manage many wild fish stocks, and benefit the growing world 
aquaculture industry. By the year 2010, it is estimated that nearly 1 
billion hatchery fish will need to be processed worldwide. Current 
vaccination practices in hatcheries are not fully reliable and add 
stress to the young fish. The NIST Advanced Technology Program is 
funding a three year project for $2 million for the development of a 
faster, cheaper, and more reliable mobile vaccination technology to 
vaccinate up to 2 fish per minute in a hatchery with traceable tags. 
This research could greatly enhance NOAA's vision for sustainable 
aquaculture for food production and stock enhancement.
    <bullet>  Waterborne cargo contributes more than $742 billion to 
Gross Domestic Product and sustains more than 13 million jobs. 
Promoting safe navigation is a critical contribution of NOAA to the 
nation's economy. Ninety-five percent of all goods in U.S. foreign 
trade enter and leave this country by ship. On June 30th, NOAA 
announced it would provide operational forecasts for ship traffic in 
Galveston Bay, the second largest port in North America. This system 
provides mariners, port managers and emergency response teams with 
present and future conditions of water levels, currents, temperature 
and salinity. All of this results in savings to shippers and the 
American exporter and consumer.
    <bullet>  Geomagnetic storms can wreak havoc on our Nation's 
electrical grid, commercial aviation, and telecommunications. In 1997, 
a solar storm partially destroyed a communications satellite. NOAA 
helps provide early warnings allowing industry to take measures to 
prepare for these storms. The net economic value to industry of these 
forecasts has been estimated at over $350 million over a period of 
three years, far in excess of the $100 million cost of the system.
    <bullet>  The National Institute of Standards and Technology (NIST) 
works closely with NOAA in developing hurricane-resistant structures. 
For example, in 2001, NIST used propeller blasts from Hercules C-130s 
turboprop aircraft to subject instrument-laden test homes to sustained 
wind levels comparable to those of a hurricane. The wind resistance of 
houses cannot be tested in traditional wind tunnels, which are too 
small. Data analysis yielded computer models that can tell home-
builders and manufacturers the actual wind resistance of different 
types of residential buildings and materials under realistic wind 
conditions.
    <bullet>  Travel and tourism is the Nation's largest employer, and 
second largest contributor to the Nation's Gross Domestic Product, 
generating $700 billion annually. Beaches are the largest tourist 
destination, with coastal states earning 85 percent of all tourist 
revenues. Through its National Marine Sanctuaries; National Estuarine 
Research Reserves; Coastal Zone Management activities; coral 
conservation programs; and partnerships with states to manage access to 
coastal areas on a sustainable basis and provide recreational 
opportunities, NOAA helps contribute to the vitality of this industry.
    <bullet>  NOS and the Office of Coast Survey have worked well with 
the Bureau of Industry and Security (BIS) on Marine Transportation 
System issues as co-leads for Commerce on the Interagency Committee for 
the Marine Transportation System (ICMTS). NOS and BIS look forward to 
further interagency cooperation in support of marine transportation 
improvements for economic, safety and security reasons.
    In addition to these examples of cooperation with other agencies 
within the Department of Commerce, there are numerous examples of 
interagency cooperation between NOAA and the Department of Interior 
(DOI), which provide evidence that merging NOAA with Interior is not 
necessary to ensure effective cooperation.
    Just a few of these examples are:
    <bullet>  NOAA and DOI, as co-chairs of the U.S. Coral Reef Task 
Force, participate in many joint efforts in the area of coral reef 
conservation, preservation and restoration. These include over $2 
million annually in state and territory management grants, and mapping 
and monitoring of coral reefs. Also, NOAA works with the National Park 
Service in siting and supporting NOAA's Coral Reef Early Warning 
Stations in the U.S. Virgin Islands and elsewhere.
    <bullet>  NOAA and the National Park Service, U.S. Geological 
Survey (USGS) and the Fish and Wildlife Service (FWS) cooperate in 
implementing the South Florida Ecosystem Restoration, and in supporting 
the Comprehensive Everglades Restoration Plan.
    <bullet>  The Department of Commerce is the co-chair, together with 
the Department of Agriculture and the Department of the Interior, of 
the National Invasive Species Council. NOAA and the FWS are co-chairs 
of the Aquatic Nuisance Species Task Force. Among the many cooperative 
efforts in this area is the development of new ballast water management 
technologies.
    <bullet>  DOI and NOAA are partners in implementing Executive Order 
13158 on Marine Protected Areas. NOAA and the National Park Service 
(NPS), the Fish and Wildlife Service (FWS), and the Minerals Management 
Service (MMS) are working together on developing an inventory of Marine 
Managed Areas, maintaining the MPA Website, and coordinating with the 
Marine Protected Areas Federal Advisory Committee charted under the 
Federal Advisory Committee Act.
    <bullet>  NOAA, through the National Marine Fisheries Service, 
works with DOI on many protected species and hydropower issues. The 
agencies share jurisdiction for the conservation of marine turtles; FWS 
focusing on nesting beach conservation activities, and NOAA working on 
conservation and recovery of these species in their marine habitats. 
NOAA provides scientific expertise and management advice on marine 
species listed under the Convention on the International Trade in 
Endangered Species (CITES), which DOI is the lead agency for the United 
States government. The agencies have multiple joint policies and 
guidelines related to implementation of the Endangered Species Act. 
Also, NOAA and DOI share authority under Section 18 of the Federal 
Power Act to prescribe fishways to ensure safe fish passage at non-
Federal hydropower facilities licensed by the Federal Energy Regulatory 
Commission.
    <bullet>  NOAA, through the National Weather Service, supports the 
interagency fire program efforts by providing targeted weather 
forecasts to support DOI's fire pre-suppression and suppression 
activities. Also, NWS and the U.S. Geological Survey (USGS) cooperate 
on the Federal Hydrology Infrastructure, which provides river and flood 
forecasting.
    <bullet>  NOAA works closely with and in support of DOI's Federal 
Geographic Data Committee (FGDC), National Spatial Data Infrastructure 
(NSDI), and Geospatial One-Stop (GOS) activities. The benefits of this 
cooperation include enhanced access to marine and coastal data 
utilizing metadata and the FGDC clearinghouse system and Geospatial 
One-Stop; increased quality of marine and coastal geospatial data 
through standardization and training; and, improvements in data and 
systems interoperability.
    The U.S. Commission on Ocean Policy, after three years of studying 
the United States government's ocean policies, how agencies are 
structured, and how they function, did not see any need to remove NOAA 
from the Commerce Department at this time. In answer to my second 
question, the Administration strongly believes that the American people 
benefit from the strong integration of economic and environmental 
issues which results from NOAA being part of the Commerce Department.
ANTICIPATED COSTS OF TRANSFERRING NOAA TO THE DEPARTMENT OF INTERIOR
    It is clear from other major government reorganizations that the 
cost to the taxpayers of such moves can be very high. First, there is 
the loss of productivity that can be expected with such a large move of 
personnel. Second, the change of corporate culture can adversely affect 
morale. The University of Virginia, in a study on Federal Executive 
Reorganization, found that federal agency reorganizations result in 
unforeseen difficulties. The study noted, ``the practical task of 
merging a large number of different programs with their disparate 
organizational structures, cultures, and procedures would take time and 
meant that `true'' reorganization of the executive department would 
take many years.'' Furthermore, we do not believe that transferring 
NOAA form one Department to another would realize any benefit. A 
transfer that houses NOAA as a distinct agency within Interior, as it 
now exists within Commerce, will not provide for better integration of 
ocean policy or coordination of ocean and coastal activities. There are 
still many other agencies with significant roles in ocean and coastal 
policy, and their roles would not be affected by this legislation.
Conclusion
    The statement of introduction for H.R. 4368 highlighted the need to 
make improvements in the way we manage marine fisheries and the unique 
opportunity provided to us by the release of the report by the U.S. 
Commission on Ocean Policy. The Administration shares the Committee's 
dedication to advancing the next generation of ocean policy. We are 
firmly committed to sound management and effective conservation of our 
ocean and coastal resources to meet our nation's environmental, 
economic, and social goals and our nation's legacy of ocean 
stewardship. Indeed, demonstrating the President's commitment to NOAA's 
mission, President Bush has personally visited NOAA facilities on 
several occasions, including our principal offices in Silver Spring, 
Maryland.
    However, the Administration cannot support the types of changes 
made in H.R. 4368 without having been afforded the opportunity to fully 
review the final report of the Ocean Commission. We ask you to allow 
the Administration to have the 90 days Congress authorized in Public 
Law 106-256, as amended, to review the final report and discuss with 
you and with other critical stakeholders how best to achieve our common 
goals. We believe that the Administration and Congress have a unique 
opportunity to work together to achieve meaningful improvements in 
ocean policy, science, and management. Thank you again for your time. I 
will be happy to take any questions from the Committee.
                                 ______
                                 
    Mr. Gilchrest. So, after the review of the Ocean Commission 
report, will the Administration have specific recommendations 
on any proposed changes recommended in the Commission's report 
on NOAA?
    Mr. Keeney. Certainly they will. The Administration 
currently has an interagency ocean policy group, which is 
chaired by the Council on Environmental Quality, and expects to 
be making recommendations for the Administration's response, 
which will be presented to Congress within the 90-day 
requirement required by law.
    Mr. Gilchrest. I am just going to ask a series of 
questions, and I think we ought to--we might want to have the 
lights running in case we need to have a second round of 
questions, but just to keep the questions equitably distributed 
amongst our Members.
    One of the recommendations of Mr. Saxton is to make NOAA 
function in all its varied responsibilities efficiently and 
effectively. So each of the questions that I am going to ask 
you now, Mr. Keeney, relates to NOAA's actions now to be able 
to meet the goals that it has, whether it goes into Interior, 
whether it is a separate agency or not, whether there is some 
changes within Commerce, or--how do we effectively address the 
issues of NOAA so that we can meet the needs of the 
environment, economics, technology, trade, fisheries, et 
cetera? Do you have any feeling for whether or not when we are 
looking at geospatial areas or hydrographic data or electronic 
navigational chart data--do you have any sense that NOAA 
duplicates what is done in the private sector, or whether or 
not NOAA now unfairly competes with the private sector on those 
issues?
    Mr. Keeney. We think there is a role for the private sector 
and a role for NOAA. And our job is not to compete with the 
private sector, but to provide it basic information with which 
the private sector operates from there. So I do not think there 
is duplication.
    I am sure there are companies in the private sector that 
would like to see NOAA doing less of what it currently does, 
but we feel that, looking at our mission and the mandates of 
legislation passed by the Congress, that we do what we are 
supposed to be doing.
    Mr. Gilchrest. So you feel there is a certain synergy, a 
certain dynamic between the NOAA and the private sector that at 
this point works fairly well?
    Mr. Keeney. We do. It is a constant communication, a 
constant review of what it is we do, and is there a way we can 
do it better, is there a way we can work more effectively with 
the private sector. We are very interested in that subject.
    Mr. Gilchrest. One of the areas that you mentioned in your 
testimony dealt with brownfields and NOAA's involvement in 
ports, harbors, marine transportation hubs, and so on. Does 
NOAA work now under its present structure well, for example, 
with the Corps of Engineers, who have very similar 
responsibilities dealing with ports and harbors and those kind 
of things, or do you feel any of the responsibilities that NOAA 
now has is a complement to the Corps of Engineers, or is it 
something that duplicates what the Corps of Engineers does?
    Mr. Keeney. We do not feel there is any real duplication. 
We feel there is need for a lot of cooperative effort. Our 
ports program, which is physical oceanography real time, 
focuses primarily on the kinds of products that NOAA puts out 
with regard to water levels, temperature, wave direction, and 
charting, and we do not feel that that in any way competes with 
the Corps of Engineers.
    And then in the area of brownfields, report fields, we are 
interested in trying to turn around and clean up to the extent 
we can the resources that have been polluted historically in 
these areas and turn them back into progressive economic 
activity, and, again, we do not feel that competes with the 
Corps of Engineers either. We deal closely with the Corps of 
Engineers with regard to permitting. We have separate 
responsibilities, but are required to work cooperatively, and 
we believe we do that.
    Mr. Gilchrest. My time is almost up, but I was interested 
in your work with NIST to develop hurricane-resistant 
structures. How do you--what is your strategy or plan to 
develop hurricane-resistant structures? Is there actually 
something you can build that is put, let us say, inside plywood 
or inside concrete that makes a building a little more flexible 
so that it can be more resistant to be buffeted by the wind; 
and your relationship with NIST on that particular issue.
    Mr. Keeney. Sir, I think the key is to be able to develop 
models that can look at some of these materials, some of these 
structures to see how they do under certain conditions. So our 
job is to try to develop the conditions which might occur in a 
severe weather occasion. In this job it is to try to figure out 
what kind of requirements there ought to be for building 
structures and what kind of structures hold up better.
    Mr. Gilchrest. I would be interested in following up on 
that.
    Mr. Keeney. We will get back to you on that.
    Mr. Gilchrest. With that kind of research and technology. 
But given the fact that there has been 4 hurricanes in 4 or 5 
weeks down in Florida and the devastation and destruction that 
is pervasive down there now, we would also like when you bring 
forth the recommendations from the Ocean Commission report 
dealing with the structure and objectives and goals of NOAA, 
how NOAA can in a way be synergistic to understand whether or 
not the weather is going to get worse; is there a possibility 
to develop a structure that can resist 135-mile-per-hour wind; 
and can NOAA do those kind of things with its existing 
structure, or does it need to change?
    My time is up, so I yield at this point to the gentleman 
from New Jersey.
    Mr. Pallone. Thank you, Mr. Chairman.
    Mr. Keeney, your written statement extols the benefits of 
NOAA's collaboration with other agencies within the Department 
of Commerce, but conversely your statement also provides 
numerous examples of NOAA cooperating with assorted agencies 
within the Department of the Interior. So my question is if 
NOAA is working well with agencies in both departments, why is 
this argument by itself sufficient to oppose relocating NOAA 
into Interior? And added to that, would there not be new 
opportunities for synergies to benefit natural resource 
management, such as closer coordination between the U.S. 
Geological Survey and the Coast Survey and other observation 
and measurement programs in the National Oceans Service? It 
seems that you could almost--you could sort of go either way. 
So I have just wanted to--I do not quite understand why you 
seem to oppose the transfer under Mr. Saxton's bill.
    Mr. Keeney. I would just like to say, first of all, that 
with regard to the recommendations of the Ocean Commission, of 
which there are over 200, there are many that relate to 
responsibilities that NOAA should or should not have, and also 
many that relate to organizations. So we would really like an 
opportunity to be able to review those recommendations in 
relation to our mission, in relation to the end outcomes that 
that Commission report is aimed at, before we make any 
determinations as to what are the appropriate organizations 
that can best reach those end outcomes.
    Mr. Pallone. Is it true, then, that really the 
Administration does not have a position on Mr. Saxton's bill?
    Mr. Keeney. Well, I think that right now we are saying that 
we do not think the bill is something that we can support. 
However, we are saying that at a later date, after we have 
reviewed the Ocean Commission recommendations, we may change 
our mind on that.
    Mr. Pallone. What aspects of the report might influence the 
Administration to support the bill?
    Mr. Keeney. Clearly the points that you raised which deal 
with closer coordination and cooperation amongst the various 
responsibilities and missions that NOAA has might be one. I 
know, for instance, right now I work very closely with 
Assistant Secretary Judge Manson on the Coral Reef Task Force, 
and we get along very well. We work cooperatively. We are in 
separate departments. I am not sure that in any way interferes 
with our ability to work together, but I am sure if we were in 
the same department, we would probably see each other more 
often, and communication would be easier.
    So there is certainly pluses out there to be had by being 
collocated, but at the same time you have to look at what the 
costs of that are and what it may mean to the agency's 
abilities to perform its mission.
    Mr. Pallone. Some critics have complained that NOAA should 
be moved to Interior to eliminate the conflict of interest with 
the Department of Commerce, particularly in regards to 
fisheries management. I just wanted your response to that 
criticism. Is it valid? I have to say I am concerned, however, 
that new conflict of interest could emerge if NOAA were to be 
transferred to the Interior, particularly how the legislation 
would affect NOAA's ability to consider fairly and objectively 
appeals of Federal consistency under the CZMA.
    What is your response to this criticism with regard to a 
conflict of interest with regard to fisheries management? And 
then if you want to talk about the consistency determination, I 
would appreciate that.
    Mr. Keeney. First of all, I would be interested to see what 
conflicts are being referred to here. I am aware that in the 
salmon department, we have some joint responsibilities, but I 
am not aware of there being particular conflicts there.
    Mr. Pallone. So you do not see--I guess some of the 
industry representatives and also the fisheries, sports fishing 
representatives, had expressed concern over the impact on 
fisheries management, but you are not aware of that?
    Mr. Keeney. Certainly we are aware of their concerns, for 
instance, on the creation of marine protected areas and the 
impacts on, say, recreational fishing. That is a concern of 
ours as well. We believe that the recreational fishing industry 
is an important customer of ours, and we look very carefully at 
actions that we take that may affect those interests. But I am 
not aware of a conflict that may relate to the Department of 
Interior in that regard.
    Mr. Pallone. Let me ask you this: The Administration 
supported legislative provisions in the energy bill earlier in 
this Congress to give the authority over OCS consistency 
determinations to the Secretary of the Interior and to overall 
weaken State consistency authority. I was very much opposed to 
that because it would directly benefit oil and gas industries 
that want to drill off the coast of New Jersey. Does the 
Administration still support these changes in the consistency 
determination, and does the Administration anticipate entering 
into any future rulemaking concerning Federal consistency 
determination, to your knowledge?
    Mr. Keeney. With regard to Federal consistency, the 
Administration, and particularly NOAA, has looked very closely 
at the issue of oil and gas and consistency with State coastal 
zone management plans, and we have had that review, we have had 
that debate within the Administration. I personally have talked 
with representatives from the Department of Interior about 
that, representatives from the Corps of Engineers as well, and 
we were able to work out any differences that we might have 
with regard to proposed changes in regulations. And I believe 
those regulations are have been put out for comment, and we 
have agreement within the Administration on what they should 
be.
    Mr. Pallone. I do not know, Mr. Chairman, if we are going 
to have a second round, I can get back to this. Thank you.
    Mr. Gilchrest. Thank you.
    Mr. Saxton.
    Mr. Saxton. I would like to follow up on the questions of 
Mr. Gilchrest and Mr. Pallone. First, with regard to the 
subject of conflicts, I have long believed that there is a 
conflict which is two conflicts that are built into the 
housing, if you will, or the location of NOAA in Commerce as it 
relates to fisheries management, because by virtue of the very 
nature and definition of the Department of Commerce, the 
Department is there to enhance commerce, and resources 
management is in some respects inconsistent with enhancing 
commerce. And so I have long believed that that is a conflict, 
if I have said that correctly.
    And the second conflict is in writing. The second conflict 
occurs in the mission statement of NMFS when it says that the 
mission of NMFS is to promote the consumption of seafood and 
simultaneously conserve and sustain the stock levels of the 
same species which NMFS is promoting for consumption.
    I would just comment and then ask for your comments. I 
would just comment that we do not need to promote the 
consumption of seafood today any more than we need to promote 
the consumption of chicken, and yet that is still in your 
mission statements, and yet I know that, through my 
observations, that does occur. So would you comment on those 
two issues, which I think constitute conflict of interest?
    Mr. Keeney. Certainly. The first one being resources 
management responsibilities and enhancing commerce. I think 
that what we particularly pay most attention to are the 
authorization acts, and in this case the Magnuson-Stevens Act. 
I am not sure the Magnuson-Stevens Act requires us to consider 
the enhancements of commerce even though on its face, because 
we are in the Department of Commerce, you might think that that 
is an important priority. Again, we look to the statutes that 
guide our mission and our performance with regard to how we 
carry them out.
    The second question that deals with promoting the 
consumption of seafood on the one hand and in the conservation 
of stock levels, I agree with you that there is an inherent 
conflict there. However, I am not the expert and cannot share 
with you how that is balanced and what weight the promotion of 
seafood has in making decisions that relate to management of 
our stocks. Maximum sustainable yield is certainly something 
that is part of the statute, and that is something we look at 
for purposes of the management of stocks, and if that somehow 
relates to the promotion or seafood consumption, be that as it 
may. But that is a goal that we look to in the management 
responsibilities that we have under the Magnuson-Stevens Act.
    Mr. Saxton. OK. Thank you.
    Let me return now to Mr. Gilchrest's line of questioning 
where he asked if there were areas of duplication between the 
Department of Commerce, NOAA, NMFS and Interior. I would point 
out that, for example, in the Marine Mammal Protection Act 
there are nine acts where you actually have dual authority. And 
the Marine Mammal Protection Act, the U.S. Fish and Wildlife 
Service has jurisdiction over sea otters, polar bears, 
manatees, walrus, while the National Marine Fisheries Service 
has jurisdiction over all other mammals. I am not sure why we 
need to have two teams to do the same job. I think that may be 
a duplication.
    With regard to the National Aquaculture Act, the National 
Aquaculture Act gives coequal authority to the development of 
the National Aquaculture Development Plan and other functions 
among Secretaries of Interior, Commerce and Agriculture.
    Third, the Endangered Species Act actually splits 
jurisdiction between the Department of Commerce and the 
Department of Interior for listing, management, regulation and 
recovery of threatened species.
    The Lacey Act gives authority to both the Secretary of 
Interior and the Secretary of Commerce to regulate the 
importation, export or transportation of fish, wildlife and 
plants.
    The Interjurisdictional Fisheries Act of 1986 gives primary 
authority to the Secretary of Commerce. The Secretary of 
Interior has been given limited authority under the act.
    For the sake of saving time, I will just list others that 
have the same type of duplicative authority: the Atlantic 
Salmon Conservation Act of 1982; the Atlantic Striped Bass 
Conservation Act; the Central, Western and Southern Pacific 
Fisheries Development Act; and the Yukon River Salmon Act of 
1995.
    I guess I would let you go ahead and comment inasmuch as my 
time has now expired.
    Mr. Keeney. Congressman Saxton, I believe there is 
certainly a division of responsibility here, and I think that 
is very much directly related to the intent of Congress, so 
that the fact that NOAA has responsibility--
    Mr. Saxton. Could Congress be wrong?
    Mr. Keeney. We just try to carry out Congress's will.
    With regard to, for instance, the Marine Mammal Protection 
Act, the division of species, I agree with you that there is 
division, and there probably is some duplication. However, the 
species are managed species by species and not as a group. 
Marine mammals are not managed as one species. So the fact that 
you have whales being managed by NOAA and the sea otter being 
managed by Interior, I am not sure that there necessarily means 
there is duplication of activity there, even though you may 
have some administrative duplication in carrying out that act.
    With regard to aquaculture, I am particularly familiar with 
that one because I have spent a lot of time looking at the 
potential for authorizing aquaculture within the exclusive 
economic zone. You are right, there are some shared 
responsibilities there. For instance, the Corps of Engineers 
and EPA permit aquaculture activities right now. The U.S. 
Department of Agriculture handles fresh water aquaculture. 
However, I am not sure that putting all of NOAA into the 
Department of Interior is going to help that issue out, for 
instance. In fact, it might even frustrate it.
    With regard to the Endangered Species Act, clearly with 
split jurisdiction there, there are always issues that require 
close cooperation and negotiation between the Department of 
Commerce, the Department of Interior, the Department of 
Agriculture in carrying out our responsibilities under that 
act.
    Mr. Gilchrest. Thank you, Mr. Saxton.
    Maybe we are moving in the direction of getting away from 
single species management to more comprehensive ecosystem 
management so the whales and the sea otters will be looked upon 
as being a part of the same system.
    Mr. Saxton. Neighbors.
    Mr. Gilchrest. Neighbors.
    Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Mr. Secretary, I was reading portions of your statement 
earlier. Do I get the impression that as far as the 
Administration is concerned, you are not necessarily firm in 
objecting to the proposed bill, but you seem to be wanting more 
time to review the substance of the bill and make a better set 
of recommendations as far as what the bill proposes to do? Am I 
getting that just from you, or am I reading your statement 
wrong?
    Mr. Keeney. I think you are getting that from me. Again, I 
think that because of the importance of the U.S. Ocean 
Commission report, the fact of the matter is that the 
Administration needs to comprehensively review the 
recommendations, of which there are some 200, before it comes 
up with its own determinations of how to best organize 
governmental agencies to carry out the objectives and end 
outcomes that that Commission report seeks to achieve.
    Mr. Faleomavaega. Maybe I read too quickly your statement, 
but you are talking about how many personnel, how many people 
that work for NOAA? If this thing is to take place, you are 
talking about the transfer of how many Civil Service employees 
within Commerce?
    Mr. Keeney. Approximately 14,400 employees. Interestingly 
enough, NOAA's budget encompasses approximately 60 percent of 
the Department's budget and 35 percent of its people.
    Mr. Faleomavaega. So basically it is literally just 
emasculating the Department of Commerce in that sense.
    Mr. Keeney. I am not sure I would put it that way, but it 
is a large part of the Department
    Mr. Faleomavaega. What percentage would you say the total 
administration of Commerce is within NOAA?
    Mr. Keeney. Again, it is 60 percent of the Department's 
budget is NOAA's budget, and 35 percent of the Department's 
employees work in NOAA.
    Mr. Faleomavaega. So this is not chicken feed; this is 
really substantive?
    Mr. Keeney. You might want to call it fish feed or 
something.
    Mr. Faleomavaega. Mr. Saxton and the Chairman explained 
earlier about the conflicts. Of course, the conflict goes on 
all the time. I have always wondered about this fish. This fish 
goes into fresh water, then it becomes USDA responsibility; am 
I right? It is no longer NOAA, but it becomes the Agriculture 
Department. And if this fish continues to swim along the 
saltwater reef, then it becomes the Department of Interior 
responsibility. If it eats coral and all that stuff, it becomes 
a National Marine and Wildlife, it becomes a regulatory 
problem.
    Mr. Keeney. That is correct
    Mr. Faleomavaega. Then the fish looks outs in the blue and 
says, boy, I want to be free and out in the ocean, and then it 
becomes part of the jurisdiction of Commerce.
    Mr. Keeney. For instance, some of these fish we try to--you 
are right. Geography makes a big difference on who is 
responsible for management.
    Mr. Faleomavaega. I just wanted to get a sense. Also, I 
know the commercial fishing interests within the Department of 
Commerce is over a $28 billion industry for which a lot of 
constituents and people rely very much for their livelihood. 
And I know that over the years this has always been a problem 
between the Department of Commerce promoting and enhancing 
industry trade, commerce. And then we have a regulatory agency 
within the Department of Interior that always seems to put 
constraints and problems in dealing with the commercial fishing 
industry. And I just wanted to check with you, if NOAA was to 
be transferred to the Department of Interior, I assume 
currently it is under the Assistant Secretary's jurisdiction 
within the Department of Commerce, or is it under the Deputy?
    Mr. Keeney. It is under the jurisdiction of the Under 
Secretary of Commerce, Vice Admiral Conrad Lautenbacher, and he 
has Assistant Administrator Bill Hogarth directly managing the 
responsibility of the National Fisheries Service.
    Mr. Faleomavaega. So this--I can appreciate your concerns. 
Given the fact that 60 percent of the Department of Commerce 
operations comes out of NOAA alone is very substantive, and it 
is something that we need to continue to dialog on this.
    Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Faleomavaega.
    Mr. Sam Farr.
    Mr. Farr. Thank you very much, Mr. Chairman.
    Mr. Keeney, were you at Senator McCain's hearing last week 
when they unveiled the Oceans Commission report?
    Mr. Keeney. No. I would have liked to have been there, but 
I was at the International Invasive Species Conference in 
Ireland last week.
    Mr. Farr. I do not think you would have liked to have been 
there, because I was there, and Senator McCain and other 
Senators severely attacked NOAA essentially for your inability 
to comment on any of the questions that were asked of Admiral 
Lautenbacher. It was an embarrassment for the Department.
    And I find today that your statement that you need 
opportunity to review the Commission's recommendations 
essentially trying to bury what is so important in this report. 
This report came out in the draft form last April, and the 
Commission recommended, based on growing understanding of 
ecosystems, including recognition of inexorable links among 
sea, land, air and all living things, a more fundamental 
reorganization of Federal resources agencies will eventually be 
needed.
    That recommendation has been there for over 150 days, and, 
in fact, since the Stratton Commission report in 1969, which 
was 35 years ago, there have been no fewer than 23 
organizational proposals involving NOAA offered either by 
Congress, Presidents or Federal advisory committees.
    What I find so amazing is that the Administration moved 
very rapidly to create a new Commission, a new Department of 
Homeland Security, which was a major reorganization of Federal 
agencies, and borrowed from your agency as well as many others 
to create that new Department. Congress has acted on the 9/11 
Commission report, which has been given to Congress since the 
draft of the Oceans Commission, and since Congress has had the 
recommendations of the Pew Commission. I mean, these are not 
new issues. And what I understand is that the Administration 
forwarded to Congress its own legislative proposal for organic 
authority for NOAA.
    So to say that you have not had an opportunity to review 
these recommendations seems to me a real misnomer. I will tell 
you as a co-chair of the Oceans Caucus--and its co-chairs of 
Congressman Weldon, Congressman Greenwood, Congressman Allen 
and myself--we have many times written to Secretary Evans 
asking him to meet with the caucus over a year ago, and every 
time the Secretary refused.
    We have been trying to work on issues of reorganization and 
proper management of these resources for a long time in 
Congress, and I find that with all of the activity and the 
Oceans Commission being created by the President, who made the 
appointees, these are his appointees, to come and now say that 
we just need more opportunity to review it, when on one hand 
you have already forwarded to Congress your plan for organic 
authority--I think from the testimony just given, if your 
Department is 60 percent NOAA, which is 60 percent of the 
budget, why are we calling it the Department of Commerce? It 
ought to be the Department of NOAA, and Commerce ought to be a 
subentity of that.
    There is serious--these bills that Mr. Saxton has 
introduced are serious bills, as Senator Hollings' bill is on 
the Senate side. We have a lot of work here, we have to get 
moving, and to say that we need more time, we will delay it, we 
will not start until a new Congress comes back in January I 
just think is irresponsible.
    Mr. Gilchrest. Are you done, Mr. Farr?
    Mr. Farr. Yes.
    Mr. Saxton. May I add something out of turn? I believe I 
talked to you about it, and you had told me we had scheduled it 
for this date in July before we left town. And we were pleased 
to have Mr. Keeney here. And, in fact, Mr. Keeney and I found 
out we had something in common that we did not know that we had 
in common when I went down to shake hands.
    But I will tell you something, I am offended that neither 
Admiral Lautenbacher or Dr. Hogarth are here today. They both 
had plenty of notice to be here. Recently in the last few days 
we found out that they had to ``go out of town.'' we cannot 
solve these problems if we cannot meet and talk about them. I 
am just offended that they are not here.
    Mr. Gilchrest. Thank you, Mr. Saxton.
    Mr. Keeney. Mr. Chairman, I think there is a difficulty 
here in NOAA trying to respond in a detailed fashion to some of 
these recommendations when indeed the Administration has a lot 
at stake here with regard to the recommendations of the Ocean 
Commission report. So that clearly we have been working within 
NOAA and within the Administration to come up with what we 
believe to be solid positions that relate to the 
recommendations of the Commission.
    However, the Administration does have 90 days. The report 
came out just last Monday, the 20th of September, the final 
report. I believe that there may be some decisions made, like 
the Organic Act, before the end of the 90-day period of review. 
But yet again, we at NOAA cannot say that, and, again, there is 
some 10 different agencies and departments involved in this 
review at the Council For Environmental Quality.
    So certainly we have been looking at this for a long time, 
but the fact of the matter is the Commission's report was also 
delayed, as you know, and there is a period of review within 
which the Administration is given by law to review those 
recommendations before it comes with its suggestions. So I 
guess what I am saying is that NOAA on its own, even though we 
have been looking at this very closely, cannot come out and 
give you its own personal views without the deliberation within 
the Council For Environmental Quality.
    Mr. Gilchrest. Thank you very much, Mr. Keeney. I think we 
all recognize the difficulty of the split jurisdiction, the 
fragmented way in which we deal with a whole range of issues, 
not just oceans, estuaries, fish, hurricanes, marine mammals, 
et cetera. And I think what we are going to continue to try to 
do in this committee is to work as effectively as we can as one 
of the leadership positions in the Federal Government to set 
the tone of the debate; create legislation where there is 
clear, workable, pragmatic and visionary goals and objectives; 
and create a structure that is adequate and can function to 
meet those in a professional, clear way.
    I have just some follow-up questions, Mr. Keeney, and I 
will conclude with these questions to sort of get clear in my 
mind NOAA's relationship with the other agencies and 
departments in the executive branch on the whole range of 
issues, and I would like you to respond to those, and I know 
you are working--those are specific questions that deal with 
very specific details of the Ocean Commission reports on how 
NOAA could work in a more efficient manner with its agency 
partners. And a number of us up here mentioned already USDA, 
Fish and Wildlife and NMFS. And Mr. Faleomavaega said depending 
on where the fish is, depending on which agency deals with that 
particular fish.
    So as you move forward to look at the Ocean Commission 
report and make some recommendations to us so we can change the 
statute. USDA, Fish and Wildlife and NMFS deals, from your 
perspective, in a fluid manner, there is no, when I say 
conflict of interest, I am not talking about money conflict of 
interest necessarily, economic conflicts, but such strong 
differences of opinions based on each agency's statutory frame 
of reference, what could be cleared up in that area.
    Number two, dredging for our Nation's ports and a whole 
range of other things that deal with our Nation's ports. 
Generally, the Corps of Engineers is the lead agency on that, 
and Interior, through Fish and Wildlife, and the National 
Marine Fisheries Service, usually are the commenting agencies. 
So, is it fine the way it is where NMFS under Commerce and Fish 
and Wildlife under Interior comments on those, not only the 
dredging projects, but where the dredging material will be 
disposed of, and who monitors that large disposal site for 
decades to come, and how that is monitored?
    You mention in your testimony, Mr. Keeney, Executive Order 
1358, marine protected areas. In marine protected areas you 
have the National Park Service, you have Fish and Wildlife, you 
have Marine Management Service, et cetera, et cetera. Under 
marine protective areas or that executive order, do you see the 
structure the way it is now in all these various agencies 
working on that issue, working harmoniously, or what would you 
recommend to change in that particular arena?
    Last is flooding. You mentioned in your testimony about 
forecasting flooding. I am interested to see your synergism 
with FEMA, USGS, and flood plain management depends on flood 
plain mapping. And flood plane mapping, it seems to me, in many 
areas of the country changes rapidly when you have new 
construction, new development; and depending on the new regime 
for stormwater management, you might change the whole regime of 
where that water is going to be channeled. So either continue 
the existing channeling the way it is, or exacerbate that and 
create floods where they were never created before.
    So, FEMA, USGS, NOAA, what is your relationship with 
developing those kind of systems that are changing? They change 
almost every few years. So in many areas, my area in particular 
that I represent in the northern part of my district, FEMA's 
maps are useless now for two reasons. One, there has been so 
much development in some of those areas that the whole flood 
plain has changed. And two, we are getting rainstorms that we 
have not had in the history of that particular region of 
weather forecasting.
    So, is NOAA's relationship with all of these various issues 
one that is succeeding? We know it is dynamic, but is it 
successful? And I know that you are reviewing some of these 
things with the ocean report, but I just wanted to have your 
sense at this particular time on some of those questions. My 
time is up.
    Mr. Keeney. Thank you, Mr. Chairman. You certainly asked a 
series of questions here, and I will try to address them as 
best I can. But at the same time I would like to say that we 
would also like an opportunity to get back to you and work with 
the Committee to get you additional information after today's 
hearings.
    Mr. Gilchrest. That might be the best thing, Mr. Keeney, 
rather than go through all of those, unless you feel perfectly 
comfortable in doing that. We certainly can discuss that in the 
coming weeks.
    Mr. Keeney. Very good.
    Mr. Gilchrest. OK. Thank you very much.
    Let us see. Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    I have two additional questions for Secretary Keeney. One, 
is the Administration going to withdraw their legislative 
proposal for organic authority for NOAA until you have had a 
chance to review the Ocean Commission report?
    Mr. Keeney. No, we are not. This is something that NOAA has 
been interested in for some time. In fact, 20 years ago when I 
was the Deputy General Counsel of NOAA, I spent at least 6 
months working on an organic act at that time. NOAA has 
realized for decades that it needs an organic act. We have been 
in existence now for almost 35 years. We have almost 200 pieces 
of legislation that have been passed by Congress, some of which 
preceded the formation of NOAA, and we believe an organic act 
would help us tremendously, give us direction with regard to 
our mission and how we are going to carry it out. So we believe 
an organic act is something that, with or without the 
recommendations of the Ocean Commission, is indeed an 
appropriate thing to proceed with.
    Mr. Faleomavaega. I would like to defer my time to Mr. 
Farr, if he has any follow-up questions on this issue.
    Mr. Farr. I will wait.
    Mr. Faleomavaega. One other question, Secretary Keeney. 
According to section 8 of the proposed bill, the Director of 
OMB will be authorized to make any subsequent incidental 
transfers of programs, personnel and assets as necessary. This 
authority would come under without any requirements of review 
or justification or even for approval by the respective 
oversight committee in the Congress. In essence, there will be 
no accountability. To say the least, this very broad 
discretionary authority could be abused to dismember NOAA as it 
currently exists and in reality perhaps even reduces the stated 
purpose of the bill; that is, transfer NOAA as a distinct 
entity to the Interior Department.
    Do you agree with this interpretation of section 8 of the 
bill?
    Mr. Keeney. I must say I have not looked too closely at it, 
but because the bill is put together by a member of your 
committee, I suggest if you think there is a problem there, 
that it could be changed at markup
    Mr. Faleomavaega. I guess there would be no purpose of me 
asking the question about the bill since you have not had a 
chance to thoroughly review it. Am I correct in this?
    Mr. Keeney. We have looked at the bill. The bill actually 
lacks quite a bit of detail.
    Mr. Faleomavaega. That is what we are trying to ask, Mr. 
Secretary. Tell us what it lacks, and give us some good stories 
about the provisions of the bill, too.
    Mr. Keeney. Again, it is also interesting to note some 20 
years ago I was asked by Secretary Baldrige when I was working 
at Commerce as a Deputy General Counsel to look at what to do 
with NOAA in light of his interest in creating a Department of 
International Trade and Industry. So 20 years ago I got to 
convene a group of people to look at what were all the options 
that ought to be considered as to what to do with NOAA, and we 
came up with, I would say, at least 10 different options. And 
these are issues that have been looked at before, and we would 
be very willing to sit down with the Committee to discuss what 
might be the best options here. But as you know, the bill is 
fairly straightforward and just saying NOAA as a whole and 
putting it into the Department of Interior.
    With regard to authority that OMB might have that might run 
against that, I really have not looked at that in any detail.
    Mr. Faleomavaega. Mr. Secretary, probably in the lifetime 
of your sense of expertise and the experience that you have 
gained not only as someone in your capacity as a professional, 
do you get the sense of our sense of urgency of how important 
the oceans policy is for our country? It has some very serious 
implications not only for our country, not only our security, 
but economic, commercial, environmental. These things are 
really serious issues. And I just wanted to know from your 
experience of how many administrations that you have worked 
for, not Republican or Democrat, it does not matter, but do you 
sense that in your experience that this issue is really taken 
seriously by those who are in positions to make important 
decisions in our government to see how serious the matter is?
    Mr. Keeney. Absolutely. In fact, there is a tremendous 
amount of effort that went into working with the Ocean 
Commission that reviewed these policies and has been reviewing 
it for the last couple of years. It is tremendously serious, 
and that is another reason why I believe that the 
Administration needs additional time to come up with its 
recommendations on what it wants to do in relation to the 
recommendations made by the Commission itself.
    Mr. Faleomavaega. So you do not think we have studied 
reports to death? Paralysis by analysis, is that what they 
said?
    Mr. Keeney. No. I think the Ocean Commission report is very 
thoughtful, very thorough, very detailed, and very much needed, 
and is being looked at very closely. And I am sure that the 
Administration will be agreeing with many of the 
recommendations made in it.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you Mr. Faleomavaega.
    Mr. Saxton.
    Mr. Saxton. Thank you, Mr. Chairman.
    Let me just address two issues which I think are 
indications that perhaps NOAA and in particular the National 
Marine Fisheries Service are maybe not working up to capacity 
or not working up to a level of success that we would like to 
see and is the real cause that gave me the inclination to draft 
and introduce this bill.
    I have had a lot of experience sitting here to observe 
NMFS's activities with regard to regulatory activities, and 
there are two sets of issues here which I just want to bring up 
to you. With regard to individual species management, the white 
marlin population at one time in the 1950s was an estimated 
33,000 metric tons biomass. Today it is at an estimated 3,000. 
That is a drop-off which is more significant than anyone would 
ever want to associate with the term ``successful management.'' 
and I am sorry that I do not have a bigger chart, but this 
chart is a picture of how that population has declined or 
crashed.
    The second is a related species, blue marlin, same thing, 
same pattern, and I have worked on this particular issue, and 
it is a favorite of mine and one of the least favorite of mine. 
And so that is an indication that there are some changes that 
need to be made with regard to regulatory function of National 
Marine Fisheries Service. And as a result of that, I would just 
ask for your comments.
    Second, there is another indicator that maybe things at 
NMFS are not working as well as they could, and that is in the 
last 20 minutes or so in talking with my friend here, we have 
identified 10 actions that have resulted--10 National Marine 
Fisheries actions which have recently come about not because of 
regulatory policy, but because of lawsuits. It has become 
necessary for people to file and carry out lawsuits to protect 
various species.
    For example, there are six actions that we have identified 
are as a result of lawsuits and four that were actions taken by 
NMFS to avoid lawsuits. For example, as a result of lawsuits, 
we now find that we have tents for shrimping vessels. Second, 
we have had swordfish longline closures and gear changes that 
have taken place to try to protect swordfish as a result of 
lawsuits. We have had longline closures in Hawaii as a result 
of lawsuits. We have had defining the zero mortality rate goal 
under MMPA as a result of lawsuits. We have had New England 
groundfish actions taken because of lawsuits. And six, we have 
denied a permit to test marine mammal deterrence off California 
as a result of lawsuits. Then there are four other actions that 
we think NMFS took to avoid lawsuits, a determination that NEPA 
applies on the high seas, and granting permits to require 
complete EIS studies.
    We have seen NMFS require changes to the New England 
groundfish regulations which have been drafted by the Council 
to avoid a lawsuit. We have found developed rotating closed 
areas for New England scallops to avoid a lawsuit, and we have 
found that NMFS has required observer coverage and VMS coverage 
in new England to avoid lawsuits.
    Now, lawsuits are part of our life, and the courts are a co 
and equal branch of government, but it seems to me that this 
number of lawsuits that individuals or organizations have 
deemed to be necessary to get NMFS to do its job is an 
indication that things are not working very well at NMFS.
    And so with regard to these two species of white and blue 
marlin and the population declines and conceptually the subject 
of court action which is necessary to get NMFS to do its job, 
would you comment on those two sets of issues?
    Mr. Keeney. Certainly. The first with relation to white and 
blue marlin, as you know, the U.S. Take with regard to the 
world catch is less than 4 percent, and we are working as you 
know with ICCAT to assist in the management of the species. 
What we are doing domestically to reduce billfish mortality, we 
have recreational limits of 250 fish annually. We have 
implemented changes that involve the recreational fishery that 
relate to reporting systems, including telephone reporting, 
catch cards, dockside surveys. For longline or commercial 
fishery species, we have area closures, prohibitions on the use 
of live bait in the Gulf of Mexico, probation on large circle 
hooks throughout the fishery to decrease mortality. And NMFS is 
also working with the recreational fishing community to enhance 
catch-and-release fishing throughout the fishery with the use 
of circle hooks.
    From the standpoint of regulatory actions, we have 
developed amendment number 2 to the Highly Migratory Species 
Fishery Management Plan, and amendment number 2 to the Billfish 
Management Plan. These amendments consider potential options, 
including closures, gear requirements and modifications to 
existing regulations. NOAA fisheries has also provided funds 
for research with the Institute of Marine Science and the 
country of Brazil to focus on minimizing bycatch and bycatch 
mortality in blue and white marlin and longline gear.
    So those are actions that we have taken to try to reduce 
the mortality of fish caught and also to restrict the number of 
fish that can be caught.
    With regard to the number of lawsuits and the actions taken 
by the Administration, by the National Marine Fisheries Service 
to avoid lawsuits, I think that you cannot avoid lawsuits, as 
you know. One of our objectives is to try to win more lawsuits, 
and I think we have been particularly successful in that arena 
over the last 2 to 3 years. In fact, I would like to provide 
for the record some evidence of that with regard to numbers of 
lawsuits facing the National Marine Fisheries Service when this 
administration started and our success rate with regard to 
handling those lawsuits.
    Mr. Keeney. So your implication was that the fact that 
there are a number of lawsuits and a number of actions being 
taken by NOAA to reduce lawsuits is somehow an indication of 
the fact that NMFS is not doing its job very well. I am not 
sure I really agree with that. In fact, I think that NMFS is 
doing a better job because of its success rate on these 
lawsuits. We cannot prevent a lawsuit from occurring, but we 
certainly can affect the outcome of that lawsuit by our 
administrative actions. And I guess I will leave it with that.
    Mr. Saxton. Thank you. My time has expired. Mr. Chairman I 
would yield back.
    Mr. Gilchrest. Thank you, Mr. Saxton, for your thoughtful 
contribution.
    The gentleman from California, Mr. Farr.
    Mr. Farr. Thank you very much, Mr. Chairman. Thank you. I 
thank the other members of the Committee for allowing me to 
participate.
    This hearing was set for H.R. 4368, Mr. Saxton's bill, and 
I would like to submit for the record the legislation 
introduced by the Oceans Caucus and the bills authored by 
Congressman Greenwood and others of the caucus, and I would 
like to submit that for the record.
    Mr. Gilchrest. Without objection.
    [NOTE: The bills submitted for the record have been 
retained in the Committee's official files.]
    Mr. Gilchrest. Mr. Keeney, did I hear you tell Mr. Saxton 
that the Department is opposed to his bill at this time until 
you have had an opportunity to review the Commission's reports?
    Mr. Keeney. That is correct.
    Mr. Farr. What position did you take on Senator Hollings' 
bill that was marked up last week in the Senate Commerce 
Committee?
    Mr. Keeney. Which bill was that? The Organic Act?
    Mr. Farr. It was essentially Mr. Saxton's bill with some 
more substance in it as to the direction of NOAA, to pull NOAA 
out of the Department of Commerce.
    Mr. Keeney. I am not aware of any administrative testimony 
on that bill.
    Mr. Farr. It has been marked up and is going to the Floor, 
but you had no position on that bill?
    Mr. Keeney. I am sure we do have a position on it, and, in 
fact, we probably do not support it.
    Mr. Farr. I would like to ask you in response to Mr. 
Faleomavaega's question, it seems to me what you are saying is 
two things: One, we want an opportunity to review the 
Commission report. It was our Commission, it was done on our 
watch and appointed by the President, and recommendations they 
made in there, as I said, of more than 6 months ago, 5 months 
ago, to fundamental reorganization.
    Having said all that, you also said you are going to go 
ahead with codification of NOAA in its historical position? How 
can you go ahead with codification or the Organic Act for NOAA 
at the same time you are telling this committee you are going 
to review all of these recommendations for reorganization? 
Would not you withdraw that proposal and write the new, 
hopefully the new, thinking that is coming out of all of these 
good reports and recommendations that have been made to the 
President?
    Mr. Keeney. I would like to say that I think that many of 
the recommendations made by the Ocean Commission are subject 
matters that NOAA has been looking at for some time. So I would 
say that of the 200 recommendations, many are issues or 
subjects that we feel we can move ahead with right away. And 
the reason being is that we sort of look at it as low-hanging 
fruit. These are things that are sort of no-brainers that we 
can get agreement on within the Administration. This is 
something NOAA has been interested in for some time. And now 
the Commission has made that recommendation, it makes it easier 
for us to move ahead with the recommendation without further 
discussion within this policy review committee at CEQ.
    Mr. Farr. And yet the Senate has decided that they need to 
substantively give you more legal authority, NOAA legal 
authority to carry out a more comprehensive job?
    Mr. Keeney. Maybe the Senate is doing that, but I am not 
aware that the Administration does not have a position that it 
has taken on that bill.
    Mr. Farr. I just want--cannot understand why you want to go 
ahead with codifying the status of NOAA after the taxpayers 
have spent 3 years and a million dollars on this report, and 
you are indicating to this committee that you need more time to 
review the report, but at the same time you are going to move 
ahead with codification of NOAA. It just does not make any 
sense at all.
    I think you have already spoken. It sounds like what you 
were saying is, we have made up our minds; do not confuse us 
with the facts.
    Mr. Keeney. No. I think this is something that I have just 
mentioned I have been working on personally for as long as 20 
years. This is something that NOAA has been interested in for 
some 20 years, and just because the Ocean Commission report has 
it as one of its 200 recommendations does not mean that we need 
to wait until the end of the 90-day review period to go forward 
with that recommendation when it is something that is clearly 
in NOAA's best interest, and we have a consensus within the 
Administration that that is something that the Administration 
would like to support. So it does not need additional review 
and study and, as I said, can be looked at as low-hanging 
fruit, and let us get on with it.
    Mr. Farr. Well, it is not just the Commission's report that 
made some recommendations on reorganization. It was also the 
Pew Trust and 26 other entities before that in the last 30 
years since the Stratton Commission report. I am shocked to 
hear you want to go ahead with codification at a time when 
people are talking about reorganization.
    Thank you. Thank you very much, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Farr.
    The gentleman from New Jersey, Mr. Pallone.
    Mr. Pallone. Thank you, Mr. Chairman. I just want to follow 
up Mr. Keeney again quickly on the questions I was asking 
earlier about the OCS consistency determination.
    I was trying to find out whether the Administration still 
supports these provisions in the energy bill that they did 
support earlier in the Congress to give authority over OCS 
consistency determinations to the Secretary of Interior and to 
in, my opinion, overall weaken State consistency authority.
    I know you said--you mentioned something about all parties 
coming to an agreement on this, but it was my understanding 
that the coastal States strongly opposed the Administration's 
revisions to Federal consistency regulations. And I guess I did 
not the time before, but I am trying to get a handle on whether 
you are implying that the States are now supporting these 
changes.
    The Administration is basically still looking to move ahead 
with these changes, and are you saying that the coastal States 
now support the changes, or they do not?
    Mr. Keeney. I am not saying the coastal States support the 
changes. What you are saying is that it is--part of the energy 
bill seeks to give authority to the Department of Interior on 
consistency. That is what you are telling me?
    Mr. Pallone. Right.
    Mr. Keeney. That is something that--NOAA thinks that 
consistency is a very valuable part of the Coastal Zone 
Management Act, is a very important element in the balance 
between State and Federal interests, and is important to 
maintain in its existing sense.
    Mr. Pallone. So you do not want the changes.
    Mr. Keeney. No.
    Mr. Pallone. So you do not support the changes in the 
energy bill.
    Mr. Keeney. I can just tell you that is only one of many, 
many interests in the energy bill.
    Mr. Pallone. Then you started to talk about some rulemaking 
that you are doing on this issue. That is a different issue.
    Mr. Keeney. It has to do with consistency. We look at it as 
administrative changes to try to make the appeals work more 
efficiently that come in from State determinations. It is the 
same subject, but different portion.
    Mr. Pallone. Different aspect. OK.
    Let me ask one more thing, Mr. Chairman. That is about, 
again, going back to the whole question of conflict with NOAA 
and the Department, because the bill before us, Mr. Saxton's 
bill, would make it transfer to the Interior.
    There definitely have been conflicts in terms of NOAA and 
the existing Department of Commerce, and I just wanted to 
mention this and get a response. On the tuna/dolphin issue, the 
recent U.S. District court ruling against Commerce with respect 
to Commerce's finding of no significant adverse impact of purse 
fishing on dolphins I think is a prime example of the internal 
tensions within NOAA. On the one hand NOAA was charged with 
protecting, ensuring the recovery of dolphins. On the other 
hand, Commerce came under intense pressure by the State 
Department to issue the finding of no significant adverse 
impact so as to benefit the Mexican tuna fishery. Now, in a 
reversal, Dr. Hogarth issued the final finding of no 
significant adverse impact after determinations based on NOAA's 
own scientists that there was a significant adverse impact.
    Again, I just want you to comment on this because it seems 
to me there is a conflict, and that this is a good example of 
the kind of conflicts that exist now within the Department of 
Commerce.
    Mr. Keeney. Congressman Pallone, I am not familiar with the 
tuna/dolphin issues. Clearly Mr. Hogarth would be the right 
person to ask that question. I can get that information for 
you. However, I would like to make a statement with regard to 
the leadership within NOAA and the Department of Commerce.
    Mr. Pallone. Well, that is fine, but would you get back to 
me or have Mr. Hogarth get back to me on the dolphin issue? 
With your permission, Mr. Chairman, I would like to get a 
written response.
    Mr. Gilchrest. I would like to know about that as well.
    Mr. Pallone. OK. Thank you.
    Go ahead, Mr. Keeney.
    Mr. Keeney. I used to work up on the Hill on the Senate 
Appropriations Committee staff, and I worked with probably six 
of the eight NOAA Administrators. I have been involved in 3 
different administrations at NOAA over the 20 years that I have 
been in government, and I can say that NOAA has never had a 
better relationship than it has right now with the leadership 
within Commerce, with regard to the Secretary, the Deputy 
Secretary, and the ability of NOAA to do its job without undue 
influence, without politicization. And I think we have been 
very fortunate, and we have a great team, and you may think 
that team is not very effective, but I will tell you it is more 
effective than it has ever been before.
    Mr. Pallone. I started out this morning, I guess, saying 
that I thought you did have a great team, so I am not 
questioning that, but I would like to have a response to that 
question.
    Mr. Keeney. We will get you that.
    Mr. Pallone. Thank you.
    Mr. Gilchrest. Thank you, Mr. Pallone.
    Are there any other questions from any Members for Mr. 
Keeney?
    Mr. Keeney, thank you very much for your testimony. It has 
been very helpful here this morning. We would like to follow 
up, sir, with two things; number one, some of the questions I 
asked if we could either over the phone, since they were my 
questions--if we could have a conversation about that. And we 
may have some other questions that we would like to submit to 
you in the coming days to deal with this issue of the NOAA 
Organic Act.
    Mr. Keeney. Certainly.
    Mr. Gilchrest. Thank you very much, Mr. Keeney.
    Our next panel will be Mr. John M. Palatiello, Executive 
Director of the Management Association for Private 
Photogrammetric Surveyors, MAPPS; Dr. Andrew Rosenberg, Member, 
U.S. Commission on Ocean Policy; Mr. Robert Hayes, General 
Counsel, Coastal Conservation Association; Mr. Christopher 
Mann, Policy Director, Center for SeaChange; Mr. Rod Moore, 
Executive Director, West Coast Seafood Processors Association.
    Gentlemen, thank you very much. I think there are some 
seats in the room, so anybody standing over in the corner, 
there are probably a half a dozen chairs vacated now, so you 
are welcome to sit down.
    Gentlemen, thank you for coming. We welcome you for coming. 
We look forward to your testimony.
    Mr. Palatiello, please tell me how to pronounce your name.
    Mr. Palatiello. I would not be offended if you called me 
John.
    Mr. Gilchrest. Thank you, John. You may begin.

STATEMENT OF JOHN M. PALATIELLO, EXECUTIVE DIRECTOR, MANAGEMENT 
   ASSOCIATION FOR PRIVATE PHOTOGRAMMETRIC SURVEYORS (MAPPS)

    Mr. Palatiello. Thank you, Mr. Chairman. I am John 
Palatiello, Executive Director of MAPPS, which is a trade 
association of private mapping and geospatial firms.
    I remember fondly, Mr. Chairman, we had the pleasure of 
visiting the Maryland State Department of National Resources 
several years ago to look at their mapping and geographic 
information systems together, and the work they were doing with 
regard to using geospatial technologies for wetlands 
delineation, and you have been a great assistance to our 
profession. And we are grateful for that and for the 
opportunity to share our views today.
    Mr. Gilchrest. Thank you very much.
    Mr. Palatiello. There are a number of fine programs in NOAA 
in which our members are participants as both prime and 
subcontractors.
    A few years ago NOAA began a shoreline mapping program to 
contract with private companies to take advantage of the 
technologies that are available in the private sector, and 
those contracts and that program is moving along very well. 
This subcommittee is very familiar with the Hydrographic Survey 
Program and the effort to work down the survey backlog on our 
coasts and ports and harbors, and our members are the 
contractors in that program as well. And again, working within 
budget limitations, there are a number of successes there.
    The Coastal Services Center in Charleston, South Carolina, 
utilizes a number of our member firms, and that, we think, is a 
best practices model that should be more extensively emulated.
    Over the last 10 or 12 years, the advent of private 
commercial high-resolution remote sensing satellites has met 
the marketplace, and they are actually licensed by the Federal 
Government, and NESDIS is the agency that does that licensing. 
There are, in addition, though, a number of areas for reform in 
NOAA, and I will just touch on them very briefly.
    We would respectfully disagree with Mr. Keeney and indicate 
that we do believe that NOAA still is in a position of 
competing with the private sector in a number of their mapping, 
charting, and activities, and we think there is an opportunity 
to embrace new technology in the private sector to a much 
greater extent.
    The hydrographic survey backlog, we think, is somewhat 
crippled by NOAA's continued reliance on their own ships rather 
than the efficiencies that are resident in using the private 
sector. And we are deeply concerned that NOAA is not moving 
forward on implementation of section 104 of the Hydrographic 
Services Improvement Act with regard to development of a 
quality assurance program so that private charting data, ENC 
(Electronic Navigational Charts) data, can be used which is 
already in existence in the private sector.
    But the Ocean Commission highlighted the urgent need to 
modernize, improve, and expand Federal mapping efforts to 
improve navigation, safety and resource management 
decisionmaking, and we believe that there are a number of areas 
where that finding can be advanced.
    With regard to the legislation that Mr. Saxton has 
introduced, specifically let me raise a couple of issues that 
we have with the approach taken by the bill. First of all, 
there is already a terrible proliferation of mapping and 
geospatial agencies in the Federal Government. The General 
Accounting Office just earlier this year completed a report on 
that at the request of Mr. Putnam's subcommittee on the 
Committee on Government Reform. Section 2(c) of the legislation 
calls for NOAA to be a distinct entity within the Department of 
the Interior. We believe that for there to be a full 
integration of mapping and charting and geodetic activities in 
the Department of Interior, there should be a full integration, 
not kind of a stovepipe of NOAA within Interior.
    There is an issue with regard to the NOAA Corps, and 
integration the NOAA Corps into the Department of Interior, we 
think, is going to be a significant personnel challenge.
    I mentioned earlier the NESDIS program that licenses 
commercial and remote-sensing satellites. That licensing or 
regulation empowerment of the private sector, we believe, is a 
function of the Commerce Department, and that is one that we 
really think ought to be left in the Department of Commerce and 
not moved to the Interior Department.
    With regard to the actual mapping, charting and geodesy 
programs in NOAA, we believe that a transfer to the Corps of 
Engineers may be a more appropriate place to put those portions 
of NOS. As you have already indicated, Mr. Chairman, the 
hydrographic program is very similar. I would not say that it 
is duplicative. They do work well together, but NOAA does the 
coasts and the Great Lakes, and the Corps of Engineers is 
responsible for the harbors and the inland waterway systems. 
But they are very similar activities, and maybe there is 
greater synergy with the Corps of Engineers than there is with 
Interior. The Corps is the most experienced procurer of these 
services of any agency in the Federal Government. They have 
literally written books and manuals on contracting for these 
professional services, and they do an excellent job.
    Finally, the most recent data we have seen shows that the 
Corps of Engineers actually has more FTEs that are identified 
by OPM as geodesists than even NOAA does. So ingesting the 
geodetic program of NOAA into the Corps in some respects makes 
more sense than just moving it lock, stock and barrel into the 
Interior Department.
    The final point that I would make is that our experience, 
we have a lot of good friends, a lot of good work that we do 
with various agencies within the Department of Interior, 
including the Geological Survey and others, but those programs 
are terribly, terribly underfunded, and they are not high-
priority programs within the Department. Our experience is that 
the Interior Department, particularly the Geological Survey, in 
very good faith accepts programs that are moved to them from 
other agencies, but that the funding does not go along with it, 
and the programs suffer as a result. So based on that history, 
we are very concerned that that same fate may accrue to the 
mapping and charting programs of NOAA if they were moved to the 
Department of the Interior.
    We thank you for this opportunity to comment. We certainly 
look forward to working with you on this legislation and help 
create as effective a geospatial program in the government as 
possible. Thank you very much.
    Mr. Gilchrest. Thank you very much, John.
    [The prepared statement of Mr. Palatiello follows:]

       Statement of John M. Palatiello, Executive Director, MAPPS

    Mr. Chairman, members of the Subcommittee, I am John M. Palatiello, 
Executive Director of the Management Association for Private 
Photogrammetric Surveyors, MAPPS, the nation's oldest and largest trade 
association of firms in the geospatial profession. We are honored to 
have been invited to present our views on the future of NOAA.
    The member firms of MAPPS provide a variety of geospatial 
activities for commercial and government clients. These include 
mapping, photogrammetry, aerial photography, hydrographic surveying, 
nautical and aeronautical charting, GPS surveys, LIDAR, airborne and 
satellite remote sensing, and other geographic and location based 
services. Additionally, our member firms provide commercial products in 
mapping, charting and remote sensing.
    Our member firms interact with NOAA in a variety of ways. For 
example, all the prime contractors, and a number of subcontractors, on 
NOAA's shoreline mapping program, are MAPPS member firms. Virtually 
every prime contractor, and numerous subcontractors, in NOAA's 
hydrographic survey program, is a MAPPS member firm. The work done at 
NOAA's Coastal Services Center in Charleston, SC, and the way it 
utilizes the private sector for geospatial products and services to 
provide assistance to states and localities on the nation's coasts, is 
a ``best practices'' model that should be more extensively emulated 
throughout NOAA's National Ocean Service. And our member firms that 
operate high resolution commercial remote sensing satellites are 
licensed by NOAA's National Environmental Satellite, Data, and 
Information Service (NESDIS). Each of these programs is very successful 
and enjoys the support of our members who are involved.
    We understand the intent of H.R. 4368 and agree that a new 
structure for NOAA is needed. However, we are concerned about the 
bill's proposal to transfer NOAA, in total, to the Department of the 
Interior.
    Certainly, there are areas in which reform of NOAA is needed. Our 
member firms encounter an on-going difficulty with many NOAA 
activities.
    For example, NOAA continues to unfairly compete with the private 
sector in a number of geospatial areas. For example, despite the 
Inspector General's recommendation that NOAA's aerial photography 
program be privatized (Light Aircraft Fleet Should Be Privatized, STD-
9952-2-0001/August 1998), NOAA not only continues to operate this 
activity in-house, but it is building its capacity, in competition with 
the private sector. A case in point was the National Ocean Service's 
acquisition of a new digital aerial camera or sensor system (DSS) last 
year. This was done without consideration of the capacity in the 
private sector to provide digital airborne imagery services. This 
activity, we believe, is a violation of the Federal Activities 
Inventory Reform (FAIR) Act, Public Law 105-270, and Office of 
Management and Budget Circular A-76 (both the old circular and the 
newest version). As a result of this action, the House Appropriations 
Committee included language in its FY 2005 committee report (H. Rept. 
108-576), providing, ``The Committee expects NOAA to work with the 
private mapping community to develop a strategy for expanding 
contracting with private entities to minimize duplication and take 
maximum advantage of private sector capabilities in fulfillment of 
NOAA's mapping and charting responsibilities. NOAA shall submit a 
report on such a strategy to the Committee no later than November 1, 
2004. This report shall include a description of activities currently 
performed by NOAA, and activities performed by contractors, accompanied 
by cost and percentage information for each.'' NOAA has not yet 
communicated with or engaged the private mapping community to develop 
that strategy.
    As you may know, despite the progress that has been made on the 
hydrographic survey backlog, due in large measure to the leadership 
exerted by this Subcommittee, the NOAA survey ship operation activities 
have long been on the General Accountability Office list of high risk 
programs. As recently as 2001, NOAA's hydrographic program of operating 
its own ships continued to be a major management challenge and program 
risk in the Department of Commerce. GAO found, ``NOAA continues to rely 
heavily on its in-house fleet and still plans to replace or upgrade 
some of these ships. Consequently, continued oversight of NOAA's plans 
to replace or upgrade ships will be needed to ensure that NOAA is 
pursuing the most cost-effective alternatives for acquiring marine 
data.'' (GAO-01-243, Commerce Challenges, January 2001). NOAA still 
does not fully utilize the capacity of the private sector, which has 
been proven by the Inspector General to be more efficient than 
operation of NOAA's own ships.
    NOAA still has not worked with the private sector to fully 
implement the mandate of Congress under section 104 of the Hydrographic 
Services Improvement Act to develop a ``quality assurance program'' 
which was that, ``by not later than 2 years after the date of enactment 
of the Hydrographic Services Improvement Act Amendments of 2002, shall, 
subject to the availability of appropriations, develop and implement a 
quality assurance program that is equally available to all applicants, 
under which the Administrator may certify hydrographic products that 
satisfy the standards promulgated by the Administrator under section 
303(a)(3) of this Act''. This provision became law when signed by the 
President on December 19, 2002 (Public Law No: 107-372) and the two 
year deadline is December 19 of this year. It should be noted, Mr. 
Chairman, that privately produced ENC (Electronic Navigational Charts) 
data for the entire U.S. exists today. For NOAA to duplicate this 
effort is a waste of taxpayers' money. The certification and 
utilization of such data is exactly what Congress envisioned when it 
passed this provision in HSIA, in order to prevent such waste and 
duplication.
    And NOAA still does not support, nor does it fully embrace, the 
time-tested and proven qualifications based selection (QBS) process, 
under the Brooks Act and subpart 36.6 of the Federal Acquisition 
Regulation (FAR) for the full spectrum of surveying and mapping 
services. As demonstrated by the GAO protest that was filed in the 
matter of Terra Surveys, B-294015, August 4, 2004, NOAA avoids QBS when 
the public interest, and the HSIA, calls for it. Moreover, MAPPS has 
been deeply disappointed in NOAA's management of its electronic 
navigational chart (ENC) program. NOAA's lax contract management has 
permitted firms to circumvent the terms of the small business set aside 
program and facilitated this work going offshore to non-U.S. firms. We 
do not believe this is in the public interest, nor is it consistent 
with our homeland security needs.
    Earlier this summer, the Transportation Research Board (TRB) 
released a report: ``Geospatial Information Infrastructure for 
Transportation Organizations: Toward a Foundation for Improved Decision 
Making''. It can be found at http://trb.org/publications/conf/
CP31spatialinfo.pdf.
    Among the report's key findings and recommendations ``
    <bullet>  The roles and responsibilities of decision-makers must 
evolve if we are to leverage geospatial information and tools to our 
best advantage. This entails building and maintaining different 
relationships and enabling new and creative ways to do business. To 
accomplish this:
    <bullet>  The role of government should shift from implementer to 
facilitator/enabler and role model, allowing agencies to become more 
flexible and responsive.
    <bullet>  Different relationships should be established, both 
horizontally across functions and vertically across levels of 
government and the private sector, to ensure that resources are used 
most effectively.
    <bullet>  The committee concluded that to respond to a world in 
which data and technology are evolving more rapidly that the 
institutions that use them, a new model for development and use of 
geospatial information by the transportation system is needed...The 
actions necessary to make widespread use of geospatial data in a 
systematic way could be achieved through a focused alliance and 
collaboration among public, private, and academic communities. A key is 
in recognizing that the role of federal agencies is to enable state and 
local agencies and the private sector to carry out their missions. A 
practical role, rather than to mandate data requirements, would be to 
solicit data from data owners and providers and to encourage data 
sharing among agencies, users, and decision makers.
    <bullet>  The past decade has shown that it is impractical for 
federal and state transportation agencies to collect, maintain, and 
develop comprehensive geospatial data sets to support broad decision-
making activities. A more viable approach appears to be to encourage 
agencies--public or private--that are closest to the source to collect 
and maintain data necessary for their missions and to facilitate 
sharing of these data while developing expertise to integrate them into 
broader decision-support environments.''
    This describes NOAA as an agency that supports various 
transportation modes with geospatial activities. The new business model 
suggested by TRB, with a strong partnership with the private sector, is 
needed by NOAA, wherever it rests in the Federal Government's 
organizational chart.
    Mr. Chairman, the recent report of the U.S. Commission on Ocean 
Policy highlighted the urgent need to modernize, improve, expand, and 
integrate Federal mapping efforts to improve navigation, safety and 
resource management decision making. While a satisfactory resolution of 
the areas of concern I just discussed is needed in order for NOAA's 
mapping-related activities to realize the need identified by the 
Commission, we believe another set of issues and unintended 
consequences may be created with specific regard to the transfer of 
NOAA activities to the Department of the Interior. They are as follows:
    <bullet>  There is already a proliferation of geospatial activities 
within the Department of Interior. This has been well documented in the 
recent GAO report on Federal geospatial activities (Geospatial 
Information: Better Coordination Needed to Identify and Reduce 
Duplicative Investments, GAO-04-703, June 2004) and the 1998 NAPA study 
(Geographic Information for the 21st Century, National Academy of 
Public Administration, January 1998). Section 2(c) of H.R. 4368 calls 
for NOAA to be a distinct entity with the Department of the Interior. 
We believe that for the mapping, charting and geodesy activities of 
NOAA to be successfully integrated into those activities already spread 
among various agencies (USGS, BLM, NPS, FWS and others) in Interior, a 
consolidated geospatial bureau in the Department of the Interior is a 
better approach.
    <bullet>  The largest portion of the NOAA Corps officers is in the 
mapping, charting and geodesy activities of NOAA. We believe that 
imposing the NOAA Corps on the Interior Department would be a difficult 
personnel transition, either by dismantling the Corps and ingesting it 
into the civilian personnel system, or asking Interior to simply assume 
responsibility for management of the NOAA Corps.
    <bullet>  We do not believe that National Environmental Satellite, 
Data, and Information Service (NESDIS) program which licenses high 
resolution commercial remote sensing satellites systems belongs in 
Interior. This activity should remain in the Department of Commerce.
    <bullet>  Moreover, our experience with some activities in 
Interior, including the USGS, is that they too readily accept new 
responsibilities, but fail to secure sufficient funding along with 
those new activities. This ends up hurting existing programs. This has 
been particularly true of the cooperative topographic mapping program 
in USGS, which is being subject to re-programming to cover the deficit 
in operational income from LANDSAT.
    When legislation to dismantle the Department of Commerce was 
prominent in Congress in the mid-1990's, Rep. Royce of California 
introduced a bill that took an approach to the mapping, charting and 
geodesy activities in NOAA that we believe deserves the attention of 
the Subcommittee. His bill would have transferred the mapping, 
charting, and geodesy functions to the U.S. Army Corps of Engineers. 
The bill also provided that ``the Secretary of the Army, acting through 
the Chief of Engineers of Army Corps of Engineers, shall terminate any 
functions transferred...that are performed by the private sector or 
obtain by contract from the private sector those functions that are 
commercial in nature and are necessary to carry out inherently 
governmental functions.''
    We believe such a transfer has merit and is worthy of consideration 
by the Subcommittee. There are a number of reasons why such a transfer 
makes sense.
    <bullet>  There are NOAA and Corps of Engineers programs that are 
quite similar. NOAA conducts hydrographic surveys and publishes charts 
on the coasts, shorelines and Great Lakes. The Corps of Engineers 
conducts hydrographic surveys and publishes charts of the inland 
waterway system.
    <bullet>  While accurate data is not presently available, at the 
time of the introduction of Rep. Royce's bill, the Corps of Engineers 
had more geodesists on staff than NOAA, even though NOAA operates the 
National Geodetic Survey.
    <bullet>  The Corps is the most experienced and talented procurer 
of mapping, charting and geodesy services in the Federal Government. 
The Corps has literally written the book (actually a manual) on Brooks 
Act, QBS contracting, and teaches a course for government officials. 
Several NOAA personnel who award contracts for shoreline mapping, 
hydrographic surveys and the Coastal Services Center, have taken the 
Corps' course.
    <bullet>  Finally, integrating the NOAA Corps into the military 
personnel system already in place in the Army would be significantly 
easier than integrating or managing the NOAA Corps in the Interior 
Department.
    Mr. Chairman, thank you for the opportunity to comment on these 
important issues. We look forward to working with you as this 
legislation moves forward.
                                 ______
                                 
    Mr. Gilchrest. Dr. Rosenberg, welcome.

           STATEMENT OF ANDREW A. ROSENBERG, MEMBER, 
                U.S. COMMISSION ON OCEAN POLICY

    Mr. Rosenberg. Thank you very much, Mr. Chairman and 
members of the Subcommittee, and thank you for the opportunity 
to testify.
    I am Andrew Rosenberg. I am a member of the U.S. Commission 
on Ocean Policy and a professor of natural resources at the 
University of New Hampshire. The Commission found that our 
ocean environment is at risk, and the Nation does need to make 
real policy changes to reduce that risk. I am very pleased to 
hear this discussion today as well as the other actions in the 
Congress that have been noted in the discussion this morning on 
these issues of ocean policy.
    The Commission report contains four overarching themes: the 
adoption of the principle of ecosystem-based management for 
ocean and coastal areas; improving the governing structure we 
use for managing human activities and impacts; improving our 
scientific understanding of the oceans; and increasing 
awareness and educating the public concerning ocean issues. And 
I would point out that while the legislation before you today 
discusses movement of NOAA to the Department of Interior, all 
of these overarching themes are important in consideration of 
that move.
    The Commission recommends four components for a new 
governance framework to implement ocean policy: a national 
coordination on leadership, a strengthened and streamlined 
Federal agency structure, the development of regional solutions 
to national problems, and the establishment of a coordinated 
offshore management regime. In my opinion, these four elements 
should be included in a national ocean policy act that also 
specifically sets national goals for managing our ocean and 
coastal activities, and, most importantly, helps knit together 
the extensive and often confusing framework of statutory 
mandates and policy direction that we now have as ocean policy 
in the U.S.
    These national goals, I believe, should be based on the 
guiding principles in the report of the Commission. The 
Commission found that Federal-level coordination and leadership 
is fragmented at best and inconsistent in too many cases, and 
therefore the Commission calls for a National Ocean Council to 
coordinate across the agencies. The Council can help resolve 
conflicting mandates, improve the leverage that programs can 
obtain from one another, and present a more coherent leadership 
for the Nation on ocean policy.
    While councils may seem just another layer of bureaucracy, 
I think this Ocean Council must do much more than just oversee 
ongoing activities. The Council must have the authority to make 
real change in ocean governance. And with regard to H.R. 4368, 
it is important to note that the need for such a council as a 
formal coordinating mechanism will be true regardless of the 
location of the lead ocean agency and the Federal structure.
    The Commission recommends a stronger NOAA as the lead ocean 
science and management of policy agency for the Nation. In my 
view, NOAA has remained a collection of agencies rather than a 
lead ocean agency. The National Ocean Policy Act should 
strengthen NOAA by drawing programs together from across the 
government to reduce program fragmentation. As new imperatives 
come forward, such as the implementation of the new Integrated 
Ocean Observing System or the implementation of ecosystem-based 
approach to management, NOAA must grow into these programs in 
stride.
    NOAA must also remain a science-based agency as one of its 
core attributes. Prediction, monitoring and management 
functions depend upon the science and research enterprise of 
NOAA and its internal partners. As a former NOAA scientist, a 
NOAA Regional Administrator, and former Deputy Director of the 
National Marine Fisheries Service, and more recently as a 
member the NOAA Research Review Team, I very strongly believe 
that research and the provision of science advice for 
management must remain together as opposed to separating off 
the research function and leaving science advice strictly with 
the management function. The linkage between science and 
management needs to be strong enough to ensure that the 
scientific advice is of the highest quality and is available on 
a timely basis.
    I believe there are a couple of clear restructuring options 
for NOAA. For example, the agency could be restructured into 
three lines according to core functions, such as ecosystem-
based management, operations and predictions services, and 
scientific advice, research and education.
    Mr. Gilchrest. I am sorry. Could you say those three again?
    Mr. Rosenberg. Sure. Ecosystem based management, operations 
and predictions services, and scientific advice, research and 
education.
    That would be according to core functions; alternatively, 
along mission lines, coastal and marine ecosystem services, 
weather and climate services, and research operations and data 
services, and that is included in my written testimony, Mr. 
Chairman.
    The budget, of course, then must follow that structure and 
allow programs to be streamlined and consolidated. The end 
result, I believe, should be a stronger and bigger NOAA that 
logically might become an independent agency in order to fully 
meet the challenges of ocean policy. In any case, the issues of 
coordination across the government working cooperatively with 
the States and becoming a true leading ocean agency must be 
addressed as first priorities to determine where NOAA is best 
placed.
    Mr. Chairman, the Commission recommends that we adopt the 
principle of ecosystem-based management, that is, managing 
human activities within a large marine ecosystem, in concert 
rather than separately considering the cumulative impacts of 
those activities on the function of an ecosystem as a whole. 
This will be an enormous challenge for NOAA in the future, 
which I believe NOAA needs to change in order to meet that 
challenge.
    I see my time has expired. I would be happy to discuss any 
of these issues in more detail and the other Commission 
recommendations. Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you Dr. Rosenberg.
    [The prepared statement of Mr. Rosenberg follows:]

  Statement of Andrew A. Rosenberg, Ph.D., Member, U.S. Commission on 
        Ocean Policy and Professor, University of New Hampshire

    Mr. Chairman and members of the Committee: Thank you for the 
opportunity to testify before you today concerning the future of U.S. 
ocean policy and the Commission's view on H.R. 4368, the Weather and 
Oceans Resources Realignment Act. I am Andrew Rosenberg, a member of 
the U.S. Commission on Ocean Policy and a Professor of Natural 
Resources in the Institute for the Study of Earth, Oceans and Space at 
the University of New Hampshire.
    The Ocean's Act of 2000 formed the U.S. Commission on Ocean Policy 
and directed us to ``make recommendations for coordinated and 
comprehensive national ocean policy...'' The Act set out eight specific 
objectives for this policy paraphrased here:
    1.  protection of life and property;
    2.  responsible stewardship of ocean and coastal resources;
    3.  protection of the marine environment;
    4.  enhancement of marine-related commerce, resolution of conflicts 
among diverse users of the marine environment and engagement of the 
private sector in developing approaches to the responsible use of 
marine resources;
    5.  expansion of knowledge of the marine environment and the 
advancement of education in fields related to the ocean and coasts;
    6.  development and improvement in technological capability for 
ocean related activities
    7.  cooperation among all government agencies to ensure coherent 
regulations, appropriate use of funding, efficient operation of federal 
agencies, and enhancement of partnerships with state and local 
governments; and
    8.  leadership by the United States in ocean and coastal 
activities.
    I believe our recommendations truly meet the spirit and intent of 
the Oceans Act. Further, I, and my fellow Commissioners, believe that 
the oceans are in trouble and that the current management regime and 
the science supporting it are inadequate to address the growing suite 
of complex and interrelated problems facing these economically, 
ecologically and aesthetically valuable ocean resources. These 
concerns, voiced by virtually every stakeholder that appeared before 
the Commission, clearly indicate that we must immediately begin to make 
changes in U.S. ocean policy to reverse the distressing, widespread 
degradation in the health of the oceans and coasts, vital living marine 
resources, coastal communities, leadership in ocean science and the 
life-support system of the earth. Our ocean environment is at risk and 
a change of course is needed to reduce that risk.
    The invitation was to provide the Commission's views on H.R. 4368, 
however; before I discuss the legislation it is important to put my 
remarks into context. The Commission's report focus on four overarching 
themes; the adoption of the principle of ecosystem-based management for 
the oceans; the governance structure we use for managing our activities 
and impacts on the ocean; the availability of credible and useful 
scientific information to decision makers at all levels; and the 
importance of promoting interdisciplinary education and improving 
public awareness of ocean and coastal issues. My testimony will focus 
predominantly on the themes of ecosystem-based management and changing 
governance structures since I believe that they are most pertinent to 
today's discussion. However, I want to be clear that the 
recommendations put forward by the Commission are based on the need for 
changes in and support for all four areas.
    The Commission recommends four components for a new governance 
framework to implement Ocean Policy: 1) national coordination and 
leadership, including 2) a strengthened and streamlined federal agency 
structure, 3) the development of regional solutions to national 
problems, and 4) the establishment of a coordinated offshore management 
regime. In my opinion, these four elements should be included in a 
National Ocean Policy Act that also sets national goals for managing 
our ocean and coastal activities and helps knit together the extensive 
and often confusing framework of statutory mandates and policy 
direction we now have. These national goals should be based on the 
guiding principles in the report of the Commission. In particular, I 
would like to highlight: stewardship, resources are held in the public 
trust for all Americans; ecosystem-based management, understanding and 
mitigating the cumulative impacts of human activities on the ecosystem 
as a whole; adaptive management, continuously re-evaluating management 
as new information becomes available and making adjustments as needed 
to meet the goals; understandable, clear rules, making the rules that 
govern various activities coherent for the public; accountability, to 
ensure that government and the public do what is needed to conserve 
marine ecosystems; and international responsibility, working 
cooperatively on ocean issues and meeting our responsibilities for 
global ocean policy. Using these and the other principles an 
overarching ocean policy can be articulated for the nation.
    The Commission found that federal level coordination and leadership 
is fragmented at best and inconsistent in too many cases. I had the 
privilege of working for NOAA for ten years, and served as Deputy 
Director of the National Marine Fisheries Service. The NOAA personnel 
are talented and dedicated but they don't have all the tools they need 
to do the job. Nor do they have an overarching framework for all of the 
conflicting mandates that the various statutes and demands of the day 
bring. The Commission calls for a National Ocean Council to coordinate 
across the agencies. The Council can help resolve conflicting mandates, 
improve the leverage that programs can obtain from one another, and 
present a more coherent leadership for the nation on ocean policy. The 
Council should be chaired by an Assistant to the President for Ocean 
Policy, not by any one agency head. The goal of the Council should be 
to work toward a coherent national policy with regard to management, 
science and education, with agencies working together, not in 
opposition to one another.
    While Councils may seem just another layer of bureaucracy, I think 
this Ocean Council must do much more than just oversee ongoing 
activities. Its mandate, following on from the Oceans Act mandate to 
the Commission, should be to implement a more coherent and efficient 
national governance system. The starting point for the Council should 
be planning and coordinating the implementation of the Commission's 
recommendations. Somewhat analogous to current discussions in the 
intelligence realm, the Council must have the authority to make real 
change in ocean governance through the budget process, resolving 
conflicting mandates and streamlining of programs across the federal 
government. However, note that it will still be the agencies that have 
responsibility for implementing specific actions to address mandates. 
The Council serves as a planning, coordinating and conflict resolution 
body for the implementing agencies, as well as a monitor for progress 
toward national goals.
    The call for the establishment of a National Ocean Council 
represents a significant change in how the federal agencies with ocean 
and coastal responsibilities operate, and has bearing on the 
recommendation to move NOAA to the Department of Interior. Regardless 
of where the lead ocean agency, NOAA, is located in the federal 
government structure there is an urgent need to consolidate and 
coordinate federal activities but there is currently no clearly 
established mechanism to do so. While the White House can pull together 
teams to address specific issues, such as Northwest salmon, the lack of 
a permanent high-level entity responsible for coordinating policies, 
programs and strategies across the spectrum of federal agencies with 
mandates and authority to function in marine systems, has perpetuated 
and even exacerbated the operations of the existing dysfunctional 
system. Additionally, the lack of a clear mandate, or Organic Act, for 
NOAA, has hampered the agency's ability to take a leadership role in 
helping set a national ocean policy.
    Recognizing these problems, the Commission recommends a phased 
approach, one that begins by establishing a National Ocean Policy 
Framework--which includes the creation of a National Ocean Council--
while simultaneously taking a close, hard look at the operation and 
structure of NOAA. It is crucial that this process includes the careful 
scrutiny of NOAA and the initiation of institutional changes necessary 
to ensure its resources are focused on its three core functions--which 
I will discussed shortly. Once completed, the next step is an 
evaluation of federal ocean and coastal activities government-wide, 
consolidating, eliminating or modifying programs as needed to develop a 
more responsive and coordinated national ocean and coastal science and 
management regime, which is a role for the Council and the Assistant to 
the President. After these two actions have been taken policymakers and 
stakeholders will be in a better position to consider future actions, 
which may include making NOAA an independent agency or the eventually 
unification of federal natural resources functions, a final phase 
envisioned by the Commission. The Commission believes that the first 
priorities are strengthening the agency, and establishing a strong 
coordinating mechanism within the Executive Office of the President if 
we are to develop a coherent national ocean policy.
    The Commission recommends a stronger NOAA as the lead ocean science 
and management policy agency for the nation. We recognize that many 
ocean related activities are going to remain in various agencies across 
the government and the National Ocean Council will need to coordinate 
between these agencies. NOAA was created in response to the Stratton 
Commission recommendations and has done an enormous amount for the 
nation. However, in my view NOAA has remained a collection of agencies 
rather than a lead ocean agency. In some ways, within NOAA there is a 
mirror of the problem that we found across the federal ``ocean'' 
agencies, that is, program fragmentation and conflicting authorities. 
The National Ocean Policy Act should serve as an organic act, taking 
the opportunity to strengthen NOAA by drawing programs together from 
across the government to reduce program fragmentation. It should also 
take the opportunity to focus NOAA on its core competencies and 
mandates; assessment, prediction and operations, ecosystem-based 
management of ocean and coastal areas and resources, and science, 
research and education. The current NOAA line structure reflects the 
agencies they were created from rather than the tasks they will need to 
undertake in the 21st century. Again, I have high regard for the people 
and mission of NOAA and in many ways feel a part of the agency. But I 
also know it is hard to change the way business is done without a 
change in structure because working patterns become set. But as new 
imperatives come forward, such as the implementation of a new 
integrated ocean observing system, the implementation of an ecosystem-
based approach to management, and increasing demands for research and 
scientific advice, NOAA must be restructured in order to grow into 
these programs in stride. To take another example, the Commission 
recommends as a guiding principle the integration of atmospheric, land 
and water related science and policy. Unfortunately, the ``wet'' side 
of NOAA still struggles to talk to the ``dry'' side of NOAA.
    Restructuring organizations can be a tricky process to say the 
least. There is still however an urgent need for the overall agency to 
act as a corporate whole. Several principles must be kept in mind. NOAA 
must remain a science-based agency as one of its core attributes. 
Prediction and monitoring functions for weather to climate to ocean 
observations, or the management functions for ocean and coastal areas 
and resources including sanctuaries, fisheries, aquaculture or habitat 
protection rely on the science and research enterprise of NOAA and its 
external partners. There has been much discussion of separating the 
research in NOAA from management and operations. As a former NMFS 
scientist and a former NMFS Regional Administrator and serving on the 
recently completed NOAA Research Review Team, I strongly believe that 
research and the provision of the science advice for management and 
operations must remain together. Separating out research from the 
advisory functions will leave the other parts of NOAA without the best 
scientific basis for decision-making. The science advisory function is 
a fundamental job for the best scientists in the agency as part of the 
science and research enterprise. Then, if the science and research 
enterprise is to be structurally separate from management and 
operations, the linkage between these lines needs to be strong enough 
to ensure science advice of the highest quality is available to respond 
to management and operational needs on a timely basis. To put it 
bluntly, researchers cannot refuse a call for science advice because 
they are more interested in something else. If this linkage cannot be 
reliably made then the science and research enterprises must remain 
within the operational lines.
    Overall, I believe there are a couple of clear restructuring 
options for NOAA. One possibility is to restructure the agency into 
three lines according to the core functions of ecosystem-based 
management; operations and prediction services; and scientific advice, 
research and education. This would require the linkage of science with 
the other two lines as discussed above. Another alternative is to 
structure along mission lines, coastal and marine ecosystem services, 
weather and climate services, research, operations and data services. 
In this case the research and science functions would remain 
distributed across all the lines with the research, operations and data 
services line serving an integrating function for the science program. 
Clearly there are other configurations, but, to me, breaking down some 
walls is necessary to open the architecture of the agency and create a 
new NOAA. The budget must then follow this structure and allow programs 
to be streamlined and consolidated. Such restructuring will then 
provide the basis for NOAA to grow and strengthen through consolidation 
of programs from across the government. The end result may be that the 
stronger, bigger NOAA logically becomes an independent agency, in order 
to fully meet the challenges of changing ocean policy. The Commission 
report doesn't recommend an independent NOAA, but as stated in the 
hearing upon release of the report, that remains an option. It is the 
function, structure and strength that must be addressed in order to 
make the decision on the appropriate location and stature for the 
agency.
    A major challenge for governance of ocean activities is changing to 
a perspective of ecosystem-based management. Ecosystem-based management 
means managing human activities within a large marine ecosystem in 
concert, rather than separately, and considering the cumulative impacts 
of those activities on the functioning of the ecosystem as a whole. The 
perspective is that the natural system sets the bounds for management, 
rather than political boundaries. This is because within an ecosystem, 
effects on one component can logically be expected to impact other 
components. Therefore, as we seek to manage across the full range of 
human activities and mitigate their impacts on the natural environment, 
we need to consider the interactions between different management 
actions. For example, coastal development interacts with pollution 
abatement programs and affects the productivity of the coastal ocean in 
salt marshes and nearshore areas such as along the New Hampshire coast. 
In other words, fisheries are affected by more than just fishing and 
pollution is affected by more than just controlling the amount of 
discharge. Because humans are an integral part of the ecosystem, social 
and economic impacts are part of the ecosystem-based management 
perspective.
    Ecosystem-based management does not mean that we don't have to 
manage each of the sectors of human activity. Fishing still needs to be 
managed to prevent overfishing or restore overfished resources for 
example. But the management of the fishery should be linked to the 
management of other sectors to provide a more coherent set of policies. 
The focus for ecosystem-based management should be to maintain the 
function of coastal and marine ecosystems including both their goods 
and services. We want to maintain the ability to harvest fish as goods 
from the ecosystem, but we want to ensure the ecosystem services 
provided by overall productivity and ocean health isn't undermined. In 
other words, we want to enjoy a healthy ocean for many other reasons 
than just fishing.
    In order to implement ecosystem based management, five changes are 
needed; creating regional councils and information management systems, 
developing the capability for the federal government to manage on a 
ecosystem basis, structuring science programs to support ecosystem-
based management, having an overall set of policy goals to guide the 
management process and developing a comprehensive offshore management 
regime to deal with gaps in current management authorities. I have 
already commented on the needed changes in NOAA to support ecosystem 
level science and management. For the federal government to have the 
capability to bring together the various sector activities and 
mandates, and provide the needed flexibility for ecosystem-based 
management a stronger NOAA and a National Ocean Council with 
substantial authority are needed. Regional councils must be developed 
in order to plan and coordinate across the various sectors of human 
activities that impact an ecosystem. Large marine ecosystems are 
generally on a regional scale such, as the Gulf of Maine, or the South 
Atlantic Bight. Multiple jurisdictions are involved and many types of 
human activities occur within each ecosystem. The Commission recommends 
setting up regional councils on a pilot program basis (voluntary with 
substantial flexibility to start) as planning and coordination bodies. 
The National Ocean Council needs to facilitate their work. Each region 
may choose different issues to begin work on ecosystem based management 
and this flexibility is essential. Further, these activities must be 
funded in order to foster real change. This means funding data and 
information management so policy makers have the science to develop 
management plans, funding ecosystem assessments to bring everyone onto 
a common footing for planning and impact analysis, and funding the 
management actions themselves.
    Regional ocean councils have a difficult task, fitting together the 
pieces of management across the sectors. This means, for example, 
making the fisheries management program work in concert with coastal 
zone management programs, pollution abatement programs and protected 
species programs. The goal is management plans that specifically 
include consideration of the cumulative impacts of all of these 
actions, creating a system where they leverage one another. The federal 
government must provide sufficient flexibility to allow this to happen 
but also ensure that the primary goal of maintaining functioning 
ecosystems is met.
    Finally, there are major gaps in the current set of authorities for 
management particularly in offshore (federal) waters. There is no real 
governance structure for newly emerging activities such as energy 
production, aquaculture, and bioprospecting to name a few. Also 
included are specific conservation measures such as marine protected 
areas. Delineating rights and privileges in offshore areas held in the 
public trust is complex. For offshore oil and gas there is a well 
developed management system in place, but for other activities that 
result in exclusive access to areas there is no such system. Without an 
overarching policy framework that sets goals for ecosystem-based 
management, ensures that analysis considers impacts across the sectors 
and specifically sets criteria for deciding protection or access 
privileges, development will be poorly managed.
    Ecosystem-based management is not some theoretical construct. It is 
common sense. It means looking at all the parts of the machine to 
understand how they can work together. The goal is a more effective 
management system that does a better job of protecting the oceans from 
unwanted changes and further degradation.
    The Commission applauds the Chairman's efforts at prompting a 
national dialogue on ocean and coastal issues and his recognition of 
the need for a careful and thorough evaluation of our exiting 
governance structure. Progress towards an ecosystem-based management 
approach is heavily dependent upon changes in this structure.
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to testify today. I have only touched on a few of the 
important issues in the Commission report. I would be pleased to 
discuss these and other matters with you further at your discretion.
                                 ______
                                 
    Mr. Gilchrest. Mr. Hayes.

        STATEMENT OF ROBERT G. HAYES, GENERAL COUNSEL, 
                COASTAL CONSERVATION ASSOCIATION

    Mr. Hayes. Good morning. I would like to submit my 
testimony for the record and just go through two or three 
points which I think are important in that testimony, and try 
to address some concerns that Mr. Saxton raised this morning 
with respect to NOAA and its inherent conflict.
    First of all, I would like to point out I may be the oldest 
guy in the room, I do not know, but I actually was around in 
1972 right after NOAA was formed. The reality was that when 
NOAA was formed, the Bureau of Commercial Fisheries was part of 
the Department of Interior. It was a half of the Fish and 
Wildlife Service at the time. Its only regulatory authority was 
some very preliminary authority under the Endangered Species 
Act because the treaty had been signed in 1969.
    Basically, NMFS was transferred--or the Bureau of 
Commercial Fisheries was transferred to the Department of 
Commerce, because its primary goal and its entire budget and 
personnel structure was designed to promote and to augment and 
support commercial fishing. It had the fish inspection program. 
It had geared development programs. It had fish marketing 
programs. There were 20 fish marketers in the Agency who went 
around just like ag people and told people how to prepare 
squid. There is a whole component section of this, which today 
we find remarkable, but, in fact, it existed, and it existed up 
until about 1988. That program is essentially gone.
    What has happened, and the reason that I think the 
frustration inside the Department of Commerce is, is that that 
mindset of promoting commercial fishing carried through 
probably until the mid-1990s. I do not happen to think that 
that mindset is there anymore. That is a cultural problem that 
I think has changed.
    Now, let me see if I can sort of--and that gets you back to 
the Department of Commerce. The problem with the Department of 
Commerce is that the Department of Commerce cannot understand 
resource agencies management. What has happened in the last 20 
years is that the National Marine Fisheries Service has 30 or 
40 statutory mandates that have been applied to it, and those 
statutory mandates are something that require essentially a 
regulatory outcome.
    I agree with Dr. Rosenberg. Science supports management. 
You should not separate those two things. Those things have to 
go together, and, therefore, I think you will see that in my 
testimony, one of the things I argue for is the Agency has to 
be managed as a regulatory agency. So at least from my 
perspective, the conflict has been wiped out. That conflict 
does not exist anymore. The Bureau of Commercial Fisheries is 
dead, although they could, frankly, and you could--the next 
time you do the Magnuson Act, you could take all those words 
about promoting seafood consumption out of the Magnuson Act. 
That is where that stuff comes from. That is the purpose of 
that.
    Mr. Gilchrest. I apologize, Mr. Hayes. I need to quickly 
ask you what controversy or conflict does not exist anymore?
    Mr. Hayes. This concept that you had a Bureau of Commercial 
Fisheries which was transferred to NOAA and became the National 
Marine Fisheries Service, and the mindset and programmatic 
emphasis that was in that Bureau of Commercial Fisheries, all 
those programs have been basically eliminated. There are very 
few of those programs that exist today. Some of those still 
exist, but, frankly, they are a shadow of what they were 15 
years ago, and there is a reason for that, of course. I could 
go into that, but the obvious reason was because you needed 
those programs in order to displace foreign fishing. That was 
one of the original objectives of the Magnuson Act. That has 
been achieved. So now the question is what is the new objective 
to the Magnuson? So I just sort of point that out.
    Let me talk about the two things I think are clearly 
important here: transferring recreational fisherman. If you ask 
a recreational fishermen on the street today, would 
transferring the National Marine Fishery Service to the 
Department of Interior delight them, they would say yes. I 
could not find anybody that said no. There is a reason for 
that. It is because they understand recreation, and they 
understand fisheries management.
    However, I think people who have looked at the National 
Marine Fisheries Service for a long time and looked at the 
management of those resources would argue that there is a 
balance that is necessary between the commercial activities, 
the recreational activities and the emphasis that is put on 
those. And there are very, very clear fundamental problems in 
the National Marine Fisheries Service. I will just emphasize 
two of them.
    One, as Mr. Rosenberg suggests, you have to improve the 
science. You have to have better science. That is the problem 
with white marlin. The answer you got from Tim Keeney was an 
answer about regulatory actions. That is not the question you 
asked. The question you asked is how could you possibly let 
this thing decline without putting any emphasis on its 
recovery? Well, the emphasis that is necessary is science. That 
is what is missing there. So the first issue is science.
    The second issue is that NOAA, NMFS if you will, has 
incredible statutory conflicts between all of the various 
statutory responsibilities it has. At some juncture someone has 
to take a look at those statutory responsibilities and 
harmonize them. I am not talking about abandoning them, I am 
not talking about significant modifications, but somehow those 
have to be harmonized. Those are the two major things I want to 
say.
    Mr. Gilchrest. Thank you very much, Mr. Hayes.
    [The prepared statement of Mr. Hayes follows:]

     Statement of Robert G. Hayes, Coastal Conservation Association

    It is a pleasure to be here today on behalf of the Coastal 
Conservation Association (CCA) and our 90,000 plus members. I am Bob 
Hayes and I am the General Counsel for CCA. I am here today to discuss 
H.R. 4368, the Weather and Ocean Resources Realignment Act, which makes 
the National Oceanic and Atmospheric Administration (NOAA) an 
independent agency within the Department of Interior. First, I'd like 
to provide you with a little background on CCA and my qualifications, 
and then discuss the substance of such a change.
    The Coastal Conservation Association is the leading marine 
recreational fishing membership organization in the United States. 
Formed by a small group of sportfishermen in Houston in 1978, CCA has 
grown to a fifteen-state operation with over 90,000 members. Each of 
our states operates somewhat independently focusing on issues in the 
state that are important to marine recreational fishermen. However, 
like so much in fisheries management, conservation issues require a 
regional and national perspective; therefore, CCA learned long ago that 
federal and international fisheries management were just as important 
to the local marine recreational fisherman as conservation of the most 
local fish population.
    CCA pursues conservation policies set by our state and national 
Boards of Directors. These boards are made up of active volunteers 
concerned about the health of the nation's fisheries. CCA has been 
active in a number of conservation issues in the last twenty years, 
including: all of the East and Gulf Coast net bans; gamefish status for 
redfish, speckled trout, tarpon, striped bass, river shad, marlins, 
spearfish, and sailfish; and the reduction of bycatch through the use 
of closed areas and technology. We have also pushed for improvement of 
the management system through the restructuring of state and federal 
management systems; the elimination of conflicts of interests by 
decision-makers; and the active involvement of our membership in the 
management process. CCA has not addressed H.R. 4368 and therefore has 
no position on it. We have a meeting in late October and would be happy 
to address the bill and provide any additional views at that time. The 
views here reflect the attitude of the organization but until they are 
approved, the thoughts in this testimony are essentially my own.
    I have had 30-plus years experience working with, for and against 
NOAA. I have been the lawyer to five fishery management councils, a 
deputy general counsel for fisheries, an office director at NMFS 
responsible for displacing foreign fishing, a member of various 
committees and boards advising NMFS and NOAA, and, at the moment, the 
recreational Commissioner on the International Commission for the 
Conservation of Atlantic Tunas (ICCAT). Almost all of my fisheries 
practice for 20 years has focused on improving fishing for recreational 
fishermen. For most of that time recreational fishermen have said to me 
that NOAA or at least NMFS should have stayed in the Department of 
Interior. Such a change would be extraordinarily popular in the marine 
recreational fishing community. The question today is would the change 
amount to something or would it simply be the rearrangement of the deck 
chairs on the Titanic. I am of two minds on this issue.
    From a recreational angler standpoint, moving NOAA to the 
Department of Interior, as a unit, would give the recreation community 
a boost. When I go to the Department of Interior, I am often greeted as 
a colleague, sportsman, stakeholder and conservationist. When I go to 
NOAA, I am often referred to as a ``rec guy,'' user of the resource, or 
some other less-than-friendly term. In our view, the intrinsic and 
economic value of recreational fishing is not well understood by NOAA 
or the Department of Commerce.
    Two examples will suffice to make this point. The Administration 
sent a Marine Mammal Protection Act amendment to this Committee that 
described marine recreational fishermen as ``non-commercial'' 
fishermen. (The MMPA needed to be fixed because of the bycatch of 
marine mammals by commercial gear, some of which was authorized to be 
used in North Carolina by recreational fishermen.) It did not seem to 
matter to DOC that the term, no matter how accurate, was offensive to 
recreational fishermen. Fortunately, the Chairman, members, and staff 
of this Committee have a far better understanding of the sensitivity of 
this problem and have properly addressed it in the House bill.
    The second example concerns striped bass. Striped bass fishing is 
the most popular recreational fishery in the country. It can only occur 
in state waters because NMFS has closed the EEZ to all fishing for 
striped bass. NMFS, in an effort to allow the commercial landing of a 
small bycatch in the offshore commercial fishery, is investigating ways 
to open the EEZ to striped bass fishing. Recreational fishermen are 
opposed to this because it will shift the fishery offshore, allow 
access to larger fish which will disrupt the recovery of the stock, and 
undermine state gamefish laws. No one inside of DOC/NOAA/NMFS wants to 
address the recreational concern. Rather, to solve a small bycatch 
problem, DOC would rather put the entire recreational fishery at risk.
    There are millions of saltwater recreational fishermen. So why do 
recreational fishermen think there is no one home at the Department of 
Commerce or NOAA?
    Part of the problem is that recreational fishermen are hard to 
communicate with by traditional means. There are no conventions or huge 
annual meetings. No one group speaks for the whole community. Although 
there are some 12 million saltwater anglers, angling advocacy groups 
cannot count 3% of them as members. As a result, consensus of opinion 
on specific issues is hard to get. It is also hard to get the angling 
public focused on federal issues when most of the real problems they 
have are in the states.
    On the federal side, this administration has made it clear that 
fish problems (commercial or recreational) should not go to the 
Secretary. NOAA has made it clear that bureaucratic success is keeping 
issues bottled up at the NMFS level. The measures of success for NMFS, 
as a result, are not stocks recovered or economic value enhanced, but 
rather reduction of controversy from the Congress and fewer lawsuits 
filed. This leaves NMFS focused on today's problem, which is almost 
always a commercial problem. Such problems often get fixed at the 
expense of the fish or the angling public. So the common view that the 
DOC does not care about recreational fishermen gets strengthened daily 
by the decisions NMFS makes.
    NMFS' treatment of commercial longline bycatch is a good example. 
About four years ago, it became obvious that the North Atlantic 
longline fleet was interacting with lots of endangered turtles. NMFS 
proceeded to develop a research program to develop technology to avoid 
catching turtles on longlines. Over the next three years, NMFS spent 
about $15 million to successfully develop alternatives so that some 15 
longline vessels could continue fishing the North Atlantic. The 
research is now being expanded to other areas and holds great promise 
as a viable way to avoid turtle bycatch.
    In the same four years, NMFS has been faced with effects of the 
bycatch of marlin. White marlin in particular is subject to high 
bycatch mortality. In the last four years NMFS has not increased its 
scientific effort to address white marlin mortality. Many think 
increases funding were blocked by NOAA and the Department, so the 
recreational community went to Congress and got its own money for 
research. The recent $2.5 million appropriated was entirely a result of 
recreational fishermen's efforts to earmark monies for cooperative 
billfish research. The DOC message to the recreational community is 
clear. If you are a commercial fishing entity, we're here to help you. 
If you're one of those rec guys, go help yourself.
    To my knowledge, the leadership of NOAA has had one, hour-long 
meeting with the leadership of the recreational fishing community in 
the last three years. In contrast, the American Sportfishing 
Association (ASA) and CCA have met with the President on two occasions: 
once in D.C. and once in Texas, for a total of four hours. The D.C. 
meeting was attended by Secretaries Gale Norton and Ann Veneman. No one 
from NMFS, NOAA, or the Department of Commerce attended. The leadership 
of ASA and members of CCA routinely meet with Gale Norton and her staff 
about issues, which get addressed and fixed. There is no similar level 
of attention at the Department of Commerce.
    NOAA and DOC will tell you this is because they have delegated 
responsibility for recreational fishermen to NMFS. Bill Hogarth and his 
staff have worked hard on reaching out to the recreational community. 
Today, NMFS has a recreational liaison office, which is developing a 
recreational fishing strategic plan. Bill Hogarth has met with 
recreational fishermen all over the country. When he asks what 
recreational fishermen want he gets lots of answers, but they all can 
be covered by ``reasonable access to a sustainable fishery.'' On the 
whole, Bill Hogarth gets high marks from everyone for his efforts. But 
NMFS' efforts at understanding recreational fishing are not the issue 
here. Presumably, all of the NMFS outreach would continue and be 
supplemented in the Department of Interior. The question is would NOAA/
NMFS operate better in the Department of Interior?
    Generally, I have concluded that changing the hat on the head and 
body of this beast, will not change the beast. As the Oceans Commission 
correctly concluded, a stronger, more effective service-oriented ocean 
agency is needed. How to get that agency--and to make NOAA and NMFS the 
agencies we all think they ought to be--is the real question. Shuffling 
them to a different Department or making them an independent agency 
without addressing the fundamental problems will not result in positive 
change.
    The fundamental problems in oceans management are clear and well 
documented. First and foremost is the layering and multiplicity of 
jurisdictions addressing management of ocean resources. Some 15 federal 
agencies and departments now have a hand in federal oceans policy. 
Combine those with 29 coastal states and territories and three 
interstate commissions and you have a political nightmare. Each of 
these jurisdictions has different priorities, budget structures, and 
statutory schemes. Most of them overlap somewhere in the ocean inside 
of the 200 mile limit. All of them are important to some constituency 
and all of them have some political support.
    Secondly, we have the problem of population. In the next ten years, 
some 70% of the nation's population will live within an easy day's 
drive of the oceans. Many of those people have reached a degree of 
affluence that allows them to recreate in a marine environment. One 
facet of that growth will be in marine recreational fishing, which will 
require continued access to healthy resources. The tackle manufacturers 
will tell you that their largest growth sector is marine recreational 
fishing. The recreational boating industry will tell you that some 70% 
of recreational boaters also fish from their boats. Most people I talk 
to in the industry think the federal number of 12 million marine 
recreational anglers is a low number. Recreational fishing is growing 
and competing for space and resources. It will need to be managed to 
ensure maximum economic value while controlling its impact on the 
resource.
    People who live near the coast affect it. The Chesapeake Bay is a 
classic example of destroying the health of an ecosystem through 
population growth. You don't have to live within 100 miles of it in 
order to impact water quality in the Bay. The same is true of Delaware 
Bay, Long Island Sound, Narragansett Bay, Puget Sound and any number of 
estuaries that people in this room can name. Coastal population growth 
doesn't need to be managed by NOAA, but ocean policy makers need to 
manage for it.
    Increased populations also mean more food consumption. Our waters 
are not capable of accommodating increases in fish consumption if the 
increase is to be met by sales of wild fish. We already have too many 
overfished fisheries, too many commercial vessels, and too little money 
to address the problem. The common answer to the consumption issue is 
mariculture but it comes with its own set of environmental, health, and 
economic problems.
    Lastly, you have the science. Ocean and atmospheric science is done 
by a hodge-podge of private institutions, academic programs, and 
government science centers. Much of it is superb; however, priorities 
are hard to set and outcomes that support better, more predictable 
outcomes are hard to achieve. We need to specifically identify the 
sampling universe of recreational fishermen. We need better data on 
what is landed and the total mortality of recreational and commercial 
fisheries. Unfortunately, we lack basic science on any number of 
species. The nation needs to focus its research programs to compliment 
the management system.
    The list of potential answers to these management problems includes 
ecosystem management, preservation of biodiversity, more regional 
commissions, council appointments, circumventing states, White House-
level ocean czars, and any host of governance changes. These look to me 
like we are taking a complicated system and making it more unworkable. 
Since I don't know a great deal about ocean mining, offshore oil 
exploration, coastal zone management, or marine and estuarine 
pollution, let me offer some ideas on something I do know something 
about--fisheries management.
    The single most important thing about fisheries management is that 
done properly, it works. It has worked in stripped bass, redfish, king 
mackerel, and most of the North Pacific fisheries. It is working in 
summer flounder, many of the reef fish fisheries in the Gulf and a 
number of mid-Atlantic fisheries that were overfished just recently. It 
works when the management system has decent science, takes a 
responsible precautionary approach, and weathers the political pressure 
from interest groups (recreational, commercial, and environmental), 
which for whatever reason don't like the answer. It is a system that 
requires courage and conviction to achieve success. It does, however, 
have a few flaws.
    The first flaw is the quality of the science. Fisheries science is 
a good guess at best. Scientific inaccuracy is the reason that CCA 
pushed for application of the precautionary approach in the 1980s. Most 
of the science is not directed at the entire ocean system. It has 
traditionally been done on a species or group of species. Today, 
scientists tell us it ought to be done on a holistic basis. Ecosystem 
management is all the rage. The Oceans Commission jumped at the 
opportunity to embrace ecosystem management. A cynic might think they 
like it because, as of yet, no one can explain what it is or how it 
would work within the existing statutory structure. It sounds good, but 
it is unattainable in today's budgetary and statutory world?
    What is attainable? Better fisheries data, better quality, 
reputable fisheries scientists, and protection of their unbiased 
conclusions from the chorus of criticism from those who don't like the 
conclusions. Congress can accomplish this by establishing the 
improvement of science as clear priority, by appropriating funds to 
accomplish it, and by insisting that agency managers take the political 
heat and not pass the buck onto agency scientists.
    The second problem is the statutory structure. If, as a nation, we 
intend to move toward management of ecosystems, then there needs to be 
a rationalization of the statutory goals. The present fisheries 
management system lacks a single clear goal. Some would suggest that 
the goal should be preservation of ocean biodiversity. Some would 
suggest the goal is to prevent overfishing and recover fish stocks. 
Some would suggest it is the preservation of marine mammals. 
Recreational fishermen would suggest the goal ought to be maximum 
access to a sustainable resource. Some would suggest it is the 
maintenance of economically viable stocks at the expense of all other 
things in the oceans. (This probably is the present de facto goal). 
There are certainly others.
    Congress needs to face this problem directly and develop a clear 
unified objective for NOAA's management of the fishery resources. The 
Administration should take some leadership here as well, by 
articulating a single goal that blends all of their statutory 
responsibilities. Once everyone knows the objective, it should be a lot 
easier to develop a coherent policy.
    CCA has suggested for some time that the next step is to use the 
fishery management planning process as a real plan. Most FMPs are not a 
plan; they are a description of a fishery with the measures that manage 
it. There is no real attempt to plan in a strategic sense where the 
fishery is going and what it ought to look like five, 10, or 20 years 
down the road. How does NOAA expect to react to the increase in ocean 
recreation in the next ten years if it doesn't have a planning 
mechanism to do so? Congress needs to look at this next year.
    Finally, in the bigger picture, NOAA needs to be run as a 
regulatory and service agency supported by sound science, not as a 
science agency which also has regulatory and service functions. The 
tool in fisheries management is regulating the users of the resource. 
There clearly are other impacts on the health of fisheries, but the 
primary control is over the harvesters. The science programs in the 
agency need to support the regulatory function and the entire 
regulatory system needs to be streamlined all the way to the Secretary.
    Before I close, I would like to thank Congressman Saxton and 
Congressman Young for introducing this legislation. This legislation 
raises the issue of reorganization, which ought to be part of the 
debate on oceans management. For three years now the recreational 
community has watched and participated in discussions about the 
governance of ocean issues. The size of the problem and its complexity 
often seem to dwarf the concerns of the average recreational fisherman. 
But let there be no doubt: our love of the ocean and our need for it to 
be healthy are as great as any interest represented in this debate. We 
are willing to think outside the box, so long as the result is a 
healthy marine ecosystem to which we have reasonable access. Thank you 
for allowing us to testify here today.
                                 ______
                                 
    Mr. Gilchrest. Mr. Mann and Mr. Moore are on the opposite 
ends of the dais now from whence they came.
    Mr. Mann. In some ways we always have been.
    Mr. Gilchrest. This is a subcommittee for marine fisheries.
    Mr. Moore. I was here first before he got here.
    Mr. Gilchrest. So you say you may be older than Mr. Hayes.
    Mr. Moore. Considerably.
    Mr. Gilchrest. Welcome, gentlemen. We should have held this 
hearing down the hall. It would have been a little more 
nostalgic.
    Mr. Mann, welcome. You may begin.

 STATEMENT OF CHRISTOPHER G. MANN, POLICY DIRECTOR, CENTER FOR 
                           SEACHANGE

    Mr. Mann. Thank you, Mr. Chairman. My name is Chris Mann. I 
am the Policy Director for the Center for SeaChange, a 
nonprofit organization established to reform U.S. Ocean policy 
to protect, maintain and restore the health of marine 
ecosystems.
    As you mentioned, I am a former member of the staff of this 
committee, and so I am particularly pleased to be here today to 
give the views of the Center for SeaChange on H.R. 4368. I also 
hope that as these reforms proceed in Congress, you will 
eventually have a chance to hold a hearing like this before a 
full committee on oceans and coasts. It has a nice ring to some 
of us.
    The U.S. Commission on Ocean Policy found that in 2000 the 
oceans contributed $117 billion annually to the U.S. Economy 
and supported more than 2 million jobs. To put this in 
perspective, this is 2.5 times the total economic output and 
1.5 times the employment of the farm sector. Yet our laws and 
policies governing the oceans have allowed this incredible 
resource to be severely degraded.
    The U.S. Commission on Ocean Policy and the Pew Oceans 
Commission both found that our marine ecosystems and the 
resources they produce are in an alarming state of decline. To 
cite a few examples, nearly two-thirds of our estuaries are 
degraded by nutrient pollution. Last year there were more than 
18,000 beach closings as a result of water pollution. Nearly 
one-third of federally managed fish stocks whose status is 
known are in jeopardy, and the status of most stocks is not 
known. Habitat vital for coastal species and for maintaining 
clean water is being lost at an alarming rate due to a 
combination of unwise and unsustainable development.
    So this is the context in which this bill and other reform 
proposals before Congress should be evaluated.
    Although I agree that NOAA in its present circumstances is 
unable to be a good steward of our marine resources, I do not 
believe that placing NOAA in the Department of Interior at this 
time is the appropriate solution.
    Mr. Mann. NOAA is essentially a science and natural 
resource management agency. It is part of the Commerce 
Department, which is generally responsible for promoting the 
interests of U.S. business and industry at home and abroad.
    The United States' long-term economic interest is 
completely compatible, in fact is dependent upon healthy 
oceans. Unfortunately, the perception is that in the Department 
of Commerce short-term interests may take precedence over the 
long-term health of the resource. As long as this cloud hangs 
over NOAA's head, its credibility as a science-based resource 
management agency will be compromised. As a result it makes a 
lot of sense to move NOAA out of the Department of Commerce.
    Interior Department certainly has a culture of natural 
resource management. There is validity to the idea of creating 
a Department of Natural Resources, consolidating all or most 
natural resource management programs in the Federal Government, 
but I do not see that proposal as politically viable any time 
soon. Without the substantial changes in policy and structure 
that would need to accompany the establishment of a true 
Department of Natural Resources, there is a real danger that 
ocean issues would be lost at Interior.
    Second, while ocean issues can certainly be contentious, 
they are typically less contentious overall than the Department 
of the Interior's resource management portfolio. I would hate 
to see this committee take steps to move NOAA out of the frying 
pan and into the fire.
    Last, moving NOAA to Interior, as other witnesses have 
addressed, does not address the Agency's fundamental problems 
which are more the result of inappropriate and ambiguous 
policies and mandates than they are about its placement within 
an organization chart.
    What actions should Congress take to ensure NOAA is 
empowered to manage our ocean resources for the greatest public 
benefit? There is a great deal of common ground between the 
recommendations of the U.S. Commission on Ocean Policy and the 
Pew Oceans Commission. That common ground provides a strong 
basis for ocean policy reform.
    Where do the two commissions agree? First, we need a 
comprehensive national ocean policy. Both commissions found 
that a major cause of ocean degradation was the fragmented 
stovepipe nature of Federal ocean law and policy. They agreed 
the Nation's marine resources should be manned on an ecosystem 
basis. Congress has established strong national policies 
protecting our water, air, and public lands. It is now time to 
establish a national policy for clean, healthy and productive 
oceans.
    Second, NOAA needs to be strengthened so that it can be the 
Nation's lead oceans agency. Congress should enact an organic 
act providing the agency with a clear stewardship mission, the 
internal structure to facilitate ecosystem-based management, 
and the authority it needs to get the job done.
    Third, there needs to be greater attention to ocean issues 
at the White House and an effective mechanism for interagency 
coordination and implementation of ocean policy. Both 
commissions recommended the President appoint a national oceans 
advisor and the establishment of a Cabinet-level National 
Oceans Council.
    Fourth, we need a forum and a process to better coordinate 
across the arbitrary lines that separate State and Federal 
ocean jurisdiction. Both commissions recommend establishment of 
regional ocean councils to bring the appropriate players 
together, identify common concerns and goals, and take action 
to protect our oceans.
    Last but not least, we need the resources to get the job 
done. A substantially greater investment in ocean science and 
management is needed.
    Mr. Chairman, this is a very ambitious agenda that I have 
outlined, but the response needs to be proportionate to the 
serious problems we face in the oceans today. The work of the 
two commissions provides a thoughtful blueprint for action. Now 
Congress needs to act boldly to follow through.
    I commend Congressman Saxton for getting this discussion 
started. The Center for SeaChange and the members of the Pew 
Oceans Commission share your concern that organization 
stewardship, not just at NOAA but governmentwide, needs to be 
improved, and we look forward to working with you to accomplish 
that goal. Thank you.
    Mr. Gilchrest. Thank you very much, Mr. Mann.
    [The prepared statement of Mr. Mann follows:]

          Statement of Christopher G. Mann, Policy Director, 
                          Center for SeaChange

    Good morning Mr. Chairman and members of the Subcommittee. My name 
is Chris Mann. I am Policy Director for the Center for SeaChange, a 
non-profit organization established to reform U.S. ocean policy to 
protect, maintain and restore the health of marine ecosystems.
    As a former member of the staff of this Committee, I am 
particularly pleased to be here today to present the views of the 
Center for SeaChange on H.R. 4368. Having worked with you, Mr. 
Chairman, and Mr. Saxton, over the course of many years, I appreciate 
the longstanding commitment both of you have shown to conservation and 
sustainable use of our marine resources. I commend you for holding the 
hearing today, which I hope is the first of many discussions within 
this Committee regarding much-needed reforms to the nation's ocean 
policy.
    The U.S. Commission on Ocean Policy found that in 2000 the oceans 
contributed $117 billion annually to the U.S. economy and supported 
more than two million jobs. To put these numbers in perspective, this 
is 2 1/2 times the total economic output and 1 1/2 times the employment 
of the farm sector.
    Yet our laws and policies governing the oceans have allowed this 
incredible resource to be severely degraded. The U.S. Commission on 
Ocean Policy and the Pew Oceans Commission found our marine ecosystems, 
and the resources they produce, in an alarming state of decline. To 
cite a few examples:
    <bullet>  Nearly 2/3 of our estuaries are moderately or severely 
degraded by nutrient pollution.
    <bullet>  There were more than 18,000 beach closings resulting from 
water pollution in 2003, a sharp increase in the number of closings 
over previous years.
    <bullet>  Of the federally managed fish stocks whose status is 
known, nearly one-third are overfished, are experiencing overfishing, 
or both.
    <bullet>  The status of more than two-thirds of our fish stocks is 
unknown.
    <bullet>  Habitat vital for coastal species and for maintaining 
clean water is being lost at an alarming rate due to unwise and 
unsustainable development. The United States is losing more than 20,000 
acres of coastal wetlands each year. Most of the seagrasses, which once 
formed vast underwater nurseries in estuaries from Galveston Bay to 
Chesapeake Bay, have vanished.
    Both commissions concluded that dramatic changes in U.S. ocean 
policy are needed to reverse these declines and preserve the ecological 
and economic benefits provided by our oceans. Mr. Chairman, this is the 
context in which H.R. 4368 and several other reform bills before 
Congress should be evaluated.
    If I'm reading correctly between the lines, H.R. 4368 was 
introduced because of concern that NOAA in its present circumstances is 
unable to be a good steward of our marine resources. That is a concern 
I share, but I do not believe that placing NOAA in the Department of 
the Interior is the appropriate solution.
    NOAA is essentially a science and natural resource management 
agency, yet it is part of the Commerce Department, which is generally 
responsible for promoting the interests of U.S. business and industry 
at home and abroad. At about 60 percent of the Commerce Department's 
budget, NOAA is by far the largest component of that Department.
    The United States long-term economic interest is completely 
compatible--in fact, is dependent upon--healthy oceans. Unfortunately, 
the perception is that in the Department of Commerce short-term 
interests may take precedence over the long-term health of the 
resource. Justified or not, as long as this cloud hangs over NOAA's 
head, its credibility as a science-based resource management agency 
will be compromised.
    As a result, it makes sense to move NOAA out of Commerce, as was 
recommended by the Pew Oceans Commission. However, placing NOAA within 
the Department of Interior is not the right step to take at this time.
    The Interior Department certainly has a culture of natural resource 
management. In the long term, there is validity to the idea of a 
Department of Natural Resources consolidating all or most such programs 
of the federal government. This has been tried before without success 
and I do not see that proposal as politically viable any time soon. 
Without the substantial changes in policy and structure that would 
accompany the establishment of a Department of Natural resources, there 
is a danger that ocean issues would get lost at Interior.
    Secondly, while ocean issues can be contentious, they are typically 
less contentious overall than the Interior Department's resource 
management portfolio. I would hate to see you move NOAA out of the 
frying pan and into the fire. Such a step might diminish the chances 
for bipartisan--and bicameral--agreement on ocean policy reform.
    Lastly, moving NOAA to Interior does not address the agency's 
fundamental problems, which are more the result of inappropriate and 
ambiguous policies than they are about placement within the 
organization chart. NOAA is currently charged to implement a confusing 
and often conflicting array of mandates. For example, the agency is 
responsible for protecting marine mammals and endangered species, and 
with promoting and developing fisheries. It is not news to this 
committee that these dual missions often run afoul of each other.
    So what should be done to set U.S. ocean policy on the right track? 
Specifically, what action could Congress take to ensure that NOAA is 
empowered to manage our ocean resources for the greatest public 
benefit? If you put aside all the hype and politics, and read the 
reports of the U.S. Commission on Ocean Policy and the Pew Oceans 
Commission, you will find that there is a great deal of common ground. 
It is this common ground that the Center for SeaChange believes 
provides a strong basis for ocean policy reform. Where do the two 
commissions agree?
    First, we need a comprehensive national ocean policy. Both 
commissions found that a major cause of ocean degradation was the 
fragmented, stovepipe nature of federal ocean law and policy. They 
agreed the nation's marine resources should be managed on an ecosystem 
basis.
    The Pew Oceans Commission recommended that Congress enact a 
national oceans policy committing the nation to protect, maintain, and 
restore the health of our marine ecosystems. Congress has established 
strong national policies protecting our water, air and public lands. It 
is now time to establish a national policy for clean, healthy, and 
productive oceans.
    Second, NOAA needs to be strengthened so that it can be the 
nation's oceans agency. NOAA has taken some positive steps in this 
regard, but the agency needs a strong mandate from Congress to finish 
the job. Congress should enact an organic act for NOAA providing the 
agency with a clear stewardship mission, the internal structure to 
facilitate regional, ecosystem-based management, and the authority it 
needs to get the job done.
    Third, there must be greater attention to ocean issues at the White 
House and an effective mechanism for interagency coordination and 
implementation of ocean policy. More than half of the cabinet 
departments and a number of independent agencies carry out activities 
and programs affecting the oceans. Both commissions recommended the 
President appoint a national oceans advisor and the establishment of a 
cabinet-level National Oceans Council.
    Fourth, we need a forum and a process to better coordinate state 
and federal ocean policy. The arbitrary lines that separate federal and 
state jurisdiction over oceans hamper our ability to protect the health 
of marine ecosystems. Overlaid on this are local and tribal resource 
use decisions that further complicate comprehensive management. If we 
can find a way to bridge these gaps, the public interest in healthy 
oceans will be better served. To address this need, both commissions 
recommended the establishment of regional ocean ecosystem councils to 
bring the appropriate players together, identify common concerns and 
goals, and outline plans of action to protect our oceans.
    And last, but not least, we need the resources to get the job done. 
The U.S. Commission has done an extensive analysis of the cost of 
implementing its recommendations, and while those costs are significant 
they are modest compared to the value of healthy oceans to our nation. 
Both commissions recommended doubling the budget for ocean science. 
NOAA would have to be given substantially more resources to carry out a 
new national ocean policy. The Pew Commission suggested that this would 
require a doubling of the agency's budget as well.
    Where would the money come from? Both commissions recommended that 
Congress establish a dedicated fund to pay for ocean and coastal 
conservation and management, and consider using revenue derived from 
offshore oil and gas development to capitalize it. From a public policy 
standpoint, it makes sense to reinvest revenue from nonrenewable marine 
resource extraction into renewable marine resource stewardship. I 
believe this can be done in a way that does not encourage oil and gas 
development where it is not desirable. Such safeguards are built into 
the GO Act and the OCEANS 21 Act, for example.
    Mr. Chairman, I know I have outlined a very ambitious agenda. But 
the response needs to be proportionate to the very serious problems we 
face in the oceans today. People of intellect and accomplishment came 
together in good faith on the two ocean commissions, looked at the same 
set of facts, and reached very similar conclusions about the state of 
our oceans and what must be done to save them. Now Congress needs to 
act boldly to follow through.
    Again, I commend Congressman Saxton for getting the discussion 
started with this bill. The Center for SeaChange and the Members of the 
Pew Oceans Commission certainly share your concern that ocean 
stewardship--not just at NOAA but government-wide--needs to be 
improved. We look forward to working with you to accomplish this goal.
    Thank you for the opportunity to present the views of the Center 
for SeaChange, and I'd be happy to answer any questions that you may 
have.
                                 ______
                                 
    Mr. Gilchrest. I think what we will do, we have several 
votes, and rather than rush Mr. Moore and have to leave in less 
than 5 minutes from now, we will go and vote. And I would 
strongly urge the witnesses and the other people in the room to 
have lunch because we have one 15-minute vote--there are four 
votes. So it is going to be about 40, 45 minutes.
    Mr. Moore?
    Mr. Moore. Mr. Chairman, with all due respect, I have a 
plane to catch.
    Mr. Gilchrest. Well, I will stay here and run to the vote 
then, and I will listen to your testimony.
    Mr. Moore. Whatever you feel best.
    Mr. Gilchrest. We will listen to your testimony if you do 
not mind talking fast. We will listen intently; then we will 
break and have questions when we come back.

          STATEMENT OF ROD MOORE, EXECUTIVE DIRECTOR, 
           WEST COAST SEAFOOD PROCESSORS ASSOCIATION

    Mr. Moore. I can talk real fast, Mr. Chairman.
    Thank you, Mr. Chairman. And I do want to apologize both 
for the timing and if my voice goes, because I have been 
traveling for about 8 weeks and getting a cold here.
    Mr. Saxton's bill, in essence, really raises three 
questions: Are there problems with NOAA? Can those problems be 
solved by moving NOAA? And if you are going to move NOAA, is 
Interior the best place to move it?
    I think we all agree that there are problems in NOAA. I 
have laid out a few in my testimony. You have heard from other 
witnesses here. The problems run the gamut from funding, from 
personnel, from conflicts within the Agency.
    And I am interested in this idea of consumption versus 
conservation. You have the same thing in the Department of the 
Interior with the U.S. Fish and Wildlife Service. I think a 
bigger conflict might be the conflict between the National 
Ocean Sanctuary Program trying to manage fish at the same time 
that the NMFS does.
    But simply taking NOAA and moving it to another agency is 
not going to solve those problems. And you do not fix a hole in 
your boat by moving the boat to another dock. You fix the hole 
in the boat. And that is going to require a great deal of 
effort by the Congress, oversight, changing in statutory 
mandates and so forth.
    I think that the Committee should be looking at that before 
we decide where we are going to move NOAA, if we are going to 
move NOAA at all. And further, that this--the whole question of 
where to put oceans--any kind of oceans agency needs to be 
treated holistically. We need to wait for the President's 
response on the Commission on Ocean Policy. We need to look at 
the various proposals that have come up, including yours in 
establishing an organic act, Mr. Saxton's on moving the bill, 
and take the time to do it right, and the end of the session is 
not the time to do it.
    I will stop there, you have my written testimony.
    Mr. Gilchrest. Thank you very much.
    [The prepared statement of Mr. Moore follows:]

              Statement of Rod Moore, Executive Director, 
               West Coast Seafood Processors Association

    Mr. Chairman, members of the Subcommittee, my name is Rod Moore and 
I serve as the Executive Director of the West Coast Seafood Processors 
Association. We are a non-profit business trade association 
headquartered in Portland, OR, that represents shore-based seafood 
processors and associated businesses in Oregon, Washington, and 
California. Some of our members also have facilities and operations in 
Alaska, Texas, Utah, and British Columbia.
    I am also the Chairman of the Pacific Fishery Management Council's 
Groundfish Advisory Subpanel; President of Pacific Groundfish 
Conservation Trust, Inc. (PGCT), which is a non-profit science and 
education corporation; and from 1996 until this year have been a member 
of the U.S. Department of Commerce's Marine Fisheries Advisory 
Committee (MAFAC). Let me make clear that I am not representing the 
Council, PGCT, or MAFAC today; I include this information only to 
demonstrate that I have extensive interactions with the National 
Oceanic and Atmospheric Administration (NOAA) and especially the 
National Marine Fisheries Service (NMFS).
    I have also dealt with 9 Directors of NMFS, plus a couple of acting 
directors; at least an equal number of Administrators of NOAA; and 
probably the same number of Directors of the U.S. Fish and Wildlife 
Service. I have lost count of how many Secretaries of the Interior and 
of Commerce have served during the years I have been involved with 
fisheries policy and management.
    Your hearing on this bill comes at an appropriate time. Last week, 
the U.S. Commission on Ocean Policy transmitted its final report which, 
among other things, calls for changes in ocean governance including 
creating an organic act for NOAA and eventually establishing a cabinet-
level Department of Natural Resources. Also last week, the Senate 
Commerce Committee marked up S. 2647, which would establish an organic 
act for NOAA but retain it within the Department of Commerce. Your 
committee has pending before it H.R. 984, which would again provide an 
organic act for NOAA while retaining the agency within the Department 
of Commerce. So I think we see a trend starting here; there appears to 
be agreement that--at a minimum--we need to codify NOAA.
    But once we make NOAA a ``real'' federal agency, what do we do with 
it? In the past 27 years that I have been dealing with this agency, I 
have heard a lot of suggestions, some of which are best not shared in 
polite company. Here's a brief tour through the history of ``Where's 
NOAA?'' as best as I can remember it:
    <bullet>  1969, the Stratton Commission recommends establishing an 
ocean agency, sort of the ``wet'' version of a Department of Natural 
Resources. The result was Reorganization Plan #4 of 1970, which 
transferred various functions to NOAA in the Department of Commerce. 
Several later Secretaries of the Interior made bids to at least return 
NMFS to the U.S. Fish and Wildlife Service, but were unsuccessful.
    <bullet>  1977, President Carter advocated a new Department of 
Natural Resources, similar to the suggestion made yet again in the 
Commission on Ocean Policy report, which would include NOAA's functions 
along with those of the Department of the Interior and the U.S. Forest 
Service. Upon its arrival in Congress, the proposal sank faster than a 
half-ounce lure in a salmon stream.
    <bullet>  1980's, and periodically thereafter, members of the 
commercial fishing industry advocated moving NOAA to the Department of 
Agriculture on the grounds that fish are harvested for food and thus 
should be combined into the nation's food agency. In the early 1990's, 
staff from the House Committee on Merchant Marine and Fisheries and the 
House Committee on Agriculture met informally to explore combining 
elements of NOAA into the Department of Agriculture; no formal action 
ever occurred.
There was also a suggestion that NOAA be moved into the Department of 
Defense to take advantage of funding possibilities and I once suggested 
that--given the number of lawsuits that were then pending against 
NOAA--we move the agency to the Department of Justice.
    Perhaps the best thing to do at this point is to look at the 
alternatives and their costs and benefits. In each of these cases, I am 
taking as a given that an organic act for NOAA will be enacted so that 
we are dealing with a complete federal agency.
    Status quo, NOAA stays in Commerce -- Obviously, this is the 
simplest and most straight-forward. We have no costs to the taxpayer 
that are inherent in moving any federal agency around. We have an 
existing chain of command, budget structure, and lines of jurisdiction 
within the Congress. No statutes would have to be amended to clarify 
that ``Secretary'' means something other than the Secretary of 
Commerce.
    The disadvantage is that whatever problems people perceive to exist 
with NOAA remaining in the Department of Commerce will continue. I have 
never gotten a clear understanding of what those problems are, other 
than a feeling that the Secretary of Commerce ignores fisheries issues. 
I suggest that this can be a non-problem, depending on the Secretary of 
Commerce. I know several instances, in both Republican and Democratic 
administrations, where the Secretary was very supportive of NOAA. I 
know similar instances where the opposite was true.
    NOAA becomes an independent agency -- Under this proposal, NOAA is 
left to float alone, similar to the Environmental Protection Agency. 
There are some costs for changing stationery and logos. The budget 
structure within the Office of Management and Budget might have to be 
modified. There is no need to change Congressional jurisdiction. 
Several statutes would have to be amended. NOAA would lose the 
protections inherent in being part of a larger bureaucracy, but could 
suffer less bureaucratic interference. Presumably, NOAA would be more 
accountable for its actions, because the chain of command would end at 
the Administrator of NOAA.
    NOAA is moved to the Department of the Interior -- Again, there 
would be costs to the taxpayers for the transfer. Numerous statutory 
changes would have to be made to change responsibilities for such 
things as all marine fisheries management and the National Marine 
Sanctuary Program to either the Secretary of the Interior or the 
Administrator of NOAA. Given the relative size of the Department of the 
Interior as compared to the Department of Commerce, NOAA would become 
even more of a non-entity in the bureaucratic maze. And to be fair, 
these same problems would apply if NOAA were transferred to the 
Department of Agriculture, as some commercial fishermen have advocated.
    Speaking as a representative of the seafood industry on the Pacific 
Coast, the thought of the Secretary of the Interior managing marine 
resources terrifies me. While the U.S. Fish and Wildlife Service is 
relatively friendly towards hunters and recreational fishermen, the 
National Park Service isn't. I know that Congressman Young can relate 
to what happens if the National Park Service gets involved in 
fisheries--there's a 20 year history of conflict in Glacier Bay 
National Park that serves as a prime example.
    I have heard recreational fishermen grumble that NOAA--somehow by 
virtue of being in the Department of Commerce--gives no attention to 
recreational fisheries needs. Anyone who says that has spent no time at 
all on the Pacific Coast, where recreational fishing is given the same 
amount of attention as commercial fishing, if not more. NMFS has 
embarked on a recreational fisheries strategic plan and is going to 
great pains to solicit recreational fishermen's ideas. There is a 
recreational fisheries office in the NMFS hierarchy, reporting to the 
Director; nothing similar exists for the commercial fisheries. Quite 
honestly, I have trouble understanding this argument.
    Mr. Chairman, in looking at the costs and benefits, I am hard 
pressed to find any reason why you should abandon the status quo. 
Further, any decision to make changes, other than codifying NOAA 
through an organic act, should be considered in a holistic fashion, 
looking at the recommendations of the Commission on Ocean Policy 
report, and the President's responses which will be forthcoming. Given 
the complex nature of our government, simply picking up NOAA and moving 
it to another department of government is not a simple, easy, or cheap 
task.
    Finally, let me make clear that just because I advocate the status 
quo does not mean that I think NOAA is an agency free of problems. On 
the Pacific coast, we have a National Marine Sanctuary program that is 
running wild and trying to take over fisheries jurisdiction along most 
of the California coast, including establishing marine reserves without 
much real input from recreational and commercial fishermen. We have a 
recent proposal--now being seriously considered in NOAA--to consolidate 
marine research, which could make it even harder to conduct the 
research we need in support of fisheries management. We have data-
hungry fisheries management systems that are being operated with 
virtually no data. We have to borrow research vessels from Canada 
because there are no U.S. vessels available to conduct hydro-acoustic 
surveys.
    These and similar problems are not a function of which Secretary 
the Administrator of NOAA reports to; they are a matter of funding, of 
agency priorities, and of the statutes under which NOAA operates. My 
recommendation to this subcommittee is that you spend some time in 
thoughtful deliberation on where NOAA best fits, but spend even more 
time on oversight of NOAA itself and most time on examining--and 
fixing--the statutory problems that bedevil all of us.
    Again, Mr. Chairman, thank you for giving me the opportunity to 
present these views. I would be happy to answer any questions.
                                 ______
                                 
    Mr. Gilchrest. I would like to ask you a quick question 
before we all leave, and we will come back, and everybody will 
be well fed and rested. What is your opinion on the Senate 
action, their Organic Act? Do you have an opinion on that?
    Mr. Moore. I just had the opportunity to read the marked-up 
version this week, Mr. Chairman. I think it has got some good 
points, and it has got some bad points, the good points being 
creating an organic act for NOAA and the way the budgetary 
issue is handled; the bad points, in my view, creating yet 
another layer of bureaucracy within NOAA. We have enough of 
those.
    Mr. Gilchrest. If you sat on the conference committee for 
the omnibus appropriation bill, which is where we are heading, 
and someone from the Senate wanted to stick that in there, what 
you would say?
    Mr. Moore. I would just say no.
    Mr. Gilchrest. OK. Thank you very much, Mr. Moore.
    We will be back in 45 minutes. We will recess.
    [Recess.]
    Mr. Gilchrest. The Subcommittee will come back to order.
    Again, our apologies for our schedule. We hope to be here 
through the end of this hearing and will expedite it, because I 
understand some have to catch a plane and perhaps see the 
autumn leaves in New England with crisp blue skies, and bright, 
white, billowy clouds, and the hint of ocean spray on the 
horizon.
    Mr. Rosenberg. I was hoping to briefly visit with my wife, 
but I appreciate the sentiment.
    Mr. Gilchrest. You are doing that with your wife in a 
canoe, I would assume.
    I am going--and we can sort of go back and forth here. But 
I have a couple of questions, and each of you, please, give 
your perspective on it.
    Rod Moore gave his perspective on the NOAA Organic Act 
coming on the Senate side, and given all of the various 
proposals, whether it is Pew Oceans Commission, Mr. Saxton's 
proposal, what we see now on the Senate side, what is coming 
out of the Science Committee here in the House in the 
subcommittee, and it is likely or possible to be a suspension 
on the House Floor. Given all of this, is there any particular 
preference that each of you might have with dealing not with a 
full range of issues of NOAA, but dealing at this point with an 
Ocean Organic Act that may come out and actually be signed into 
law, given the variables that we have now in the House and the 
Senate side; or is your preference hold off, the next Congress 
will have the reports done, the recommendations done, hold a 
few hearings and do it then? Could we start with John?
    Mr. Palatiello. Well, Mr. Chairman, I guess I have been 
around along enough to know that nothing good usually happens 
in the final days of a Congress, and I would rather step back 
and take a broader look at this and revisit this next year. I 
am not--I am not of a mind that a really deliberative, 
thoughtful product comes out in the final hours of a Congress.
    Mr. Gilchrest. Dr. Rosenberg?
    Mr. Rosenberg. Thank you, Mr. Chairman. The Commission has 
been careful not to comment specifically on legislation. I will 
give you my personal opinion, but please understand that the 
Commission does not take a position as a Commission on 
legislation. I think Admiral Watkins was clear in the various 
hearings on that.
    I do believe that the Senate bill is--contains a number of 
very important features and do hope that something along that 
line can move forward. It does create a council, although not a 
council in exactly the way that the Commission called for it. 
It does call for real restructuring of NOAA and then thinking 
through this issue of where NOAA should be placed in a phased 
approach. Again, a little bit different from the way the 
Commission called for it, but it does have that important 
feature, does set some overall guiding principles to try to 
bring together some of the conflicts in mandates and policy 
that we currently have.
    I think that it also creates some real independence, even 
if NOAA remains within Commerce, by utilizing a mechanism like 
the independence used for FAA or PTO or one of those 
organizations. And that goes in, I think, in the sentiment, in 
the direction of Mr. Saxton's bill of trying to deal with the 
conflict issue.
    So I think it has a lot of those features, and so I would 
favor moving forward with that bill personally. Again, and I 
would simply say that the organic act from the Administration 
at this point really does not make any change, it simply 
codifies existing practice, as far as I can see in my looking 
at the bill when I looked at it a little while ago.
    Mr. Gilchrest. So it is more positive than negative, and it 
would be good, in your judgment--if I could paraphrase, a good 
first step in a phased approach for better ocean policy to 
actually sign into law the Ocean Organic Act on the Senate 
side?
    Mr. Rosenberg. Yes. I think that it would be an excellent 
first step, and I am really quite concerned, while I understand 
that you do not want to rush something through, I do not 
actually believe it was rushed, as it was pointed out in the 
discussion this morning. These issues have been discussed for 
quite a long time. If we wait until the new Congress, there 
will be all kinds of new issues coming up that will be new and 
perhaps capture interest more immediately, and I am really 
afraid that this will be lost.
    Mr. Gilchrest. So Mr. Moore said if he was sitting at that 
conference for the omnibus bill, and this was to be put in, he 
would try to stop it. You would put it in?
    Mr. Rosenberg. Yes.
    Mr. Gilchrest. Mr. Hayes?
    Mr. Hayes. I think there are some good things in that bill, 
and I think there are some important considerations in it. The 
problem that I have is that a lot of recreational groups and a 
lot of recreational fishermen, we have participated in all of 
the oceans reports. We have participated in the commissions. We 
have watched the study. But one does not get as focused until 
there is a legislative debate. And if this bill was going to 
pass and preclude a further legislative debate, much along the 
lines that Mr. Saxton suggested--and, frankly, lots of other 
people have suggested there are a lot of things to fix here. 
There is a lot more things to do than are being addressed in 
those bills, although those bills do address a number of the 
recommendations--if passing that bill precludes a debate, I 
would oppose it.
    Mr. Gilchrest. Thank you.
    Mr. Mann?
    Mr. Mann. I guess I am of the view of capturing progress 
while you can. You know, I do not have to tell you, Mr. 
Chairman, how hard it is to make progress on legislation in 
Congress. And if a bill can be enacted that does some of these 
things that the two Commissions are talking about and that the 
community wants, I think we should lock it in.
    I do share Bob Hayes' concern that we not preclude 
additional steps. In other words, if the bill cannot be 
strengthened to do what needs to be done, and its enactment 
would take the energy out of the system so that additional 
reforms could not be made, I wouldn't want to see that happen. 
But the bill as already reported from the Commerce Committee 
does make some important steps toward NOAA independence that I 
think are beneficial. It sets up a great structural and 
programmatic framework for the kinds of reform that the Oceans 
Commissions have proposed.
    We do feel that the policy statement that it makes, the 
national ocean policy that it articulates, should be 
strengthened--that what is in there now is not really far-
reaching enough to be a national ocean policy.
    And I should add that we are working with the Pew Oceans 
Commission to prepare a more formal set of views on that bill.
    Mr. Gilchrest. I thank you very much. I don't think there 
is any legislation that can't be reviewed or changed or 
modified. I understand your perspective on capturing progress 
while you can, and I also understand your statement about once 
something is done, the wind is out of the sails, and there does 
not seem to be motivation to do anything else about it. So we 
will look doubly closer at the Senate version, because we are 
going to have some time to make a decision on our comments, I 
would imagine sometime until mid-November, before this actually 
takes place.
    The gentleman from New Jersey, Mr. Saxton.
    Mr. Saxton. Thank you. The notion of moving NOAA somewhere, 
whether it be Interior or to be an independent agency or even a 
department as some would wish, that notion is a simplistic act, 
and that notion is embodied itself in my bill as a simplistic 
act. But I think we all recognize that we ought to have a 
legislative debate, or as least a conversation, as Mr. Hayes 
put it, as to what other changes we need to make perhaps at the 
same time.
    And if we could--for purposes of this discussion, if you 
could talk a little bit about your perspective of what other 
changes we would need to make to NOAA, but within the context 
of just dealing with NOAA for now, because that to me is a 
realistic objective, where some other objectives are maybe not 
as close at hand.
    So let's just suppose that we were to move NOAA to Interior 
because of the arguments that I made earlier. What else should 
we do, if we can do something else, at the same time?
    Mr. Palatiello. Mr. Chairman, I--there is an issue related 
to that that I think the Committee ought to keep in mind. I had 
an interesting conversation just a week or so ago with 
Congressman Frank Wolf, who, as you know, chairs the Commerce-
State-Justice Appropriations Subcommittee, and we were talking 
about NOAA funding. And his comment was, my subcommittee, we 
have to fund the FBI, we have to fund the prisons, we have to 
fund the State Department. And with the way the budget rules 
and the process are here in Congress with regard to allocations 
to the appropriations subcommittees, NOAA becomes--the Commerce 
Department, and NOAA in particular representing 60 percent of 
the Commerce Department's budget, it becomes a relatively low 
priority compared to funding the FBI, funding the prisons, 
funding the State Department.
    So if we look at where we might be moving NOAA, we ought to 
think about what stature and standing are they going to have 
with regard to funding when it comes to sustaining or improving 
the programs in NOAA that we all may support. I think that is 
an important consideration to keep in mind.
    And I am not sure I have enough experience in working 
issues on behalf of programs that we support in USGS and other 
places. I am not sure that the Interior appropriations process 
is any better way of getting these programs funded than we have 
now.
    Mr. Rosenberg. Congressman, I think there are five kinds of 
change that are needed, irrespective of where you move the 
Agency. I do think that NOAA needs to have, from both the 
science and regulatory perspective, actually more stability in 
leadership, independence of leadership than it currently has, 
where the Administrator really is responsible for all of the 
programs. And that is why I mentioned the concept in the Senate 
bill of having a 5-year term for the NOAA Administrator, much 
like FAA or PTO or NSF or one of the other organizations. I 
think that would help quite a bit in stabilizing the sort of 
basis for decisionmaking within the Agency as well as crafting 
a longer-term plan for how you would proceed in development of 
programs.
    I actually believe--even though I worked in NOAA for quite 
a while in the National Marine Fisheries Service, I believe 
that the line structure needs to change, as indicated in my 
written testimony, for two reasons. First of all, I think that 
the needs have changed, as I think all of our testimony has 
indicated. National Marine Fisheries Service no longer has the 
task that it originally was created to do, which is in part to 
Americanize fisheries. It has lots of other things it needs to 
do. It needs to work toward ecosystem-based management and work 
much more closely with NOS and NOAA research.
    And so I think that rethinking the line structure is 
important simply because of the task. But I also think that it 
is very hard for people to view their jobs differently if the 
name is the same, the structure is the same, the offices are 
the same and so on. So a little bit of shakeup can sometimes be 
very helpful; even though I have very high regard for NOAA and 
the people who work there and consider them my colleagues and 
friends, that shakeup is still needed. Even if I was still 
working there, I would think that. I just might not be able to 
say it.
    I do think there needs to be consolidation of programs as a 
third element not only within NOAA, but from other places. Some 
of that was raised with regard to things such as marine mammal 
authorities. I think it also occurs with habitat programs, 
mapping programs, the whole estuary programs which are 
scattered across the government and are fragmented. And there 
needs to be some thinking about where the programs need to be 
located, how you fit them together, and who actually is going 
to have a primary role for a particular kinds of program. So 
consolidation of programs, I think, is an important element.
    Conflicting mandates where you are supposed to be 
regulating fisheries and managing marine mammals and managing 
habitat all at the same time, but the mandates do not actually 
fit together is a big issue and a very difficult issue, and the 
only way that I can see that it will be solved is by partly the 
coordination at a national Ocean Policy Council level, and then 
obviously following Congress' lead in looking at some of those 
conflicting mandates.
    And finally, on funding, I do think that there are major 
funding issues, particularly for the science within NOAA, that 
need to be stabilized and, on the science side, certainly 
increased. But also the way that the budgets are developed, the 
Commission recommends, and I happen to agree, that the review 
of the budgets within OMB, the management of the budgets needs 
to be greatly improved, and that includes external programs as 
well as internal programs.
    NOAA granting and contracting is notoriously bad and has 
been notoriously bad for as long as I can remember, and it is 
not getting fixed, and so something needs to change, but 
something also needs to change in the way that the budget is 
managed and developed as a resource agency budget.
    Mr. Gilchrest. Thank you.
    Mr. Hayes. I have about five of these as well. And let me 
just echo this whole concept of funding. If you are going to 
have ecosystem management, my view of the science is that they 
are woefully prepared and funded to do that. The reason they 
are doing species-by-species management is because they have 
some capabilities to do species-by-species management. I don't 
think the scientific basis or the basic infrastructure in the 
science programs inside of NOAA or NMFS are capable of 
producing what most people would consider good ecosystem 
management, so I think there are some funding concerns there.
    They need to rationalize their statutes. You can't have, as 
we have today, two separate entities essentially managing 
fisheries as we have in the sanctuaries program and we have in 
the National Marine Fisheries Service. You usually have fish. 
Those fish are not that smart. They tend to swim in and out of 
those places, and as a result you have to have a unified view 
as to how that management ought to occur, and you have to have 
a unified view as to what your basic objectives are. That is an 
essential of this rationalization of the statutes.
    But that rationalization exists in how do you treat marine 
mammal endangered species, whales and coral, any other 
component part of the environment? That is not to say that I 
have a great idea as to how that rationalization would occur. 
That is not going to be an easy policy job to do. But it is 
something that I think needs to be done if you are going to 
improve the management of species, and if you are going to go 
to ecosystem management.
    The third thing I have is what I call streamlining the 
regulatory system. My view is the regulatory system inside the 
National Marine Fisheries Service is not a very streamlined 
activity. Let me give you one example, because I think it 
really describes it so well. People were concerned about 
ecosystem management 10 years ago, and so the South Atlantic 
Council went forward and said, look, there is something out 
here called the Sargassum Sea, so maybe we will go ahead and 
manage seaweed basically. There was one harvester of this stuff 
who used to land it in North Carolina or South Carolina, so the 
South Atlantic Council went through this process, forward look, 
they developed all of those things you are supposed to develop, 
the maximum sustainable yield of sargassum, and they went 
through this incredible process of trying to fit the statutory 
language into what they viewed as a problem, and at the end, 
they delivered a document to the National Marine Fisheries 
Service. I think 6 years later, those regulations were returned 
to the South Atlantic Council and essentially they said, we 
have some problems. Can you look at this?
    It is an impossible process if you are trying to create 
councils that make policy decisions and establish objectives 
and then come up with what they think are good answers. The 
last time I looked, the statute says they are supposed to come 
up with good answers and then go back up through this 
incredible process to the National Marine Fisheries Service.
    On top of the National Marine Fisheries Service--and in 
their defense, you, the Congress, have given them 15 other 
statutes that they have to deal with. You have economic 
analysis, you have environmental analysis, you have this 
analysis, you have that analysis. And I am not suggesting that 
those components parts are not important. What I am suggesting 
is that somehow we are going to have to think about unifying 
and rationalizing that process so that it can be responsive 
when the scientists come forward and say, we have a problem 
here. At the moment, frankly, it is such a bogged-down process, 
it is very difficult to work in.
    The last thing I would like to suggest, which really deals 
with white marlin, my perception of good management, and this 
is the perception that is in the Magnuson Act, is that the 
lower you place the management of a species as far as 
government goes, the better. White marlin, if you sort of look 
at that, is as far away from the American public as it could 
possible get. It is done in meetings in Dublin. That is where 
white marlin is discussed. We discuss it at ICCAT. You were at 
ICCAT last year.
    Mr. Gilchrest. Dublin is a fair city.
    Mr. Rosenberg. It is a wonderful city, but it is a long way 
from public opinion. And it is fun drinking Guinness, but it is 
not much fun coming back with some of the answers we get.
    Mr. Gilchrest. And having to vote on the energy bill when 
you get here.
    Mr. Rosenberg. The process here ought to be brought down, 
frankly, in my view, to a council-type situation. There are 
advisory committees that domestically advise the Department of 
Commerce as to what ought to be done. Those advisory committees 
are treated exactly as that, advisory committees, not people 
who develop policy, not people that have the same clout, if you 
will, as a fishery management council.
    Mr. Gilchrest. I really regret interrupting you, but I have 
to leave at 1:30.
    Mr. Rosenberg. I will make this my last point. We ought to 
create for HMS species a council, and that council ought to 
have authority.
    Mr. Gilchrest. Thank you very much.
    Chris?
    Mr. Mann. I will be brief. The reforms in the larger sense 
that are needed I think I outlined in my written testimony. I 
think we need a larger set of reforms than just NOAA. And I 
would put at or near the top of the list funding. It is not the 
only thing, but without additional resources to address these 
problems, I think there is a lot of agreement at the table here 
we are not going to get it done. And I think Congress should 
take a very serious look at funding mechanisms proposed, the 
use of OCS revenue in a way that does not encourage unwanted 
OCS development.
    That pot of money is--comes from the use, the development 
of natural resources, and I think it makes good policy sense to 
plug it back into the management of renewable resources. That 
is the only way we get a long-term benefit from that resource 
extraction.
    You need to do more than just fund it, obviously. We need 
to address the mandate question, and that is at two levels. One 
is within NOAA. Obviously, there has been a lot of discussion 
about the conflicting mandates that NOAA faces in its resource 
management mission. You need to straighten that out. An organic 
act would help with that. A mission statement like we have for 
the Park Service, like we have for the Fish and Wildlife 
Service, that helps. But you are going to have to go in and 
amend other statutes like the Magnuson Act to make conservation 
a priority, and an unambiguous priority, because you know the 
situation was improved with the 1996 amendments, but I don't 
think we are there yet.
    No matter how much you straighten out NOAA, and 
consolidation of programs is a good idea, you are not going to 
put all the programs in one oceans agency that have an effect 
on oceans. You are still going to have, you know, USDA, you are 
still going to have Transportation, you are still going to have 
defense operations. So we need coordination as recommended by 
both of the Commissions.
    And last we need--it is not just about the Federal 
Government. Three miles of the ocean, in some cases 10 miles 
out are controlled by the States. And although the real estate, 
the total real estate, is less, these are some of the most 
important resources to the American people. Yet the marine 
ecosystems do not respect these boundaries. So we need to find 
a way to harmonize State and Federal ocean policy, a regional 
forum and process to come up with place-based approaches for 
addressing problems.
    Mr. Gilchrest. Thank you very much, Mr. Mann.
    The gentleman from New Jersey, Mr. Pallone.
    Mr. Pallone. I know you are all leaving at 1:30. I think I 
can get done in 5 minutes. At least I can.
    To what Mr. Mann said, I was going to ask the other panel 
quickly to respond. This idea that NOAA operates under many 
different statutory authorities, and specific programs have 
their own governing statutes, like CZMA, National Marine 
Sanctuaries Act; the idea to actually strengthen NOAA, the 
Congress has to revise or revamp these other laws. If the 
others could just briefly respond to that what Chris said, or 
answer the question, you know, in order to really strengthen 
NOAA, do we have to revise or revamp, or should we revise or 
revamp these other laws?
    Mr. Palatiello. Mr. Pallone, obviously my perspective is 
very narrow, and I am not--pardon the pun, I am a fish out of 
water with these gentlemen. But with regard to the mapping and 
charting, NOAA's mapping and charting, for all intents and 
purposes, still operates under the Act of 18--I forget the 
year--1883? A lot has changed in technology in the mapping and 
charting fields since then. So I think revisiting that organic 
act is very much in order.
    The other thing that I would add to the equation is I 
believe Congress has asked NOAA to do much too much with the 
resources it is given, and I think we need to revisit what is 
the core mission of NOAA and what is it that we really want 
this Agency to do, and what is it that others can probably do 
better, and bring it back to assigning priorities and defining 
its core mission.
    Mr. Pallone. Mr. Rosenberg?
    Mr. Rosenberg. I do believe that the issue of conflicting 
mandates is a big one. To address it you need to have an 
overarching framework in an organic act or ocean policy act 
that says this is the goal that we are trying to achieve 
broadly with all of these various statutes, and give some 
ability to fit together the various solutions you come up with. 
I don't think any of the mandates are going to go away, and 
even if you move their responsibilities to other agencies, that 
does not necessarily help; although I agree to some extent that 
the mission has drifted or expanded, sometimes not because of 
statutory mandates, but just because of the way that policy is 
developed within NOAA.
    But you need some kind of overarching framework such that 
you can resolve the conflicts when they occur between the 
different statutory authorities. And you do not need to do the 
same thing in four different places. So if you are going to 
manage habitat, let's have an overall habitat goal and 
understand how the various statutes relate to that goal so 
there is some specific work to be done there.
    Mr. Hayes. Andy said it very well, the answer is yes.
    Mr. Pallone. Let me ask Mr. Rosenberg a couple of 
questions. With regard to the future of NOAA, the U.S. 
Commission on Ocean Policy decided that it would be the 
preferred course of action to authorize NOAA in statute, 
strengthen the Agency, but to defer for future consideration of 
whether to make the Agency wholly independent or relocate it 
within the Federal Government, as Mr. Saxton's bill would.
    Did the Commission conclude there is an inherent conflict 
of interest due to NOAA's location in the Department of 
Commerce, anything of that nature?
    Mr. Rosenberg. The Commission did not specifically conclude 
that there was that conflict of interest. We discussed that 
issue, but we felt that the changes in the way that NOAA works 
and operates were the first priority, and then you can make the 
decision about structurally where does it best fit.
    Mr. Pallone. Did they consider the option proposed under 
Mr. Saxton's bill, and if so, was it rejected?
    Mr. Rosenberg. We did consider it at length in discussion, 
and we decided that while some might favor--and sometimes you 
might change your mind over the 3 years of the Commission--that 
our conclusion was we really needed to do this restructuring 
work. And, frankly, the concern was that NOAA was created by 
moving bits and pieces from other places into an agency, and 
they somewhat retained their features from their homes. If we 
move NOAA to another place without making a change in the way 
that NOAA operates, the danger is it would continue to do just 
as it is doing without real change even though it would have a 
different home.
    Mr. Pallone. What about the idea of the creation of a 
larger department-level agency focused on natural resource 
management? Was that rejected or just considered?
    Mr. Rosenberg. We considered it and felt that politically 
it would be extremely difficult to do, and, again, it should be 
part of that final phase once you really decide how the agency 
should be shaped. Is it departmental, is it an independent 
agency, or should it be moved from its current location.
    Mr. Pallone. The last thing, if it is OK, Mr. Chairman, the 
way I read section 8 of the bill, the Director of OMB would be 
authorized to make any subsequent incidental transfers of 
programs, personnel, and assets as necessary. This authority 
would come without any requirements for review or justification 
or any approval by the respective oversight committees in the 
Congress. So my concern is that there would be no 
accountability.
    It is sort of a broad discretionary authority that might be 
abused to dismember NOAA as it currently exists. I am not 
saying that is the intention, but that seems like a 
possibility, and in a way reduces the stated purpose of the 
bill if you read it that way. So I just wanted to ask you if 
you agree with this interpretation, my fear and this 
interpretation.
    Mr. Rosenberg. I am afraid I am a biologist, not a lawyer, 
so I am not sure I understand the interpretation of that 
section of the bill. It would seem to me that the funding 
provisions for NOAA, the appropriations provisions and 
reprogramming authority are such that it would make that kind 
of a provision impossible to work, even if OMB decided to move 
things around. You couldn't move the funding around, because 
the reprogramming provision for NOAA has a very, very low 
ceiling.
    Mr. Pallone. In other words, I am not saying that it does 
that, but assuming that were the reading of the bill, you 
wouldn't want to delegate that kind of authority to OMB.
    Mr. Rosenberg. I certainly wouldn't want to delegate it to 
OMB, no.
    Mr. Pallone. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Gilchrest. Thank you, Mr. Pallone.
    Frank made me think of a question that I will oversimplify. 
The wet and dry sides of NOAA, are they compatible the way they 
are, or could they be separated to function more efficiently 
and in a NOAA, in a NASA, in a separate agency?
    Mr. Rosenberg. Very quickly, I do not think they should be 
separated. I think they should be brought closer together, 
because as the science advances, we find out they are closer 
and closer together in terms of the actual processes and the 
natural processes.
    Mr. Gilchrest. Any other questions, Mr. Saxton?
    Mr. Pallone. I was just going to ask if we could, with your 
permission, Mr. Chairman, ask some follow-up written questions.
    Mr. Gilchrest. We will have follow-up written questions to 
each of the witnesses here today.
    Mr. Pallone. Thank you.
    Mr. Gilchrest. Gentlemen, thank you so much. It has been 
very, very helpful. The hearing is adjourned.
    [Whereupon, at 1:30 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
